<html>
<title> - TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. THOMAS PORTEOUS, JR. (PART I)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. 
                     THOMAS PORTEOUS, JR. (PART I) 

=======================================================================

                                HEARING

                               BEFORE THE

                   TASK FORCE ON JUDICIAL IMPEACHMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        NOVEMBER 17 AND 18, 2009

                               __________

                           Serial No. 111-43

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-638 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

                   Task Force on Judicial Impeachment

                  ADAM B. SCHIFF, California, Chairman

SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
WILLIAM D. DELAHUNT, Massachusetts   F. JAMES SENSENBRENNER, Jr., 
STEVE COHEN, Tennessee               Wisconsin
HENRY C. ``HANK'' JOHNSON, Jr.,      DANIEL E. LUNGREN, California
  Georgia                            J. RANDY FORBES, Virginia
PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
CHARLES A. GONZALEZ, Texas























                            C O N T E N T S

                              ----------                              

                        NOVEMBER 17 AND 18, 2009

                                                                   Page
November 17, 2009................................................     1
November 18, 2009................................................   139

                           OPENING STATEMENTS

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California, and Chairman, Task Force on Judicial 
  Impeachment....................................................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Task Force on 
  Judicial Impeachment...........................................     5
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     7
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Task Force on Judicial 
  Impeachment....................................................     7
The Honorable Henry C. ``Hank'' Johnson, Jr., a Representative in 
  Congress from the State of Georgia, and Member, Task Force on 
  Judicial Impeachment...........................................     8
The Honorable Pedro Pierluisi, a Representative in Congress from 
  Puerto Rico, and Member, Task Force on Judicial Impeachment....     9

                               WITNESSES

Mr. Robert Creely, Attorney, New Orleans, LA
  Oral Testimony.................................................    19
Mr. Jacob Amato, Jr., Attorney, New Orleans, LA
  Oral Testimony.................................................    99
Mr. Joseph Mole, Attorney, New Orleans, LA
  Oral Testimony.................................................   140

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Exhibit of Alan Baron, Counsel, Task Force on Judicial 
  Impeachment, submitted by the Honorable Adam B. Schiff, a 
  Representative in Congress from the State of California, and 
  Chairman, Task Force on Judicial Impeachment...................    58


  TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. 
                     THOMAS PORTEOUS, JR. (PART I)

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2009

                  House of Representatives,
                 Task Force on Judicial Impeachment
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Task Force met, pursuant to notice, at 10:36 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Adam 
Schiff (Chairman of the Task Force) presiding.
    Present: Representatives Schiff, Cohen, Johnson, Gonzalez, 
Pierluisi, Goodlatte, Lungren, Gohmert, and Sensenbrenner.
    Staff Present: Alan Baron, Counsel; Harold Damelin, 
Counsel; Mark H. Dubester, Counsel; Jessica Klein, Staff 
Assistant; and Kirsten Konar, Counsel.
    Mr. Schiff. This hearing of the House Judiciary Task Force 
on Judicial Impeachment will now come to order. Without 
objection, the Chair will be authorized to declare a recess of 
the hearing.
    I will now recognize myself for an opening statement.
    This hearing has been called to commence the inquiry into 
whether United States District Court Judge Thomas Porteous 
should be impeached by the United States House of 
Representatives. Article I, Section 1 of the Constitution vests 
the sole power of impeachment in the House of Representatives. 
As has been noted in the past, such a task is not one that we 
welcome. However, it is an important responsibility that has 
been entrusted to us by the founders.
    In late 1999, the United States Department of Justice and 
the Federal Bureau of Investigation began a criminal 
investigation of Judge Porteous. Several years later, the 
Department of Justice submitted a complaint referring 
allegations of judicial misconduct concerning Judge Porteous to 
the Fifth Circuit Court of Appeals. The complaint noted that 
the FBI and a grand jury had been investigating Judge Porteous 
for many years but decided not to bring criminal charges and 
instead referred the case to the courts and Congress for 
disciplinary proceedings and potential impeachment.
    Despite the Department's decision not to charge Judge 
Porteous with violations of Federal criminal law, the complaint 
stated that the investigation uncovered evidence of ``pervasive 
misconduct committed by Judge Porteous.''
    The complaint states, ``Collectively, the evidence 
indicates that Judge Porteous may have violated Federal and 
state criminal laws, controlling canons of judicial conduct, 
rules of professional responsibility, and conducted himself in 
a manner antithetical to the constitutional standard of good 
behavior required of all Federal judges.''
    The evidence of misconduct cited included the following: 
one, evidence that Judge Porteous solicited and accepted money 
and other things of value from attorneys and litigants with 
matters before him; evidence number two, that Judge Porteous 
accepted things of value from a bail bonds company with 
business before his judicial district and its owners in 
exchange for access and assistance; number three, evidence that 
the judge filed false pleadings and concealed assets in a 
bankruptcy proceeding and violated an order of that court; and 
number four, evidence that Judge Porteous submitted additional 
false and misleading statements in official proceedings; number 
five, further circumstantial evidence that Judge Porteous 
engaged in corrupt activities; and, finally, number six, that 
the judge was incompetent to serve.
    The Department of Justice's complaint concluded that the 
instances of Judge Porteous's dishonesty in his own sworn 
statements and court filings, his decade-long course of conduct 
in soliciting and accepting a stream of payments and gifts from 
litigants and lawyers with matters before him, and his repeated 
failures to disclose those dealings to interested parties and 
the court all render him unfit as an Article III judge.
    Upon receipt of the department's complaint, the fifth 
circuit appointed a special investigatory committee to 
investigate the allegations. Hearings were held, at which Judge 
Porteous, representing himself, made statements, cross-examined 
witnesses, and called witnesses on his own behalf. In November 
2007, the special investigatory committee issued a report 
detailing the findings of their investigation of Judge 
Porteous. The special committee concluded that the matter 
should be referred to the Judicial Conference of the United 
States because Judge Porteous had engaged in conduct which 
might constitute grounds for impeachment under both Article I 
and Article III of the Constitution.
    On December 20, 2007, the full Judicial Council of the 
United States Court of Appeals for the fifth circuit by a 
majority vote accepted and approved the special investigatory 
committee's findings and certified the matter to the Judicial 
Conference of the United States.
    On June 17, 2008, the Judicial Conference of the United 
States voted unanimously to certify to the speaker of the House 
its determination that consideration of impeachment of Judge 
Porteous may be warranted based on substantial evidence that 
Judge Porteous repeatedly committed perjury by signing false 
financial disclosure forms under oath in violation of law, 
concealing the cash and things of value he solicited and 
received from lawyers appearing in litigation before him, that 
Judge Porteous repeatedly committed perjury by signing false 
statements under oath in a personal bankruptcy proceeding, in 
violation of law and the code of conduct for U.S. judges, that 
Judge Porteous willfully and systematically concealed from 
litigation and litigators and the public financial transactions 
by filing false financial disclosure forms in violation of law 
and the judicial code of conduct, that Judge Porteous violated 
several criminal statutes and ethical canons by presiding over 
the Liljeberg matter, and that Judge Porteous made false 
representations with intent to defraud a bank and causing the 
bank to incur losses, in violation of law.
    The Judicial Conference of the United States concluded that 
this conduct has individually and collectively brought 
disrepute to the Federal judiciary. On September 10, 2008, the 
Judicial Council of the fifth circuit issued an order and 
public reprimand, taking the maximum disciplinary action 
allowed by law against Judge Porteous, suspending him for 2 
years or until Congress takes final action on the impeachment 
proceedings, whichever occurs earlier.
    On September 17, 2008, the House of Representatives passed 
House Resolution 1448 by unanimous consent authorizing and 
directing this Task Force to inquire whether Judge Porteous 
should be impeached. This authority was continued in January 
2009, pursuant to House Resolution 15. Accordingly, we are 
conducting this evidentiary hearing today.
    Article III, Section 1 provides that the judges both of the 
supreme and inferior courts shall hold their offices during 
good behavior and shall at stated times receive for their 
services a compensation which shall not be diminished during 
their continuance in office.
    Article II, Section 4 of the Constitution provides that all 
civil officers of the United States shall be removed from 
office on impeachment, for and conviction of treason, bribery, 
or other high crimes and misdemeanors.
    The framers sought to protect the institutions of the 
government, according to one impeachment report, by providing 
for the removal of persons who are unfit to hold positions of 
public trust. The Congressional Research Service has written 
the phrase ``high crimes and misdemeanors'' is not defined in 
the Constitution or in statute.
    No definitive list of types of conduct falling within the 
high crimes and misdemeanors language has been forthcoming as a 
result of this debate, but some measure of clarification has 
emerged. The precedents in this country reflect the fact that 
conduct which may not constitute a crime, but which may still 
be serious misbehavior bringing disrepute upon the public 
office involved, may provide a sufficient ground for 
impeachment.
    The purpose of this and future hearings will be to develop 
a record upon which the Task Force can recommend whether to 
adopt articles of impeachment. These proceedings do not 
constitute a trial, as the constitutional power to try 
impeachment resides in the Senate.
    This inquiry will focus on whether Judge Porteous's conduct 
provides a sufficient basis for impeachment. In order to 
develop the record, the Task Force has called witnesses and 
will admit documents that will help us determine whether the 
constitutional standard for impeachment has been met. This Task 
Force will proceed in a fair, open, deliberate, and thorough 
manner, and our work has and will continue to be done on a 
bipartisan basis.
    To date, Task Force staff has interviewed over 50 
individuals, deposed about 20 witnesses under oath, and 
obtained documents from various sources, including four 
witnesses, the 24th Judicial Court in Jefferson Parish, 
Louisiana, and the Department of Justice.
    I would like to note that Judge Porteous was offered the 
opportunity to respond personally to questions concerning his 
conduct in the form of a deposition. He declined our 
invitation.
    Today's hearing will focus on allegations that Judge 
Porteous violated the public trust, the law, and ethical canons 
by presiding over the case in In Re: Liljeberg Enterprises, 
Incorporated. In that matter, which was tried without a jury, 
the evidence indicates that Judge Porteous denied a motion to 
recuse himself from the case based on his relationship with the 
lawyers in the case. In denying the motion, he failed to 
disclose that the lawyers in question had provided him with 
cash.
    Thereafter, while a bench verdict was pending, there is 
evidence that he solicited and received from the lawyers 
appearing before him illegal gratuities in the form of cash and 
other things of value. As the Judicial Conference noted, this 
conduct, which was undertaken in a concealed manner, deprived 
the public of its right to his honest services and constituted 
an abuse of his judicial office.
    In subsequent hearings, we will cover other allegations 
involving false statements in bankruptcy proceedings, a corrupt 
relationship with the owners of a bail bond company, and other 
allegations of improper gifts and gratuities, as well as 
hearings on the constitutional issues involved.
    Before we proceed, I would like to discuss some important 
procedural matters. Based on correspondence with Judge 
Porteous's counsel and after consulting with Ranking Member 
Goodlatte, we will use several procedures, which I will 
describe.
    Judge Porteous has been offered a chance to testify and be 
questioned at an appropriate hearing. I understand that Judge 
Porteous is present today, as is his counsel.
    Counsel, could you introduce yourself?
    Mr. Starns. My name is Remy Starns, 2001, Jefferson 
Highway, New Orleans, Louisiana. And I am counsel for Judge 
Porteous.
    Mr. Schiff. Could you bring the microphone just a little 
closer? Thank you.
    And, Counsel, we have offered Judge Porteous the 
opportunity to testify at an appropriate hearing. Is it your 
intention for Judge Porteous at an appropriate hearing to 
testify during these proceedings?
    Mr. Starns. I am sorry, Mr. Chairman. I didn't hear you.
    Mr. Schiff. We have offered Judge Porteous the opportunity 
to testify at an appropriate hearing with advance notice to the 
Committee. Is it your intention to have Judge Porteous testify 
at one of our hearings?
    Mr. Starns. That has not been determined. Judge Porteous 
will not testify today.
    Mr. Schiff. Counsel, you will have an opportunity if you 
like to make an opening statement. Would you like to make an 
opening statement?
    Mr. Starns. Mr. Westling is going to make an opening 
statement for us.
    Mr. Schiff. Okay.
    Mr. Westling. Congressman, my name is Richard Westling. I 
am lead counsel for Judge Porteous. I have had numerous 
correspondence with you, and I appreciate the opportunity to be 
here today.
    Oh, I am sorry. I apologize.
    We have received your letters requesting information about 
Judge Porteous's intent. It is not his intent at this time to 
appear as a witness at these hearings, but to simply attend as 
a person who is obviously interested in what is going on here 
today.
    Mr. Schiff. And would you just confirm for the record that 
Judge Porteous is present with us today?
    Mr. Westling. Yes, he is, your honor.
    Mr. Schiff. And, Counsel, you will be given an opportunity 
to make a statement during the hearing, as well as an 
opportunity to question witnesses, if you choose to accept that 
invitation.
    Mr. Westling. Thank you.
    Mr. Schiff. We have also invited Judge Porteous to submit 
documentary evidence on his behalf. He has also been given the 
opportunity to request the specific individuals be permitted to 
testify.
    As I just mentioned, counsel for Judge Porteous will be 
permitted to question any of the witnesses that he so chooses 
for 10 minutes each. While this is consistent with past 
precedent, it should be noted that this is an extraordinary 
prerogative that is being granted. This, after all, is not a 
trial, but is more in the nature of a grand jury proceeding.
    The Task Force reminds Judge Porteous and his counsel that 
no objections or other interruptions in the testimony will be 
permitted. After all Members wishing to make an opening 
statement will have the opportunity to do so, I will ask Task 
Force counsel Alan Baron to brief us for up to 20 minutes, 
providing a general overview of the matter under consideration 
today. After his presentation, the first witness will be sworn 
in and questioned for up to 20 minutes by Task Force counsel.
    After that initial period, Members will be recognized for 
questions under the 5-minute rule. Judge Porteous's counsel 
will then be permitted to question the witnesses for 10 
minutes. Finally, Members will be permitted to ask any further 
questions of the witness.
    After the Task Force is concluded with one witness, the 
next will be called. Hearing no objection, that will be the 
procedure.
    I would now like to recognize my colleague, Mr. Goodlatte, 
the distinguished Ranking Member of the Task Force, for his 
opening remarks, and I want to thank him again for the manner 
in which he has conducted this investigation. It has really 
been a completely bipartisan, really nonpartisan effort, and I 
want to thank him and introduce my Ranking Member.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Chairman, I believe that the procedures we have laid 
out this morning are fair and will facilitate a comprehensive 
hearing on this particular aspect of our inquiry into the 
conduct of Judge Porteous. I also want to thank you for 
administering this Task Force in a bipartisan manner.
    Article III of the Constitution provides that Federal 
judges are appointed for life and that they shall hold their 
offices during good behavior. Indeed, the framers knew that an 
independent judiciary free of political motivations was 
necessary to the fair resolution of disputes and the fair 
administration of our laws.
    However, the framers were also pragmatists and had the 
foresight to include checks against the abuse of independence 
and power that comes with a judicial appointment. Article III, 
Section 2, Clause 5 of the Constitution grants the House of 
Representatives the sole power of impeachment.
    This is a very serious power that should not be undertaken 
lightly. However, if evidence emerges that an individual is 
abusing his judicial office, the integrity of the judicial 
system becomes compromised and the House of Representatives has 
the duty to investigate the matter and take any appropriate 
actions to end the abuse and restore confidence in the judicial 
system.
    As the Committee of jurisdiction over the Federal bench and 
the Committee with authority over the impeachment process, the 
Judiciary Committee has a somber obligation to root out 
activities that undermine the impartiality of the Federal 
bench. For orderly society to continue, it is crucial that 
citizens continue to have faith that the judicial system will 
exercise its authority to determine disputes fairly and without 
partiality.
    I thank Chairman Conyers and Ranking Member Smith for 
authorizing this Task Force on Judicial Impeachment. While this 
is not pleasant work, it is necessary.
    Today we are examining the potential misconduct of Judge 
Thomas Porteous. The Judicial Conference of the United States 
forwarded this matter to the Congress for further consideration 
after concluding that Judge Porteous ``has engaged in conduct 
which might constitute one or more grounds for impeachment.''
    Since then, the Task Force has been working diligently to 
investigate Porteous's conduct and has worked with law 
enforcement and judicial officials, has conducted numerous 
interviews, taken depositions from key witnesses, and gathered 
evidence and transcripts from the previous investigations.
    These efforts have uncovered a large amount of information 
that the Task Force Members need to consider. We will hold a 
series of hearings to examine all of this information. However, 
today's hearing will focus on Judge Porteous's conduct leading 
up to and during the Liljeberg case, which was argued before 
Judge Porteous.
    The witnesses here today represented the litigants in the 
Liljeberg case, and they have firsthand knowledge of the 
incidents surrounding that case. It is worth noting that Judge 
Porteous was extended an invitation to come make a statement 
before the Task Force and respond to questions, but has so far 
declined to do so.
    It is also worth noting that the Task Force has permitted 
Judge Porteous's counsel to ask questions of the witnesses 
today.
    If the evidence shows that wrongdoing occurred, then the 
Task Force will make the appropriate recommendations to the 
full Judiciary Committee, and we will have more work to do. I 
look forward to hearing from the witnesses and rooting out the 
facts in an objective manner.
    Thank you, Mr. Chairman, for holding this important 
hearing.
    Mr. Schiff. I thank the gentleman.
    And I would now like to recognize the Ranking Member of the 
full Committee, Mr. Lamar Smith of Texas, for his comments.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you for holding this important hearing to consider 
the possible impeachment of Judge G. Thomas Porteous, and I 
appreciate the way you and the Ranking Member, Mr. Goodlatte, 
have conducted the ongoing investigation.
    The Constitution grants the House of Representatives the 
sole power to impeach a sitting Federal judge. This is a very 
serious power that Congress does not take likely. Impeachment 
by the House constitutes one of the few checks on the judiciary 
and is to be used only in instances when a judge betrays his 
office or proves unfit to hold that position of trust.
    We want to be fair to Judge Porteous and to that end, the 
Task Force has granted his attorney the opportunity to examine 
the witnesses who will be called to testify. Judge Porteous has 
also been invited to appear and testify at these hearings in 
order to explain why his conduct does not warrant impeachment.
    It is our constitutional duty not to prejudge the evidence 
in this matter or to anticipate the course of these 
proceedings. However, it should be noted that the allegations 
of misconduct and improprieties by Judge Porteous are serious, 
numerous, varied, and occurred over a period of many years.
    Based on a review of the allegations of misconduct by Judge 
Porteous that the Task Force has examined, the Judicial 
Conference certified to the speaker of the House that 
consideration of the impeachment of Judge Porteous may be 
warranted. Around the same time, the Judicial Council of the 
fifth circuit issued an order and public reprimand, imposing 
the maximum disciplinary action allowed by law against Judge 
Porteous.
    As of September 10, 2008, Judge Porteous has been suspended 
from the bench for 2 years or until Congress takes final action 
on the impeachment proceedings.
    Though judges rule on the law, they are not above the law. 
To preserve equality and fairness in our constitutional 
democracy, we must protect the integrity of the courts. The 
time has come for Congress to determine whether Judge 
Porteous's conduct has deemed him unworthy to serve on the 
Federal bench.
    Now, I thank you, Mr. Chairman. Again, I look forward to 
hearing from the witnesses.
    Mr. Schiff. I thank the gentleman.
    At this time, I would be happy to recognize other Members 
who wish to make an opening statement.
    Mr. Cohen of Tennessee?
    Mr. Cohen. Thank you, Mr. Chairman. I appreciate the work 
you have done and the other Members of this Task Force.
    The judiciary has to be like Caesar's wife, beyond 
reproach, as people have to have a highest opinion of fairness 
in that division of government, not that they shouldn't in all 
three. But the judiciary holds a special place. And to soil the 
cloth is a serious issue that has to be discussed here by this 
Committee in this impeachment hearing.
    There are allegations, Mr. Chairman, that Judge Porteous 
has received money and other things of value from attorneys 
with business before his court, and he has not denied that. He 
has claimed that some of these monies were for a personal 
nature and that people just extended them because of personal 
friendships. Nevertheless, that does raise an issue about the 
appearance of impropriety and certainly something Caesar's wife 
would not have been involved in.
    The same friendship judge--attorneys appeared before his 
bench. And if the friendship were that close, it is troubling 
to know that the defense--receiving money is this close 
friendship, and if the friendship is that close to where people 
give cash monies, that they wouldn't--that they would be 
allowed to practice before him and there wouldn't be any 
disclosure to the other party or the public about the close 
personal relationship.
    There is a series of transactions and involvements that, as 
a lawyer and as a Member of this Judiciary Committee, that I 
find troubling. Nevertheless, of course, we have to listen to 
all of the testimony that is solicited and the statements of 
Judge Porteous and/or his counsel and be impartial in this 
particular hearing.
    But our duty is to try to see what the facts are and 
maintain the integrity of the judiciary system in light of the 
task given us by the Chairman and determine whether justice 
dictates that we take action and send this on to the Senate for 
the overall good of the judiciary.
    These are very serious allegations that have been leveled 
against the judge and a serious and solemn duty that we must 
take and uphold to maintain the integrity of the judiciary and 
our Nation. I look forward to the testimony from the witnesses 
today and reserve our final judgment until after these 
proceedings are concluded, and I do appreciate the work of 
Chairman Schiff and Vice Chairman Goodlatte and the whole Task 
Force staff, especially Mr. Baron, in moving this investigation 
forward.
    And I yield back the balance of my time.
    Mr. Schiff. I thank the gentleman.
    Who else seeks recognition?
    Yes, Judge Hank Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    I want to first thank the two leaders of the Task Force, 
Mr. Schiff and Mr. Goodlatte, with handling this matter in a 
manner that would make us all proud because we know that this 
will be a fair proceeding.
    And it is important, ladies and gentlemen, that we maintain 
the integrity of our judiciary, which is fundamental to the 
functioning of our legal system. As a former judge, current 
Chairman of the Subcommittee on Courts and Competition Policy, 
and a Member of the Impeachment Task Force, I believe in the 
importance of a judiciary free from judicial misconduct.
    Judge Porteous's behavior is particularly egregious, as he 
stands accused. One example of this misbehavior, his refusal to 
recuse himself from a case in which he had significant 
financial and personal ties to the attorneys, and his 
deliberate attempt to conceal these relationships, goes to an 
issue that I am very concerned about. In fact, the Subcommittee 
on Courts and Competition Policy will be examining the state of 
Federal judicial recusal laws in an upcoming hearing on 
judicial recusal.
    I am appalled at the additional violations that Judge 
Porteous committed, including accepting what can clearly be 
interpreted as bribes from counsel with cases in front of him, 
and false statements on his 2001 bankruptcy filings.
    I look forward to the testimony of the witnesses today and 
thank you.
    Mr. Schiff. I thank the gentleman.
    Mr. Pierluisi of Puerto Rico?
    Mr. Pierluisi. Thank you, Chairman Schiff. I appreciate all 
the hard work you, Vice Chairman Goodlatte, and the Task Force 
staff have done in connection with this important inquiry.
    In our justice system, judges are called upon to be neutral 
arbiters of the disputes pending before them. Nearly as 
important as actual impartiality is the appearance of 
impartiality. For the public to have faith in the judiciary, it 
is critical that they never have reasonable grounds to suspect 
that a legal dispute was decided based on any factor other than 
the merits of the case.
    The troubling allegations being made against Judge Porteous 
directly implicate these two principles. Testimony that was 
provided in the earlier proceedings suggests that Judge 
Porteous may have used his office to solicit things of value 
from attorneys who were appearing before him. Specifically, 
according to this testimony, both before and during the 
pendency of the case before him, Judge Porteous received free 
meals and cash from the attorneys litigating that case.
    Equally troubling is the allegation that Judge Porteous 
concealed his solicitation and received things of value from 
the defendant's attorneys in the case, thereby depriving 
plaintiff's counsel of information it needed to fully assert 
that the claim that Judge Porteous should--had before him, that 
he had to recuse himself from dealing with it.
    If the facts presented in prior proceedings are correct, it 
is difficult to see how justice could have been fairly 
administered in Judge Porteous's courtroom. At a minimum, an 
objective observer would have serious doubts that Judge 
Porteous could be neutral and unbiased.
    I want to emphasize that the testimony I have just 
described was provided in other forms to other investigative 
bodies. It is not the testimony that this Task Force has taken. 
Today we have an opportunity to hear directly from those most 
knowledgeable about Judge Porteous's conduct and, importantly, 
to allow Judge Porteous's attorney to cross-examine these 
witnesses. No judge should be removed from office unless the 
facts presented to Congress demonstrate that he or she is not 
fit for office.
    I come to this hearing with an open mind, and I--and a 
desire to understand more fully the facts surrounding Judge 
Porteous's alleged conduct. I thank the witnesses for joining 
us, and I look forward to their testimony.
    Mr. Schiff. Does any other Member seek recognition for an 
opening statement?
    Seeing none, Mr. Westling, this would be a perfect time if 
you would like to make a brief opening statement. And you might 
take a seat at the table and----
    Mr. Westling. Thank you very much, Mr. Chairman. The 
microphone----
    Mr. Schiff. If you can bring that mic very close to you, I 
think we could hear you a little better.
    Mr. Westling. Thank you very much, Mr. Chairman, Members of 
the Task Force. First, I want to thank you for the opportunity 
to appear before you today. Judge Porteous is here with me, 
along with other counsel and Members of the team that have been 
working on this matter. We appreciate the courtesies extended 
by the Committee and the opportunity to participate in the 
hearings.
    I think the thing that people need to understand is that 
Judge Porteous has been on the bench in Louisiana for many 
years. Since 1994, he was a Federal judge serving in the 
Eastern District of Louisiana, as this Committee is well aware. 
I practiced there both as a Federal prosecutor and then as a 
defense lawyer for many years. I am well aware of his 
reputation in the community, and you will find that there are 
no lawyers who are ever going to tell you that Judge Porteous 
did anything but the right thing in his own mind when he made 
decisions from the bench.
    As someone who has spent his life in a trial courtroom, the 
ability of a judge to properly try and discharge a case is 
critical in my line of work, as it is for many of you before 
you came to this body. And I think what you will find is that 
there has never been an argument that what happened in Judge 
Porteous's courtroom was anything but fair. And I think the 
testimony before the Committee will bear that out.
    This is not a case that involves abuse of judicial office. 
It is a case that involves friendships that go back years, and 
it involves some decisions that perhaps in the light of day, 
looking backward, would have been made differently under 
different circumstances. But we have to remember--and this 
Committee's well aware--that the constitutional standard for 
impeachment is very high, the independence of the judiciary and 
its ability to do its job fairly and forthrightly is critical 
to the functioning of this Nation and of the balance of powers 
between the branches of government.
    And that is why I am confident this Committee will 
carefully weigh the issues before it. We simply hope that you 
all will, as you have indicated, keep an open mind and evaluate 
the evidence fairly and give us our opportunity, as you already 
agreed to do, to participate as much as possible under the 
rules.
    Thank you.
    Mr. Schiff. Thank you, Counsel.
    We will now hear a brief introduction to the factual 
predicate of the case from Special Impeachment Counsel Alan 
Baron. Mr. Baron served as special impeachment counsel for the 
United States House of Representatives from 1987 to 1989, 
working on two judicial impeachment proceedings during that 
time. Mr. Baron was retained in October 2008 as special 
impeachment counsel by the House Judiciary Committee with 
regard to the possible impeachment of U.S. District Judge 
Thomas Porteous and, thereafter, U.S. District Judge Samuel 
Kent.
    Mr. Baron, when you are ready, please proceed.
    Mr. Baron. Thank you, Mr. Chairman, Members of the Task 
Force.
    What I intend to do is to provide you with an overview of 
what constituted really three investigations into the 
activities of Judge Porteous, one by the Department of Justice, 
the initial investigation, secondly, the Fifth Circuit Special 
Investigatory Committee investigation, and, third, the Task 
Force investigation itself.
    We made--the Task Force made an independent investigation 
of Judge Porteous because the House has this unique function 
that is the sole power to impeach. Although we built upon the 
investigations that were conducted by the executive and 
judicial branches, we felt that the House had to make its own 
investigation and reach its own determinations.
    The Members should have before them a manila folder which 
has within it a hearing memorandum, also a--what we call the 
Liljeberg timeline, which will be the organizing principle of 
the presentation I make this morning, and finally, copies of 
the PowerPoint, which will be integrated into the timeline.
    Judge Porteous was born in December 1946, and he will be 63 
this December. In the early 1970's, he graduated from LSU law 
school, specifically 1971, and he was a law partner with Jacob 
Amato, from whom you will hear later today, between 1973 and 
1974.
    Robert Creely, who also you will hear from later today, 
also practiced at that law firm. From October 1973 to August 
1984, Judge Porteous also served as an assistant district 
attorney in Jefferson Parish, Louisiana.
    In August 1984, Judge Porteous was elected and served as 
the 24th Judicial--District Court, as a judge in that court, 
for Jefferson Parish, and he served in that capacity from 
August 1984 to September 1994.
    Beginning in 1984 and shortly thereafter, Judge Porteous 
began routinely to request money from Robert Creely. And as we 
will see, Creely provided this money through partnership draws 
that he took from the law firm of Creely and Amato. If we could 
have first PowerPoint.
    This is an excerpt from Creely's grand jury testimony, that 
is, the investigation conducted by the Department of Justice. 
He is asked by one of the questioners, ``Let me ask you 
something about the mechanics of this. When he,'' Judge 
Porteous, ``came to you and hit you up, asked you for money, 
were you walking around with hundreds of dollars on you or did 
you have to take steps in order to get the cash?''
    Creely then responds, ``I don't remember the first time he 
asked me. If I had money in my pocket and I handed it to him, 
very well could have done that. But the bottom line was, the 
first time he asked me for money, I gave him money. And how the 
mechanics were about, that came about in which I gave it to 
him, I gave it to him. I don't deny that.''
    He continues. And this now--it was a pattern that was set 
up over time after that first instance. He says, ``I think 
sometimes I had to go cash a check, take a draw. Yes, yes, sir, 
I did not always have money to hand him. I would have to get--I 
would have to say, you know--you know, his tuition is due. He 
can't pay his tuition, Jake.'' Jake is Jake Amato, his law 
partner. ``And he'd say, `All right. You know, how much money 
does he need?' And I would say, `$500 or $1,000, whatever. I 
just want to be fair to him.' And we have go get a check cashed 
and give him the money.''
    Now, the interesting thing is, Judge Porteous really 
doesn't contest what Creely has just said. Now, I will report 
to the Task Force that--I guess several days ago--Judge 
Porteous brought an action naming me, Mr. Damelin and Mr. 
Dubester, in our official capacities seeking a TRO, which would 
have prevented us, if it had been successful, from using his--
Judge Porteous's testimony in the fifth circuit on the 
grounds--alleged grounds that it violated his Fifth Amendment 
right.
    Last night, Judge Richard Leon of the U.S. District Court 
in the District of Columbia dismissed the motion and denied the 
temporary restraining order. You can understand why Judge 
Porteous would not want that testimony made public, because 
here is Porteous's response to the allegation from Creely that 
he had given the money. ``Judge Porteous, over the years, how 
much cash have you received from Jake Amato and Bob Creely or 
their law firm?'' ``I have no earthly idea.'' ``It could have 
been $10,000 or more, isn't that right?'' ``Again, you are 
asking me to speculate. I have no idea, is all I can tell 
you.'' ``When did you first start getting cash from Messrs. 
Amato, Creely, or their law firm?'' ``Probably when I was on 
the state bench.'' ``And that practice continued into 1994 when 
you became a Federal judge, did it not?'' ``I believe that is 
correct.''
    So Judge Porteous doesn't say it didn't happen. He is a 
little vague on the details, but it happened.
    Eventually, what happens is that Creely begins to resent 
and protest of giving the judge this money. This is in the late 
1980's. And if we look at the next PowerPoint, ``I told''--this 
is Creely now testimony--testimony from the fifth circuit. This 
is now the fifth circuit inquiry. ``I told him that I--we could 
not continue giving him money. I couldn't continue giving him 
money. I got tired of the requests for every request he made. I 
was tired of it.''
    ``There came a time''--and here is Creely in the grand 
jury--``There came a time where, you know, this borrowing 
turned into this, as you said, burden. And that is a good word, 
because I, you know, can use many words for it, but he--there 
was a time I said, `You know, I just can't keep doing this, 
man. I can't keep supporting your family.' And I told him I had 
to stop. `I have got to stop doing this, all right?' ''
    And then he says something very important. ``But he started 
sending curatorships over to my office, all right? And he would 
send like two or three at a time. And he then started.'' Now, 
let me stop for a minute and explain what a curatorship is.
    If there was a missing party in a lawsuit--and typically 
these were foreclosures by banks. That was often the way it 
would happen. They would appoint a local lawyer to perform 
basically ministerial tasks to sit in, to send a letter to the 
last known address. It was a very minor thing, basically done 
more by a paralegal or a secretary than the lawyers. And the 
fee was paid by the bank in most instances, and it was very 
modest, a couple hundred dollars.
    What Creely is saying is that, when he balked at sending 
this money to Porteous, Porteous then instituted this 
curatorship scheme, that is, I will send you curatorships, and 
you guys send me the money.
    Creely goes on in the grand jury, he says, ``He then 
starting calling and saying, `Look, I have been sending you 
curators, you know? Can you give me the money for the 
curators?' I said, `Man.' So I talked to my law partner. I 
said, `Jake, you know, man, what do we do?' He says, `Well, 
just go ahead and give it to him.' We decided to give him the 
money. We would deduct the expenses. We would pay income tax on 
it.''
    And here we go again. Judge Porteous is asked about this. 
Again, he doesn't deny it. This is now Judge Porteous in the 
fifth circuit. Question: ``Do you recall Mr. Creely refusing to 
pay you money before the curatorship started?'' Answer: ``He 
may have said I needed to get my finances under control.'' Yes.
    He goes on. ``And after receiving curatorships, Messrs. 
Creely and/or Amato and/or their law firm would give you money, 
correct?'' Answer: ``Occasionally.''
    We have a slide here which will just show you what a 
curatorship looks like. This is issued by Judge Porteous. And 
if you go to the next page, it is to Mr. Creely, signed by 
Porteous. It is just an example.
    Now, as part of the Task Force effort, the curatorships 
have been mentioned in a paragraph in a referral letter from 
the Department of Justice to the fifth circuit. It was not 
particularly explored in the fifth circuit, as I recall.
    Mark Dubester and Harry Damelin, who were Members of the 
Task Force staff, did a superb job, and they found a woman 
named Jodi Rotolo, who had never been interviewed, and she had 
been the bookkeeper for Amato and Creely. She led them to--she 
advised them, ``By the way, I think there is a computer run at 
the old firm that lists the curatorships for the firm.''
    Well, they went. They got--with permission, they got the 
computer run. It turned out that they had over 300 curatorships 
on this computer run. And they then had to go to the local 
courthouse, and it was not computerized. They literally took 
the Amato and Creely list and then gave it over to the clerk, 
who is pretty old, so they had to literally by hand combing 
through the files to go find these curatorships.
    The curatorship list--computerized list indicated it was 
over 300. To date, they have found about 208 of these. And it 
is a work in progress. They are still looking.
    But if you look at the next slide, out of the 208, 191 were 
sent by Judge Porteous to the Creely/Amato law firm. And if--
you know, what sounds like a small matter--$200, really, who is 
going to--not much to get excited about. But when you are 
talking about close to $200 of them, we are now talking about a 
pool of money out of which Judge Porteous could call up and 
say, ``Hey, how about some money?'' approaching $38,000, 
perhaps even $40,000. So that is the significance of the 
curatorships.
    Now, in June 1993, the so-called Liljeberg case--the case, 
actually, is Lifemark Hospitals of Louisiana v. Liljeberg 
Enterprises--is filed in the U.S. District Court for the 
Eastern District of Louisiana and assigned to a Judge 
Livaudais. This is 1993. Porteous is not even a Federal judge 
yet.
    Very briefly, without going into much detail, it is a 
complex case. It involves foreclosures on a hospital property. 
It involves bankruptcy issues, real estate issues, contract 
issues, as to who had the right to run the pharmacy in the 
hospital. It is a complex case.
    But before this case comes to Judge Porteous--because he 
doesn't get it until he is a Federal judge--Judge Porteous is 
now being considered as of April 1994. He is being considered 
for a possible Federal judgeship. As part of that process, he 
has to fill out and sign what is called a supplement to 
standard form 86, an SF-86.
    On there, he is asked this question: ``Is there anything in 
your personal life that could be used by someone to coerce or 
blackmail you? Is there anything in your life that could cause 
embarrassment to you or to the President if publicly known? If 
so, please provide full details.''
    Now, by this time, we know that he has been getting all 
this money and the curatorships. His answer to that question 
is, ``No.'' And that is stated under oath. He signs--he says 
``I understand the information being provided on this 
supplement to the SF-86 is to be considered part of the 
original SF-86 and a false statement on this form is punishable 
by law.'' I take it back: It is not under oath, but it is 
punishable by law to make a false statement on this document. 
He signs that knowingly.
    He is nominated to be a Federal judge in August 1994. In 
September 1994, he is asked to fill out and sign the United 
States Senate Committee on the Judiciary questionnaire for 
judicial nominees. Again, he is asked a question: ``Please 
advise the committee of any unfavorable information that may 
affect your nomination.'' Again, this is after he has been 
taking the monies from Creely-Amato, the curatorship 
arrangement. His answer to that inquiry is, ``To the best of my 
knowledge, I do not know of any unfavorable information that 
may affect my nomination.''
    And we have--again, it is an affidavit. ``I, Gabriel Thomas 
Porteous, Jr., do swear that the information provided in this 
statement is to the best of my knowledge true and accurate.''
    In January of--he is now on the Federal bench. In late 
1994, Amato and Creely pay for some or all of a party to 
celebrate Judge Porteous's swearing in as a Federal judge. And 
on January 16, 1996, the Liljeberg case is now assigned to 
Judge Porteous. Trial is scheduled for November 4, 1996.
    On September 19, 1996, Mr. Jacob Amato and Mr. Levenson 
enter their appearance as co-counsel on behalf of the 
Liljebergs. Now, this is about 6 weeks before the scheduled 
trial date of a very complex case that has been around for 
several years. And I think it is fair to say that, although 
they are experienced trial lawyers, a case of this complexity 
was not normally the kind of case they handled. They did a lot 
of personal injury work, divorce work. I am not saying they 
weren't capable of handling it, but it certainly wasn't their 
type of case, and it is just 6 weeks until trial is supposed to 
come on.
    They are also retained on a contingent fee basis. It had 
to--and the fee range of it had to be approved because there 
was bankruptcy involved, so there had to be approved by the 
trustee and bankruptcy. So we know that they were to receive an 
11 percent contingent fee. Mr. Amato estimated in his testimony 
that that fee was worth--if they were successful, anywhere from 
$500,000 to $1 million to him and his law firm.
    During this period--and we have here the entry of 
appearance, Judge Porteous--I am sorry, Amato and Levenson are 
substituted as attorneys of record. You can see there--and 
Amato signs as Amato and Creely. It is not just personally. And 
they are now in the case.
    Sometime between 1996 and 1999--we couldn't pin down the 
exact date--Mr. Levenson goes on some hunting trips with Judge 
Porteous, but we couldn't figure out exactly when.
    Now, Lifemark--now, they come in for Liljeberg. Amato and 
Levenson are in for Liljeberg. The attorney for Lifemark was a 
Mr. Joe Mole, who will also--he is here to testify. He is very 
concerned about this late appearance of Amato and Levenson on 
behalf of Liljeberg. He knows just from word of mouth around 
town that they are very close cronies of the judge. He also 
knows this is--this makes--this just really doesn't make a lot 
of sense that they would be coming in just 6 weeks before the 
trial is supposed to start.
    He files a motion to recuse. Essentially, he is saying, 
``Judge, you should not sit in this case because of your close 
relationship with these lawyers, who have just gotten into the 
case.'' He doesn't know anything about the money situation that 
we know about.
    And I would like to--through the efforts of--none of the 
prior investigations, Department of Justice or the fifth 
circuit, apparently got hold of the transcript of that recusal 
hearing. And I--through the efforts of Kirsten Konar, a Member 
of the Task Force staff, we were able to get the actual 
transcripts, so we don't have to rely on memory here. We have 
got the actual words of what happened in court.
    I want to set the scene. Mole has filed a motion to ask the 
judge to get off the case. Now, of course, Porteous knows, if 
anybody does, about the relationship that he has with Amato and 
Creely. Well, we will go into what he says.
    Amato is in the courtroom. He doesn't say anything, never 
opens his mouth, but, of course, he knows that--about paying 
the money to Porteous and the whole curatorship scheme. Mole 
doesn't know. Levenson, who argues on behalf of the Liljebergs, 
has been interviewed, and he says--he denies that he knew about 
the monetary relationship and basically feels he was used. We 
can't prove to the contrary, so we will just accept that.
    We see here that Levenson and Amato are in. And I think it 
is worth going through what happens at that recusal hearing in 
a little bit of detail.
    Judge Porteous starts off by quoting a case that sort of 
sets the standard or sets a rule approving a motion to recuse, 
if it is appropriate. He is quoting now: ``A lawyer who 
reasonably believes that the judge before whom he is appearing 
should not sit must raise the issue so that it may be 
confronted and put to rest. Any other course would risk 
undermining public confidence in our judicial system.'' That is 
the end of the quote.
    And now here is Porteous. ``I cite that so that everyone 
understands that I recognize my duty and obligations, and I am 
fully prepared to listen.'' He then goes on to say, ``If anyone 
wants to decide whether I am a friend with Mr. Amato or Mr. 
Levenson, I will put that to rest. The answer is affirmative 
yes. Mr. Amato and I practiced the law together probably 20-
plus years ago.''
    The court again, ``Yes, Mr. Amato and Mr. Levenson are 
friends of mine. Have I ever been to either one of them's 
house? The answer is a definitive no. Have I gone along to 
lunch with them? The answer is a definitive yes. Have I been 
going to lunch with all the members of the bar? The answer is 
yes.''
    No mention by Judge Porteous of what really is the issue, 
that is, that he has been getting all this thousands of dollars 
from Amato and Creely. Mr. Mole, at a great disadvantage, says, 
``The public perception is that they do dine with you, travel 
with you, they have contributed to your campaigns,'' and 
Porteous pounces on this. ``Well, luckily, I didn't have any 
campaigns, so I am interested to find out how you know that. I 
never had any campaigns, counsel. I have never had an opponent. 
The first time I ran, 1984, I think is the only time they gave 
me money.'' Now, this is, again, with full knowledge of all the 
other thousands of dollars that he has received from them.
    The court goes on to say, ``You haven't offended me, but 
don't misstate. Don't come up with a document that clearly 
shows well in excess of $6,700 with some innuendo, that means 
they gave that money to me. If you would have checked your 
homework, you would have found that that was a Justice For All 
program for all judges in Jefferson Parish, but go ahead. I 
don't dispute I received funding from lawyers.'' And, again, he 
never reveals the real funding that should have been on the 
table.
    ``I have always taken the position, if there was ever any 
question in my mind that this court should recuse itself, that 
I would notify counsel and give them the opportunity if they 
wanted to ask me to get off. I don't think a well-informed 
individual can question my impartiality in this case.''
    Well, in effect, what you have here is Porteous and Amato, 
who know the facts, just not disclosing it, completely 
misleading and disguising the nature of the actual 
relationship.
    Lifemark sought a writ of mandamus from the fifth circuit 
to get--force the recusal, and that was denied. But, again, 
when Mole filed his papers, he doesn't know about the financial 
arrangement.
    Mr. Mole brings in a counter-crony, if you will, a Mr. 
Gardner. This was at the insistence of his client, who comes 
in--and I anticipate you might want to discuss that with Mr. 
Mole and find out why he did that.
    From June 16 to July 23, 1997, Judge Porteous held a non-
jury trial, no jury, but he sits on--after the conclusion of 
the evidence, he doesn't decide the case for nearly 3 years. He 
doesn't decide it until July--I am sorry, until April of 2000, 
just short--2 months short of 3 years. The next slide shows 
that, during this period, while the Liljeberg case is under 
advisement, his financial condition is deteriorating.
    You see here, year end 1996, this is around the time of the 
recusal motion. He is in credit--got credit card debt of 
$44,000 and an IRA balance of $59,000. In June 1997--this is 
during the trial in Liljeberg--his credit card debt has risen 
to $69,000. His IRA balance is now down to $20,000. In June 
1999--and we will get into this--he asks Amato while the case 
is pending for money, because he said he needed it to pay for 
his son's wedding expenses. By this time, his credit card debt 
is up to $103,000. His IRA balance is down to $9,500.
    In April of 2000, when he decides Liljeberg, his credit 
card debt is up to $153,000, and his IRA has gone up to 
$12,000. Now, you might ask, what was the nature of this credit 
card debt? We have analyzed it, and in large measure, these are 
money advances at casinos. It is clear that Judge Porteous is a 
heavy gambler, and that that is where he has run up much of 
this debt, in the casinos.
    We talk about lunches. And, you know, these are not 
inexpensive or casual affairs. We looked at the credit card 
records. These lunches run hundreds of dollars, lots of--you 
know, at some of the finest restaurants in New Orleans, 
Emeril's, big--the steakhouses, Smith & Wollensky, et cetera. 
We have gone through all that. And so while the case is under 
advisement, Amato, Gardner, Levenson are taking Porteous out to 
lunch numerous times.
    And I think--I want to go to the next slide--this is 
Federal grand jury testimony of Judge Bodenheimer. And 
Bodenheimer becomes a states court judge in late 1998, 1999. By 
this time, of course, Porteous is a Federal court judge. And he 
is sort of mentoring Bodenheimer in what he can expect. And 
here is Bodenheimer's relating his advice from Judge Porteous.
    ``Judge Porteous was there, and he walks over, and he said, 
`Congratulations, kid, you know? Now, let me tell you--let me 
give you some pointers about being a judge. Number one, you 
will never be known as Ronny again. You will be Judge for the 
rest of your life. Number two, you will never have to buy lunch 
again, okay? There will always be somebody to take you to 
lunch. Number three' ''--well, you can read it. This was Judge 
Porteous's attitude as a Federal judge about his relationships 
for the judge and the lawyers.
    Now, Amato was questioned about whether he had been 
solicited for money from Judge Porteous during the case that 
the--during the time that the Liljeberg case was pending. This 
is a deposition that has taken of Amato.
    Question: ``Okay, you previously testified he asked''--he, 
Porteous--``asked you for money on that fishing trip. Is that 
correct?'' Answer: ``He told me that the wedding, his son's 
wedding, ran over-budget and that he couldn't afford it and 
could I lend him--give him--somehow get him some money to help 
out.''
    ``Okay, you don't remember the exact word he used?'' 
Answer: ``No.'' ``But clearly he wanted you to provide him 
money to help him?'' ``Yes.'' ``The amount of money--did you, 
in fact, provide him the money?'' ``Yes.'' ``The amount of 
money that he asked for, do you have a recollection?'' He says, 
``It is about $2,500.''
    Now, again, Judge Porteous does not dispute the event. In 
the fifth circuit, he testifies, ``Do you recall in 1999, 
summer, May, June, receiving $2,000?'' ``I have read Mr. 
Amato's grand jury testimony. He says we were fishing. I made 
some representation I was having difficulties. They loaned me 
some money or give me some money.'' ``Well, whether or not you 
recall asking Mr. Amato for money during this fishing trip, do 
you recall getting an envelope with $2,000 shortly 
thereafter?'' ``Yes, something seems to suggest there may have 
been an envelope. I don't remember the size of an envelope, how 
I got the envelope, or anything about it.''
    And he goes on to say, basically, that he got the money. He 
doesn't dispute it.
    ``Did you ever pay back the loan?'' ``No, I didn't. I 
declared bankruptcy in 2001 and, of course, I didn't list it.'' 
I am not sure what he means to say there, but the point is, if 
it were a debt, presumably it would have been listed in his 
bankruptcy, but that is his testimony.
    Again, it is undisputed about what happened. There are 
other events during the time the case is pending. While it is 
under advisement, Levenson, Amato, Gardner and Creely provide 
money for Porteous to help pay for an externship for one of his 
sons in D.C. Levenson goes with him to the fifth circuit 
judicial conference in April 1999. In May 1999, Creely pays for 
part of the costs of Judge Porteous's son's bachelor party 
dinner in Las Vegas. Gardner also went on this trip and paid 
for a portion of the dinner, but he never tells Mole about it.
    The actual event when he asks for money from Amato at the 
fishing trip, that was on June 29, 1999. In late 1999, Amato 
pays $1,500 for a party celebrating Porteous's fifth year on 
the bench. He still hasn't decided the case. It is still under 
advisement. Levenson goes on a trip with him on a hunting 
facility.
    And in April 26, 2000, Porteous issues his decision in 
favor of the defendant, Liljeberg, represented by the Amato and 
Creely law firm and Leonard Levenson. Now, again, we have been 
going along with the Liljeberg case and going along the 
timeline. I am going to stick with the timeline, but we are 
going to divert for a moment here.
    In approximately June of 2000, Judge Porteous retains 
Claude Lightfoot as his bankruptcy attorney. Another event, in 
August of 2000, Lifemark files an appeal to the fifth circuit 
from Judge Porteous's decision in favor of Liljeberg. And on 
March 28, 2001, Porteous and his wife file for bankruptcy.
    And could we have that document? If you look at the 
highlighted version, the name of the debtor--he goes in under 
the name of Ortous--O-r-t-o-u-s--G.T.
    He also, as his street address--and we have evidence that 
he only gives a post office box. And this is a post office box 
that he had gone out and obtained about a week before he files 
for bankruptcy. He could have put it in the area on the form 
where it says it is a mailing address and still given his 
street address. He doesn't do that. He just puts down a P.O. 
box that he had just acquired.
    And if you go to the next page, this, of course, is under 
penalty of perjury, and it is signed--well, I guess it is 
signed in the name of Ortous. About a week or 10 days later, he 
refiles under the real names. He claims--and Mr. Lightfoot 
confirms--that Judge Porteous did this--at least the false 
name--on the advice of his bankruptcy counsel, that it was okay 
to file under a false name.
    On August 28, 2002, the fifth circuit reversed Judge 
Porteous's decision in Liljeberg. That in and of itself is not 
that big a deal, except when you look at the language employed 
by the appellate court in reviewing and analyzing Judge 
Porteous's decision. Understand, this is the decision he makes 
in favor of Amato--the Amato-Creely law firm, where they stand 
to make a fee of anywhere from $500,000 to $1 million, and 
Levenson.
    ``The extraordinary duty the district court imposed on 
Lifemark who loaned the money to build the hospital and held 
the mortgage is explicable. This is a mere chimera, existing 
nowhere in Louisiana law. It was apparently constructed out of 
whole cloth.''
    He said--finds--this has another finding. The court says it 
``borders on the absurd,'' ``clearly erroneous,'' ``this is not 
the law.'' Again, on the next page, ``comes close to being 
nonsensical.'' And, of course, they reverse. For people who 
have read appellate opinions even when they reverse a judge, 
this is really amazing language. There was--his opinion was 
simply, utterly, totally indefensible.
    We have the live witnesses who are--were the actual 
participants in these events. Mr. Amato, Mr. Creely, and Mr. 
Mole are here to testify as fact witnesses in connection with 
what I have described to the Task Force.
    Thank you.
    Mr. Schiff. Mr. Baron, thank you for that briefing.
    And we will now begin with our first witness, Robert 
Creely, Esquire.
    Voice. He is being escorted in.
    Mr. Schiff. He is being--okay. He is being brought in. He 
will be here shortly.
    Mr. Baron, can you go ahead and remove your nameplate from 
the desk? Thank you.
    Our first witness is Robert Creely, Esquire. Mr. Creely is 
an attorney with a law practice in the New Orleans area. He is 
here pursuant to subpoena and has been previously served with 
an immunity order that compels his truthful testimony at the 
proceedings before the House. Mr. Creely is joined by his 
counsel.
    And, Counsel, can you introduce yourself for the record?
    Mr. Capitelli. Yes, Mr. Chairman, Ralph Capitelli.
    Mr. Schiff. Thank you, Counsel.
    I will now swear the witness.
    Mr. Creely, please raise your right hand.
    [Witness sworn.]
    Mr. Schiff. Thank you. You may be seated.

             TESTIMONY OF ROBERT CREELY, ATTORNEY, 
                        NEW ORLEANS, LA

    Mr. Creely. I have a problem hearing. And when you were 
addressing Mr. Capitelli, I was going to answer his question. I 
have a hearing deficiency, is what I am trying to tell you.
    Mr. Schiff. Mr. Creely, then if you--you will need to pull 
that microphone very close to your mouth. If you have any 
problem hearing us at any time, please ask that we stop and 
repeat the question. And we will try to make sure the mics are 
close to us. But, again, if you have any trouble hearing, 
please stop us and say, you know, would you please repeat the 
question?
    I am going to now recognize Task Force counsel, Mr. Mark 
Dubester, to question the witness.
    Mr. Dubester?
    Mr. Dubester. Okay, Mr. Creely, in a nice, loud voice, just 
introduce yourself.
    Mr. Creely. Introduce myself? Robert G. Creely.
    Mr. Dubester. And, Mr. Creely, did you go to law school?
    Mr. Creely. Yes, I did, sir.
    Mr. Dubester. And where did you go to law school?
    Mr. Creely. Loyola University.
    Mr. Dubester. When did you graduate?
    Mr. Creely. 1974.
    Mr. Dubester. Okay. I am going to ask you a couple 
introductory questions just to cover your background, and then 
we will get into the heart of the questions that I am going to 
ask you. Can you hear me okay?
    Mr. Creely. I can hear you. I am doing the best I can to 
hear you.
    Mr. Dubester. Okay. First, in the 1970's, did you go to 
work for Mr. Amato?
    Mr. Creely. Yes, I did.
    Mr. Dubester. And was Judge Porteous a partner of Mr. Amato 
at the time?
    Mr. Creely. Yes.
    Mr. Dubester. And you knew him beforehand, but you also 
became friends of his when you were working with Mr. Amato and 
Judge Porteous, correct?
    Mr. Creely. Yes.
    Mr. Dubester. And at some point, you and Mr. Amato went off 
by yourselves in your own practice. Is that correct?
    Mr. Creely. Yes, sir. That is right.
    Mr. Dubester. And was that a full-blown partnership, 50/50 
you and Jake?
    Mr. Creely. Yes, sir.
    Mr. Dubester. Okay. And in 1984, do you recall Judge 
Porteous becoming a state judge?
    Mr. Creely. Judge Porteous became a state judge in 1984, 
yes, sir.
    Mr. Dubester. Okay. And you maintained a friendship with 
Judge Porteous after he became a state judge, correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. That consisted of taking him to lunch, taking 
him on hunting trips, other socializing of that nature, 
correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And generally, whenever you socialized where 
there was money to be spent, who paid?
    Mr. Creely. Well, I did, the firm did.
    Mr. Dubester. Okay. Okay, I want to talk to you about one 
of the matters which is of concern to the Members here. Did 
there come a time when Judge Porteous was a state judge that he 
made requests of you for cash?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And can you describe what you recall about 
those requests, how they began and how they changed over time?
    Mr. Creely. I don't understand how they began, but over 
time, I began to resist making payments, and he began to use 
excuses such as he needed it for tuition, needed it for living 
expenses, things of that nature.
    Mr. Dubester. Okay. So can you just give a feel to the 
Members what Judge Porteous would say to you? He would say to 
you what? ``Bob, I need some money''? ``Bob''--what would he 
say? Use his voice and your voice. Tell them the conversation 
that would happen.
    Mr. Creely. I wish you would give me a little leniency over 
a 25 period of lifespan memory----
    Mr. Dubester. Sure.
    Mr. Creely [continuing]. Back to the 1980's. But, 
basically, there is his living expenses, his necessities, 
food--not food, but education, things of that nature.
    Mr. Dubester. Okay.
    Mr. Creely. I don't remember exactly 25 years ago a 
conversation between he and I about what he wanted, but he made 
requests. Let there be no doubt in my testimony that I gave him 
money.
    Mr. Dubester. Okay. And the very first requests he made of 
you, were those of smaller amounts of money?
    Mr. Creely. Very small amounts of money.
    Mr. Dubester. Okay. Now, did you like giving him money?
    Mr. Creely. No.
    Mr. Dubester. Okay. What, if anything, did you do or say to 
Judge Porteous to communicate your displeasure with his 
requests?
    Mr. Creely. I told him, quite frankly, I thought it was an 
imposition on our friendship for him to continue to ask me for 
money.
    Mr. Dubester. Okay. And did you say to that--did you say 
that to him more than once?
    Mr. Creely. Yes, sir. But, once again, you are going back 
25 years. I am doing the best--my recollection is yes.
    Mr. Dubester. And after you communicated to Judge Porteous 
your displeasure, what did Judge Porteous do so that you could 
have money to give him?
    Mr. Creely. Well, I don't know what he did so that I could 
have money to give him, but he started sending curatorships to 
the office.
    Mr. Dubester. Okay. And in one--in 30 seconds, what is a 
curatorship?
    Mr. Creely. A curatorship is an appointment by the court to 
represent an absentee defendant.
    Mr. Dubester. Okay. And was there a small fee, in the 
nature of $200 or thereabouts, that your office would receive 
for handling this curatorship?
    Mr. Creely. I don't remember what the fee was, but there 
was a fee, a small fee--I believe it was $150, $175. It could 
be $200, but there was a fee that we received to representing 
the indigent or the absentee defendant.
    Mr. Dubester. Okay. And if the clerk's office has 
represented to us, that it was--by 1989, it was $200. Is that 
consistent with your recollection?
    Mr. Creely. Yes, sir.
    Mr. Dubester. Okay. Now, did you want Judge Porteous to 
assign you curatorships?
    Mr. Creely. I am sorry, sir?
    Mr. Dubester. Did you want him to assign you curatorships?
    Mr. Creely. No, I did not.
    Mr. Dubester. Were these important to your business?
    Mr. Creely. No.
    Mr. Dubester. Okay, who actually in your office took care 
of these matters?
    Mr. Creely. My secretary.
    Mr. Dubester. Okay. Now, what was the relationship of the 
fact that Judge Porteous gave you these curatorships in 
relation to his requests for money? What was the relationship 
between those two events?
    Mr. Creely. What was the relationship between----
    Mr. Dubester. His assigning you curatorships and his 
requesting money from you?
    Mr. Creely. In my mind, there was no relationship.
    Mr. Dubester. Okay. Well, what did he communicate to you as 
to why he assigned you the curatorships?
    Mr. Creely. He didn't communicate anything to me as to why 
he was sending me curatorships.
    Mr. Dubester. Well, explain what was going on then.
    Mr. Creely. It would better maybe that way.
    Mr. Dubester. Okay.
    Mr. Creely. He started sending curatorships. I complained 
about giving him money before and after he sent me 
curatorships, our office curatorships. I didn't want to give 
him money before; I didn't want to give him money after. I 
began to avoid Judge Porteous as much as I could, because I 
knew he was going to be asking me for money.
    Eventually, one day, he called my office, and he asked my 
secretary if we had been getting curators. My secretary 
communicated that fact back to me. I then went to the judge and 
told him that I didn't appreciate him calling my office and, 
two, that I made no relationship between him giving me curators 
and me giving him gifts of money. And that is the evolution of 
that fact.
    Mr. Dubester. In your mind, was it clear to you that Judge 
Porteous had assigned you curators, curatorships, so that you 
would have a pool of money so you could give him back cash?
    Mr. Creely. That was not in my mind, sir.
    Mr. Dubester. I am asking, in your mind, did you understand 
that Judge Porteous was assigning you curatorships so that you 
would have cash to give him back?
    Mr. Creely. Eventually, that is what I thought he was 
doing, yes.
    Mr. Dubester. And what is it that caused you to have that 
understanding?
    Mr. Creely. Because he kept calling my office.
    Mr. Dubester. And how was it that he communicated the link 
between the curatorships and the cash?
    Mr. Creely. I don't know that he did communicate a link. I 
don't believe he had a record of curators that he sent; he just 
kept asking me to give him money over the years and I kept 
complaining about giving him money.
    Mr. Dubester. Okay. But he made inquiries in your office 
about the curatorships that he had sent to you, correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And you understood that--you understood that 
he linked the assignment of curatorships to you giving him 
cash, correct?
    Mr. Creely. I suspected that he had that feeling, yes.
    Mr. Dubester. Okay. Now, the assignment of curatorships 
were official acts by Judge Porteous as a state judge, correct?
    Mr. Creely. Correct.
    Mr. Dubester. And he could have assigned those curatorships 
to anybody else in the New Orleans bar, correct?
    Mr. Creely. Yes. And I am sure that he did.
    Mr. Dubester. Okay. But the ones he assigned to you, he 
assigned to you and to no one else, right?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And in your mind, you knew he did that 
because you were giving him money, correct?
    Mr. Creely. I suspected that he had that motivation, yes.
    Mr. Dubester. Okay. So he was taking official acts to 
enrich himself, correct?
    Mr. Creely. I can't speak for him, but that was my 
understanding.
    Mr. Dubester. Okay. And, in fact, he took hundreds of 
official acts in assigning you curatorships so you would have 
money so he could ask you for money. These were hundreds of 
official acts he took as a state judge to enrich himself. Isn't 
that what you perceived?
    Mr. Creely. I am sorry, sir. I am very sorry.
    Mr. Dubester. I will move on to the next question. Now, how 
did the fact that you had these curatorships influence your 
attitude about giving Judge Porteous money?
    Mr. Creely. What?
    Mr. Capitelli. Can you repeat that one?
    Mr. Dubester. Did the fact that you had these curatorships 
make it easier for you to give him money?
    Mr. Creely. Yes, sir. As I testified, I believe, on many, 
many previous occasions, it was a justification, okay? He was a 
very dear friend of ours. He was--you know, maybe I 
overestimated the friendship, but I considered him to be a very 
close friend who I loved.
    Mr. Dubester. Okay.
    Mr. Creely. And he would give me curatorships, and it 
became a justification to help him out so that I didn't have to 
go and spend my own money on him. It was--it was a major pain 
in the neck, curators. I want you to know that.
    Mr. Dubester. Okay. So to make it clear, you felt when you 
were giving him back these curatorship monies, it was almost as 
if these weren't your monies, these were monies that he had 
provided to you so you could then tap to give back to him?
    Mr. Creely. The monies went into our operating account. I 
did not keep track curator for curator what I gave him. He 
would make requests--maybe monthly--and I would give him money 
when he made these requests. I would avoid him until I couldn't 
avoid him anymore. Then I made a payment to him.
    Mr. Dubester. Okay. Now, you have previously estimated that 
you gave him about $20,000 over time. Is that correct?
    Mr. Creely. I----
    Mr. Dubester. Sorry, you and Mr. Amato, $10,000 each, 
roughly?
    Mr. Creely. Over a 10-year period of time, yes, sir.
    Mr. Dubester. Okay. Well, except for the $2,000 we are 
going to talk about when he was a Federal judge, most of that 
happened in his last years on the state court bench, correct?
    Mr. Creely. They happened while he was on the state court 
bench, yes, sir.
    Mr. Dubester. Okay. Now, the amount of curatorship fees 
that have been identified are close to about $40,000, and the 
amount may actually rise as further searching is conducted. 
Would that suggest to you that the amount may be as much as 
$30,000 or even more?
    Mr. Creely. I didn't hear him.
    I have estimated and guesstimated as to the amount of cash 
I gave him. I cannot tell you other than guess--other than 
guess what I gave him. I made a guess that I gave him $10,000 
and my law partner gave him $10,000.
    Mr. Dubester. And, by the way, this was all cash, correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. Now, did you feel comfortable giving Judge 
Porteous cash in response to his requests?
    Mr. Creely. Yes, I felt uncomfortable. I felt put upon. I 
felt taken advantage of. I did.
    Mr. Dubester. Okay. Now, I want to turn to 1994. Do you 
recall being interviewed by the FBI in connection with its 
background check of Judge Porteous?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And how did--do you know how the FBI got your 
name to interview?
    Mr. Creely. What did he say? I am sorry?
    Mr. Dubester. How did the FBI get your name, if you know?
    Mr. Creely. Judge Porteous gave them my name.
    Mr. Dubester. Okay. And you just made a gesture. Were you 
pointing to Judge Porteous, who is sitting behind you?
    Okay. Now, the FBI write-up--they did a write-up of the 
interview with you. And you--it says that you stated--and I am 
reading verbatim--``Creely advised that he knows of no 
financial problems on the part of the candidate and the 
candidate appears to live within his economic means.'' Do you 
dispute making that statement?
    Mr. Creely. No, I do not dispute giving that statement.
    Mr. Dubester. And would that statement have been true?
    Mr. Creely. Was it--I am sorry?
    Mr. Dubester. Was that statement true?
    Mr. Creely. The statement was probably not accurate. And 
the statement was--and I will tell you--we have interviewed 
about this beforehand--I knew nothing about his checkbook or 
whether it was negative at the end of the month.
    Mr. Dubester. I understand. Mr. Creely, listen----
    Mr. Creely. All I know is what he told me. He told me he 
was having financial problems.
    Mr. Dubester. Okay. So if the FBI interview quotes you as 
saying that you know of no financial problem, that wouldn't 
have been a true statement, right?
    Mr. Creely. Correct.
    Mr. Dubester. And why would you make a statement like that 
to help Judge Porteous in the background check process?
    Mr. Creely. As I told you, I didn't want to do anything to 
impede his advancement. He was a friend. He was a very 
manipulative friend. And I didn't want to--I didn't want to 
hurt the guy.
    Mr. Dubester. Okay. And you also--I mean, as a practical 
matter, you didn't want the FBI poking around in your financial 
relationship with Judge Porteous, did you?
    Mr. Creely. Well, if I didn't want that to happen, I would 
have never volunteered to give the interview. I wasn't 
subpoenaed to give the interview. I volunteered the interview.
    Mr. Dubester. No, but Judge Porteous suggested that the FBI 
call you, correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And at the time that Judge Porteous suggested 
that the FBI call you, Judge Porteous knew that you had given 
him thousands of dollars, correct?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And that is not something that you said or 
would have said or could conceivably have told the FBI in that 
interview, correct?
    Mr. Creely. If I was asked that question, I don't know 
what--my response would have probably been negative.
    Mr. Dubester. Okay. And you also indicated in response to 
the FBI's interview that you never knew Judge Porteous to abuse 
alcohol. Do you remember saying that?
    Mr. Creely. Yes. That is a pretty vague question about 
abusing alcohol.
    Mr. Dubester. Okay. But the fact of the matter is, you had 
seen him abuse alcohol, too, correct?
    Mr. Creely. If they asked me that, they asked me that, and 
I would tell them no, I didn't know of him abusing alcohol.
    Mr. Dubester. Well, do you ever remember an incident where 
you have saw Judge Porteous obviously having abused alcohol?
    Mr. Creely. Yes.
    Mr. Dubester. Describe one incident. Describe the incident 
that you have previously testified about at a casino where 
you--and describe Judge Porteous's behavior when you knew that 
he had abused alcohol.
    Mr. Creely. Well, I guess if everybody uses alcohol, you 
have improper behavior from one time from another. But, yes, I 
know that he drank to excess and probably functioned better 
under alcohol than he did without alcohol.
    Mr. Dubester. Okay. Well, was there an incident at a casino 
in which he was--had to actually be lectured by somebody at the 
casino because he was drunk?
    Mr. Creely. An incident at a casino?
    Mr. Dubester. Yes, where he messed around with your chips 
because he was drunk.
    Mr. Creely. He knocked my chips over. I am not a very big 
gambler. He was acting in an obnoxious fashion, and he 
interfered with my play.
    Mr. Dubester. Okay.
    Mr. Creely. And I got up and left.
    Mr. Dubester. But the point simply is, not only did you not 
tell the FBI the truth about his financial circumstances, you 
also didn't tell them the truth about his drinking, correct?
    Mr. Creely. Yes. Yes----
    Mr. Dubester. Okay. I want to turn to 1999, Mr. Creely, 
while--you remember your partner, Mr. Amato, had the Liljeberg 
case. Do you remember that?
    Mr. Creely. Yes, sir.
    Mr. Dubester. And in 1999, while Mr. Amato--sorry, while 
that case was under advisement, do you remember going to Las 
Vegas with Judge Porteous for his son's bachelor party?
    Mr. Creely. I knew there was a case under advisement by 
Judge Porteous on the Liljeberg case.
    Mr. Dubester. Okay. And in Las Vegas, what, if any, 
expenses did you pay on behalf of Judge Porteous?
    Mr. Creely. What expenses did I pay on behalf of Judge 
Porteous?
    Mr. Dubester. Yes. Yes, sir.
    Mr. Creely. In Las Vegas?
    Mr. Dubester. Yes, in 1999.
    Mr. Creely. As we talked about earlier, the only expense 
that I recall paying for him was a meal. You showed me a 
document----
    Mr. Dubester. Okay, let's just talk about the meal. Was 
that about a $500 meal in the nature of for his son's bachelor 
party dinner?
    Mr. Creely. There was--yes.
    Mr. Dubester. Okay. And you have seen documents which 
suggest that you also paid for Judge Porteous's room in excess 
of over $400. Do you recall that?
    Mr. Creely. I recall you showing me a document to that 
effect.
    Mr. Dubester. Do you recall paying for his room, as well?
    Mr. Creely. I do not recall paying for his room.
    Mr. Dubester. Do you dispute that--if the records show, in 
conjunction with your--in connection with your memory, that you 
spent close to $1,000 for Judge Porteous in Las Vegas in 1999? 
Do you dispute that?
    Mr. Creely. I cannot dispute the records.
    Mr. Dubester. Okay.
    Mr. Creely. But I would like to state the meal, so that----
    Mr. Dubester. Sure.
    Mr. Creely. There were 20 people, 25 people at a bachelor 
party meal for his son. I was a guest of his son. The way I 
recall it, the meal check came out. There were 25 adults at 
this dinner. Everybody put their credit card onto the waiter's 
tray. The meal was divided up and the tip. You know, with four 
or five men at my table. And there is no way you can eat a meal 
at a high-end steakhouse and drink for $400 or $500. I paid a 
portion of that meal. I didn't pay for the entire meal.
    Mr. Dubester. Fair enough. Did you pay over $500 for--
towards the bachelor party dinner?
    Mr. Creely. Whatever the record reflects. If it says $500, 
yes.
    Mr. Dubester. Okay. And finally, did you ever appear in 
front of Judge Porteous yourself personally?
    Mr. Creely. I am sorry, sir?
    Mr. Dubester. Did you ever appear in front of Judge 
Porteous personally?
    Mr. Creely. In 20 years that he sat on the state and 
Federal bench, I appeared before him three times, one time in 
state court, which was a jury trial. It was my first jury 
trial. The jury ruled in my favor.
    The insurance company wanted to appeal that ruling. They 
posted a surety bond to secure payment for the judgment. The 
insurance company was going insolvent. I filed a motion to test 
the solvency of the surety. He denied my motion outright.
    I had an interdiction of an elderly woman who was horribly 
mistreated in front of him. He ruled in my favor. Nobody could 
have lost that case.
    When he was in Federal court--and I believe it was the 
early '90's--my recollection is I had a state court class 
action. A discovery issue came up over my entitlement to 
records that may have been protected by a Federal statute. And 
I don't remember. It was the MMTJ or MMJT are the initials for 
it, which prohibit state courts or any court from inquiring 
into financial data from financial institutions.
    The defense lawyers removed it, got allotted--from state 
court, got allotted to Judge Porteous. They requested a TRO. He 
was well aware of everybody on the pleadings. He granted the 
defendant's TRO. In other words, he ruled against me.
    We had a telephone status conference about the preliminary 
injunction that was coming up, and he blatantly, flat-out, over 
the telephone, ``I am granting the preliminary injunction. If 
you want to make a record, come over. You are wasting your 
time,'' basically.
    I made a record. I appealed him, and the United States 
Fifth Circuit Court of Appeals overturned his ruling. That is 
all I remember doing in front of him for 30 years. So I got 
nothing back in return from him for curators. I mean, I did 
this out of friendship.
    Mr. Dubester. In none of those cases did opposing counsel 
know that you had given him thousands of dollars, correct?
    Mr. Creely. Well, in the one in Federal court?
    Mr. Dubester. Yes.
    Mr. Creely. He ruled against me before I even showed up. He 
ruled against me before I came. To answer your question, no, 
but he signed a TRO. I showed up. I lost.
    Mr. Dubester. Thank you very much.
    Mr. Creely. Without--outright lost.
    Mr. Schiff. I thank you, Mr. Dubester.
    Mr. Creely, Members of the Committee now will take a brief 
opportunity to follow up on the questions that were asked by 
our counsel.
    I wanted to start out asking you about the curatorships. I 
think you testified earlier in answer to Mr. Dubester's 
questions that you didn't ask for the curatorships. Is that 
right?
    Mr. Creely. That is correct.
    Mr. Schiff. So you never went to the court and sought to 
become an attorney handling curatorships, right?
    Mr. Creely. I was very busy. I didn't want curators.
    Mr. Schiff. You consider them to be kind of a nuisance and 
not what you wanted to make your practice out of, right?
    Mr. Creely. Absolutely not.
    Mr. Schiff. So it was Judge Porteous's initiative to send 
you these curatorships?
    Mr. Creely. Yes, sir.
    Mr. Schiff. And he took this initiative at a time when you 
were resisting giving him more money?
    Mr. Creely. Correct.
    Mr. Schiff. For some time--maybe a period of years--he 
would hit you up for money, and you were starting to tell him 
it has got to come to an end, correct?
    Mr. Creely. I am sorry?
    Mr. Schiff. For some years, you were giving him money. You 
got tired of giving him money, and you told him it has got to 
stop, right?
    Mr. Creely. Yes.
    Mr. Schiff. And around the time you told him it had to 
stop, the curatorships started showing up in your office. Is 
that right?
    Mr. Creely. Correct.
    Mr. Schiff. Now, during the course of your receiving these 
curatorships, wouldn't Judge Porteous call your office and 
inquire how many curators he had sent over to your office 
recently?
    Mr. Creely. After a period of time, I began to avoid Judge 
Porteous, because I knew what he wanted from me: money. And I--
I didn't--I avoided him. He then called my office and asked, 
had we been getting the curators? That conversation was related 
back to me by my secretary.
    I approached him and told him that the curators and what I 
gave him had nothing to do with each other, and if he wanted to 
stop giving me curators, stop giving me curators. And if he 
would have stopped giving me curators, I probably would have 
continued to help him, because he was a friend.
    Mr. Schiff. But he would call and ask about whether you 
were getting the curators at the same time he would call and 
ask for money. Is that right?
    Mr. Creely. He would ask for money, I would avoid him, and 
then he would call the office and ask the--if we had been 
receiving the curators.
    Mr. Schiff. And he would want to know how many curators you 
had received at a given time, when he would call? Is that the 
information you got back?
    Mr. Creely. The information I had back is he wanted to know 
if we were getting the curators. And then he would start 
hitting on me for money again.
    Mr. Schiff. And so the conversations about the curatorships 
took place at the same time as the conversations about money? 
So the conversations the judge had with you about the 
curatorships, when he would call your office for curatorships, 
was at the same time that he would make requests for money. Is 
that right?
    Mr. Creely. I would have to say he was asking for money, 
and I was avoiding giving him money, so he called the office 
and asked for--if we were getting the curators. And, 
eventually, he would get money.
    Mr. Schiff. And when--did he ever get money--did he ever 
make the request for money of your secretary, or did it always 
go to you directly?
    Mr. Creely. He made the request to my secretary.
    Mr. Schiff. For money?
    Mr. Creely. Right. Well, to whether or not we were 
receiving curators, curators he was sending.
    Mr. Schiff. My question is, did he ever ask your secretary 
to get money from you for him? Or did the request for money 
always go directly to you?
    Mr. Creely. The request for money, as I recall it, came 
directly from me. There is no telling what he did. I--he could 
have made that request. I am only aware of what requests he 
made of me.
    Mr. Schiff. So you don't know whether he--you didn't get a 
message from your secretary that the judge called, he wanted to 
know how many curatorships he had sent over, and he wants more 
money? Did your secretary ever tell you something along those 
lines?
    Mr. Creely. I don't recall that, but she said he was 
looking for curators--and, I mean, this is 15 years ago.
    Mr. Schiff. Did she tell you why he wanted to know how many 
curators he had sent over to your office?
    Mr. Creely. I am sure the answer to that is obvious, 
because he wanted money.
    Mr. Schiff. Why is the answer to that obvious?
    Mr. Creely. I am sorry, sir?
    Mr. Schiff. Why is the answer to that obvious?
    Mr. Creely. I think it is obvious.
    Mr. Schiff. So it is obvious to you that the reason he was 
calling about the curatorships was because he wanted to call 
and ask you for money?
    Mr. Creely. Yes.
    Mr. Schiff. Now, you--in your grand jury testimony, you 
testified, ``And he then started calling me, saying, `Look, I 
have been sending you curators, you know. Can you give me the 
money for the curators?' I said, `Man.' So I talked to my law 
partner. I said, `Jake, you know, man, what do we do?' He says, 
`Well, just go ahead and give it to him.' We decided to give 
him the money. We would deduct the expenses. We would pay 
income taxes on it.''
    That was your testimony before the grand jury. Was that 
accurate testimony?
    Mr. Creely. It was as accurate as I could be, yes.
    Mr. Schiff. So to the best of your recollection, when the 
judge would call, he would ask you for the money for the 
curators?
    Mr. Creely. That is my recollection, is he was calling to 
see--get an account of how many curators were there or how many 
curators we received so that he could ask me for money for 
curators.
    Mr. Schiff. Did you and your partner, Mr. Amato, ever 
consider giving him checks, writing him checks when he asked 
for money, as opposed to giving him cash?
    Mr. Creely. No, we did not.
    Mr. Schiff. And why didn't you write a check from the law 
firm instead of going through the process of taking a draw and 
giving him cash?
    Mr. Creely. Well, two things. One, I didn't think giving 
money was improper. The ethical and judicial codes is I can 
give money to anybody I want to. What he has to report is a 
different thing. If I wrote him a check, I would have to have 
gone through a complete accounting breakdown as to what it is 
for, deductions, and so forth. He wanted cash.
    Mr. Schiff. So he told you he wanted cash, he didn't want 
it--he didn't want a check?
    Mr. Creely. Correct.
    Mr. Schiff. Now, I am not sure I understood, because I 
think you used a double negative. Were you saying that you knew 
it was improper to give him money or that you thought it was 
proper to give him money?
    Mr. Creely. Well, it is improper for me to give him money 
for him to rule on a case that I want him to rule on. If I 
would say, ``I will give you money if you rule on a case,'' 
that is improper. But my reading of the canons of judicial 
ethics is that I can give gifts, including cash, to judges, as 
long as they report it on their disclosure statement.
    Mr. Schiff. So why didn't you write a check from the firm 
if it was appropriate for you to give him money?
    Mr. Creely. It would have been appropriate for him to give 
him money if I wrote him a check from the firm, yes.
    Mr. Schiff. So my question is, why didn't you write a check 
if you thought that was an appropriate thing to do?
    Mr. Creely. Because he didn't want a check, one. Two, my 
law partner and I had a habit of, on a weekly basis, taking a 
draw, a cash draw. And out of that cash draw, we would give him 
monies.
    Mr. Schiff. Mr. Creely, isn't it also correct that you 
didn't want a written record of your giving money to a judge?
    Mr. Creely. No, I didn't want a written record that I was 
giving money to a judge. But--no.
    Mr. Schiff. At this point, let me turn to my Ranking 
Member, Mr. Goodlatte, for his questions.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Creely, to follow up on the Chairman's question, when 
you say--may I borrow that--when you say, ``We decided to give 
him the money. We would deduct the expenses. We would pay 
income taxes on it.'' And you say you always paid him in cash, 
how did you account for that in the books of the law firm?
    Mr. Creely. There was--there was no way--that was a general 
line statement. It was income coming into the office, income 
coming into the office. It would go into the general account 
on--and there would be a file generated for each case. Each 
case, we would have income and expenses. The income would then 
go on our income tax return.
    So, you know, I don't know where that statement was taken 
from, but----
    Mr. Goodlatte. It is your grand jury testimony regarding 
the curatorships.
    Mr. Creely. We would--we would get money, put it in the 
bank, take a draw, and give him cash. But it wouldn't be four 
curatorships goes into the bank and we kept track of it in that 
fashion. We would--we would take a draw and give him money.
    Mr. Goodlatte. And would you each take a draw at the same 
time? How did that work? You both were giving him money. Was 
that not correct?
    Mr. Creely. Yes, sir.
    Mr. Goodlatte. And did you each take a draw? Did you keep 
track of how much he was drawing to give him and how much you 
were drawing to give him? Or----
    Mr. Creely. Yes, we--at first, it was not a lot of money. 
Toward the end, he would ask for $500 or $1,000. I wasn't 
paying him $500 or $1,000 out of my pocket. So my--I went to--
my law partner and I went and took a draw of an equal amount 
and gave him the money.
    Mr. Goodlatte. And why was it an equal draw? If he was your 
friend and you were giving him the money because he was your 
friend, why would you be concerned, you and your partner, 
taking equal draws from the firm? Wasn't this really a business 
expense for the firm that would cause you to each take an equal 
amount to give him funds?
    Mr. Creely. It wasn't an expense. We treated it as income 
and paid taxes on it.
    Mr. Goodlatte. Sure. But you were both doing it.
    Mr. Creely. Correct.
    Mr. Goodlatte. And you were doing it equally. Why would 
that--given as a matter of friendship, why would it matter to 
you if you gave it equally? Why wouldn't--that would only 
matter, it would seem to me, looking at this as a business 
undertaking that you are going to each provide funds to the 
judge for the benefit of your legal practice. You would say, 
``Well, let's each take an amount equally and give it to the 
judge,'' as opposed to, ``Well, he is my friend, so I am going 
to give him this money. He is your friend. You give him 
whatever amount you want to give him.''
    Mr. Creely. We took it as a draw. We treated the man as a 
friend. We respected his needs. And he made a request to either 
me or Jake, Jake or I--what monies he requested.
    Mr. Goodlatte. Do you know if other attorneys in the legal 
community were also giving Judge Porteous money?
    Mr. Creely. I am sorry, sir?
    Mr. Goodlatte. I said, do you know if other attorneys in 
the legal community in New Orleans were also giving Judge 
Porteous money?
    Mr. Creely. I have read--to answer your question, yes. And 
the reason I have read so many confidential reports that have 
been posted over the Internet, have written so many 
summarizations of my testimony and other people's testimony, it 
all blends together into like a soup as to what--and then you 
put 15 to 25 years of life, and memory into this, and it is 
hard to determine what you read, what you remember, and things 
of that nature. I mean, we are going back to 1984.
    Mr. Goodlatte. Sure. But collectively, both in terms of 
what you have read and what you remember, is it your impression 
that others were giving funds to Judge Porteous?
    Mr. Creely. Yes.
    Mr. Goodlatte. And did you know of any of those at the time 
that you were also giving funds to Judge Porteous? Were you 
aware that others were giving funds to him?
    Mr. Creely. At what time? From----
    Mr. Goodlatte. At the time--well, during the timeframe 
between when you started giving funds to him and when you 
stopped giving funds to him. Were you aware at that time that 
others were giving funds to him?
    Mr. Creely. A 25-year period of time, and I have only heard 
people complain. I can only assume--if you want me to assume--
--
    Mr. Schiff. Mr. Creely, can you talk more closely into the 
microphone? You may want to pull it--thank you.
    Mr. Creely. I can only assume that, if you were a good 
friend of Judge Porteous, that he would ask you for cash.
    Mr. Goodlatte. That was your impression that was a common 
practice of his?
    Mr. Creely. My impression or my guesstimation would be yes.
    Mr. Goodlatte. And can you tell us why you and Mr. Amato 
were brought into the Liljeberg case?
    Mr. Creely. I was never brought into the Liljeberg case. 
Mr. Amato was brought into the Liljeberg case. I was--never had 
one single meeting involving a Liljeberg case.
    Mr. Goodlatte. But your firm was brought into the Liljeberg 
case?
    Mr. Creely. Firm was brought into the Liljeberg case.
    Mr. Goodlatte. The listing referred to Amato and Creely in 
the filing with the court. So your firm was brought into the 
Liljeberg case.
    Mr. Creely. If that is what the listing says, I have no 
reason whatsoever----
    Mr. Goodlatte. Did you ever have any conversations with Mr. 
Amato about the reason why the firm was brought in to the case?
    Mr. Creely. No.
    Mr. Goodlatte. No. You have no idea why that was? Was it 
the type of case that you or Mr. Amato would ordinarily be 
brought into?
    Mr. Creely. Myself, I handled very complex cases over the 
past 10 years, multi-party class-action litigation that involve 
neutrinal litigation, neutrinal litigation in Federal court 
involving hundreds of lawyers, been involved in probably 10 
class-action multi-party cases in state court. I handled cases 
in Federal court, maritime cases in Federal court----
    Mr. Goodlatte. What about Mr. Amato? Since you said you 
didn't personally do anything in that case, what about Mr. 
Amato?
    Mr. Creely. Mr. Amato, to my knowledge, did not have a 
large--did not have a Federal practice.
    Mr. Goodlatte. But you had no conversations with him about 
why he was being brought into work on the Liljeberg case 6 
weeks before trial?
    Mr. Creely. I don't recall any specific conversation, but--
--
    Mr. Goodlatte. Let me move on to another area.
    Mr. Schiff. And, Mr. Creely, you really need to talk 
directly into the microphone. You have a habit of----
    Mr. Creely. I have an eye infection, and I am trying to 
keep away from anything that may be contagious to somebody. I 
am very sorry.
    Mr. Goodlatte. Mr. Creely, during his time on the Federal 
bench, did Judge Porteous ever use court employees, such as his 
secretary, to either pick up money from you or request money of 
you for private purposes?
    Mr. Creely. The only time I recall is during the 1999 
period of time, I believe his secretary came by to pick up 
money.
    Mr. Goodlatte. This would have been Rhonda Danos?
    Mr. Creely. Yes, sir.
    Mr. Goodlatte. And she came by to pick up an envelope with 
$2,000 in cash in it?
    Mr. Creely. That is my understanding, yes.
    Mr. Goodlatte. Would that have included cash from both you 
and Mr. Amato? Or is that just your cash?
    Mr. Creely. Well, we--cash Mr. Amato asked me to give him 
to give to the judge.
    Mr. Goodlatte. So the two of you each--not--didn't write a 
check, but you each put cash in an envelope from each of you, 
and then the judge's secretary came over and picked up that 
cash? Is that your recollection?
    Mr. Creely. It is my understanding.
    Mr. Goodlatte. All right. Are you aware of any other 
situation in which Judge Porteous used a court employee--I am 
sorry. You need to use the microphone.
    Mr. Creely. Why he was on the Federal bench?
    Mr. Goodlatte. Or the state bench, either one.
    Mr. Creely. You need to use the microphone, Counsel, so we 
can hear what you are trying to say.
    Mr. Capitelli. I am sorry--hearing on that. Would you 
repeat that question?
    Mr. Goodlatte. Yes. My question was, in addition to the 
instance involving Rhonda Danos that he just testified about. 
Are you aware of any other instances while he was a Federal or 
state court judge where he used court employees for the purpose 
of picking up money after making some of these requests?
    Mr. Creely. No, sir.
    Mr. Goodlatte. Thank you.
    Mr. Chairman, those are the only questions I have.
    Mr. Schiff. I thank the gentleman.
    Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Creely, what--how many curatorships do you think you 
had over the period of years from Judge Porteous?
    Mr. Creely. There is a list that was requested by Mark 
through these proceedings. I have not--I knew a list existed.
    Mr. Cohen. Ten, twenty, a hundred?
    Mr. Creely. I would say 100, at least.
    Mr. Cohen. At least 100. And what did the average 
curatorship pay? How much did you get paid for the average----
    Mr. Creely. I would say between $150 and $175.
    Mr. Cohen. And you hated doing these? You didn't like doing 
them; it was a nuisance. Is that correct?
    Mr. Creely. I am sorry.
    Mr. Cohen. You say it was a nuisance. You didn't like doing 
them?
    Mr. Creely. I didn't do them. They were purely--they were 
purely administrative. There were secretarial-type things. All 
you did was provide a note of evidence to the court that you 
made an attempt to provide or find the absentee defendant, and 
that was all you did.
    Mr. Cohen. Do you know if other people were curators in 
Judge Porteous's court?
    Mr. Creely. Yes.
    Mr. Cohen. And did those people, to the best of your 
knowledge, give Judge Porteous money, as well?
    Mr. Creely. Judge Porteous testified to the fact that they 
did.
    Mr. Cohen. Just about every one of them? Just about all of 
them?
    Mr. Creely. Oh, I don't know about just about all of them. 
I know he testified that at least one lawyer gave him money.
    Mr. Cohen. Did you give money to other judges other than 
Judge Porteous?
    Mr. Creely. Campaign contributions.
    Mr. Cohen. Those were checks?
    Mr. Creely. Yes, sir.
    Mr. Cohen. But you never gave cash to another judge?
    Mr. Creely. No.
    Mr. Cohen. So the only reason you gave cash to Judge 
Porteous is because he asked for it and he was your friend. Is 
that right?
    Mr. Creely. The only reason I gave it to him was because he 
was a friend in need.
    Mr. Cohen. Do you--because he was a friend in need.
    Mr. Creely. In need.
    Mr. Cohen. All right.
    Mr. Creely. I got nothing back in state court for doing 
that, nothing.
    Mr. Cohen. But your firm was hired to this particular case. 
Is that correct?
    Mr. Creely. Yes, sir.
    Mr. Cohen. And you are a senior partner in the firm?
    Mr. Creely. Yes, sir.
    Mr. Cohen. Did you benefit from the overall profits of the 
firm? Did you share in the profits?
    Mr. Creely. Of the law firm?
    Mr. Cohen. Yes, sir.
    Mr. Creely. Yes, sir.
    Mr. Cohen. And so how can you say you never benefited from 
it when your firm was appointed and might have won a judgment?
    Mr. Creely. Well, the only way I benefited is the excess 
curators that I didn't give to him in the form of cash. I 
didn't benefit by any case, because every case I had in front 
of him, he ruled against me.
    Mr. Cohen. How about in the case where Mr.--your partner, 
did you--have a partner in your firm was hired?
    Mr. Creely. I had a partner that was hired on the case that 
we didn't get paid any money on.
    Mr. Cohen. Didn't get paid any money, because it was 
reversed on appeal.
    Mr. Creely. Yes, just like I--much like I--reversed on the 
case he tried for me.
    Mr. Cohen. Right. But if it hadn't been reversed on appeal, 
you would have benefited from that, right?
    Mr. Creely. I would have benefited by it, but, sir, none of 
those cases were resolved in state court. That case was 
earmarked, destined for Federal appeal court. They all are. 
Every large case that I have, with minor exception, is finally 
adjudicated in the appellate court, particularly on legally--on 
legal and most of the time factual issues. That case was never 
going to be resolved in state court, in my mind--I mean, in 
Federal court, in my mind, never.
    Mr. Cohen. But you have got to get a judgment in federal--
district court to be adjudicated and get a--and get a final 
recovery in the appellate level. Is that not correct?
    Mr. Creely. I just had a case that I got a class-action 680 
people that I got a judgment in state court, and the appellate 
court reversed it--reduced it by 60 percent. There is a lot of 
times you try cases and you take an appeal and the court either 
raises, lowers, takes away, gives to. You never know what the 
court of appeals is going to do.
    Mr. Cohen. I am aware of that, but I am losing your logic, 
sir. You--if--you can't get to Federal court, to appellate 
court, unless you win at the district level. Is that correct?
    Mr. Creely. No. If you lose at the judicial level, you can 
take an appeal to the appellate court, sir, just like the other 
side on this case. Apparently--and I hadn't read the judgment--
they lost. They took an appeal.
    Mr. Cohen. Were they not the defendants in that case?
    Mr. Creely. Whoever the defendants were, they were. I don't 
know who the defendants are. All I know is Lifemark or 
something to that effect. I don't know the names of all the 
defendants. I was completely excluded from that case, every 
aspect of that case.
    Mr. Cohen. Have you--what else did you--did you provide to 
Judge Porteous, other than cash? You paid for lunches and 
dinners. Is that correct?
    Mr. Creely. You know, I would take him to lunch and to 
dinners, as other people did. And I hunted with him. He and I 
were more or less adult from almost high school--best of 
friends. I hunted with him. I fished with him. We were friends, 
and everybody in the city of New Orleans knew we were friends, 
everybody.
    Mr. Cohen. And what else did you give him, other than hunt 
with him--when you hunted or fished with him, you--what did 
you--did you extend some benefits to him financially that he 
wouldn't have to pick up?
    Mr. Creely. In what? What, like paying for fuel or gasoline 
for the boat or something like that?
    Mr. Cohen. Yes.
    Mr. Creely. Well, no. Nobody paid for a hunting or fishing 
trip when they came with me. Nobody.
    Mr. Cohen. What other type things did you do for Judge 
Porteous?
    Mr. Creely. The best of my recollection, I took him on 
three hunting trips in 20 years out of the country, two when he 
was on the state court bench, one early on when he was on the 
Federal bench.
    Mr. Cohen. No football tickets, nothing like that? No 
football tickets?
    Mr. Creely. I have no recollection of buying him a football 
ticket.
    Mr. Cohen. No further questions, Mr. Chairman.
    Mr. Schiff. I thank the gentleman.
    Mr. Lungren of California?
    Mr. Lungren. Thank you very much.
    Mr. Creely, did your firm get curatorships from other 
judges?
    Mr. Creely. Yes.
    Mr. Lungren. In those instances, did any other judges ask 
you for money to help them with their personal expenses?
    Mr. Creely. No, but they asked for campaign contributions.
    Mr. Lungren. But did they ever ask you for money for 
personal expenses?
    Mr. Creely. No.
    Mr. Lungren. Did they ever ask you for money in cash?
    Mr. Creely. No.
    Mr. Lungren. Did they ever send a member of their court 
staff to your office to pick up cash?
    Mr. Creely. No.
    Mr. Lungren. So this is not a normal type of the legal 
culture of New Orleans?
    Mr. Creely. This is not a--it is not normal, but our 
friendship was very different----
    Mr. Lungren. Let me ask you about the proprietorship--
propriety, excuse me. In the Federal case, where there is a 
motion of recusal involving your law firm, do you think your 
law firm had any obligation--or representative of your law firm 
had any obligation whatsoever to inform the other parties 
through their attorneys or the other attorney that your--that 
the judge in the case had been the beneficiary of thousands of 
dollars of cash donations, contributions, gifts, whatever you 
want to call it, from your law firm?
    Mr. Creely. Absolutely, but I was not a party of that 
recusation proceeding, didn't even know it was going on. Yes.
    Mr. Lungren. To your knowledge, did a representative of 
your law firm of which you are a senior member make that 
information available on the public record to the other 
attorney or attorneys involved?
    Mr. Creely. I don't believe he did.
    Mr. Lungren. That is all I have. Thank you.
    Mr. Schiff. I thank the gentleman.
    Mr. Creely, we see--or Mr. Johnson?
    Mr. Johnson. Yes, thank you, Mr. Chairman.
    Are you now facing or do you expect to face or have you 
faced state bar disciplinary proceedings in Louisiana?
    Mr. Creely. I received an inquiry, but nothing else. I 
think that they have deferred until this is over with.
    Mr. Johnson. They have deferred what?
    Mr. Creely. I think that they are deferring until this 
procedure is over with.
    Mr. Johnson. What about Judge Porteous? Has he, to your 
knowledge, been the subject of a bar complaint?
    Mr. Creely. I have no idea.
    Mr. Johnson. Were you the subject of a bar complaint or did 
the state bar just take this up on its own motion?
    Mr. Creely. The state took it up on its own motion when 
they--one of--one of the news channels or something broke a 
story in the newspaper, posted documents entitled 
``Confidential,'' and I got a letter from the disciplinary 
council that they were going to look into this matter.
    Mr. Johnson. Approximately when was that?
    Mr. Creely. Pardon me?
    Mr. Johnson. Approximately when was that?
    Mr. Creely. I think it--I think it happened 2 years ago.
    Mr. Johnson. So have you had to respond at all in writing 
to this letter of inquiry or notice of inquiry?
    Mr. Creely. No, I have not had to explain it. I am sure I 
will.
    Mr. Johnson. Do you--why did you--feeling so uncomfortable 
about it, why did you continue to give Judge Porteous cash 
money? And tell me, when did it start? And when is the last 
time you gave him some cash?
    Mr. Creely. It may be hard to believe, but when you don't 
have any cases in front of a judge, okay, with the exception of 
the jury trial----
    Mr. Johnson. And you are speaking of you personally or the 
firm?
    Mr. Creely. I think--I think my law partner may have had a 
couple of cases in front of him, and he ruled against him, too, 
in state court. And we are talking about state court. But it 
may be hard to believe, but everybody has a friend, and we have 
all had friends.
    Mr. Johnson. But, I mean, you felt uncomfortable at giving 
him some money. What was it that made you feel uncomfortable?
    Mr. Creely. About----
    Mr. Johnson. And why did you feel uncomfortable?
    Mr. Creely [continuing]. At that point in time--at that 
point in time, what made me feel comfortable about it----
    Mr. Johnson. Uncomfortable.
    Mr. Creely. Uncomfortable?
    Mr. Johnson. Yes. You have testified here today that it 
made you feel uncomfortable to be leaned on, if you will, for 
cash money.
    Mr. Creely. Because I began to feel like I was getting 
taken advantage of. I don't--I don't know if anybody----
    Mr. Johnson. Well, what do you mean when you say ``taken 
advantage of''? What do you mean?
    Mr. Creely. That I don't believe, in my mind, that he was 
using the money for the things that he told me he was using it 
for.
    Mr. Johnson. What did he tell you he was using the money 
for?
    Mr. Creely. Tuition, things household related.
    Mr. Johnson. What did you later find out about his use of 
the money that you gave?
    Mr. Creely. Just word of mouth, seeing him live a higher 
lifestyle than you would expect, but I want you to understand 
that the motivation for trying to help a friend, I mean, the 
love of a wife is one thing. The love of another person because 
you care about them and--is a different thing. And I really 
cared about him and really----
    Mr. Johnson. Well, has he ever given you anything, Judge 
Porteous? Did he care that much about you that he would give 
you anything?
    Mr. Creely. No.
    Mr. Johnson. Did he ever pay for his meals?
    Mr. Creely. No.
    Mr. Johnson. Did he ever pay for his trips to hunt----
    Mr. Creely. No.
    Mr. Johnson [continuing]. And fish? You paid it all?
    Mr. Creely. Well, when you say trips, hunting trips, of 
course. I had a boat. I had a camp. Nobody paid for anything 
when they came with me, nobody. Nobody paid anything.
    Mr. Johnson. This curatorship situation, why do you resist 
characterizing the curatorship situation as a kickback, a 
kickback scheme? Isn't that a classic kickback scheme?
    Mr. Creely. I have read that word before. It was not a 
kickback scheme.
    Mr. Johnson. Well, I mean, doesn't it have all of the 
hallmarks of a kickback scheme? I mean, he would forward you a 
monetary benefit for you and then call later to say, ``Where 
is--where is the money?'' Isn't that a--and to do that 
repeatedly, isn't that a kickback scheme?
    Mr. Creely [continuing]. Whatever the definition of a 
kickback scheme is, if you----
    Mr. Johnson. So why do you not want to characterize it in 
that way?
    Mr. Creely. If he came to me and said, ``I am going to give 
you curators in return for you giving me the money back,'' I 
would refer to that as a kickback scheme. That is not what 
happened, okay? He gave me curators, and----
    Mr. Johnson. Which you had not asked for?
    Mr. Creely. That which I did not ask for. I did not sit 
down with him and contrive a situation where he would give me 
curators in return for him giving me money.
    Mr. Johnson. But was it an implicit understanding, as 
things went on with this curatorship process?
    Mr. Creely. I am confused about your question, sir.
    Mr. Johnson. The curatorship process, you say that you 
would not--there was no agreement before this scheme started, 
but didn't it become apparent to you during the course of the 
curatorship scheme that this was a way of you being able to pay 
Judge Porteous?
    Mr. Creely. It evolved into that, yes. He began to rely 
upon the curators, began to call for them, and we rationalized 
he is asking for money, giving him the money. And it wasn't all 
of the money, but, yes, it--that is what it sounds like.
    Mr. Johnson. All right. I have no further questions at this 
time.
    Mr. Schiff. Mr. Pierluisi?
    Mr. Pierluisi. Mr. Creely, I apologize if some of my 
questions are repetitive. I will try not to ask you questions 
you were posed before.
    But let me ask you, you have been talking about your 
friendship with Judge Porteous, and I want to explore that a 
bit. Do you have a large circle of friends at home? I mean, how 
many friends do you have, would you say?
    Mr. Creely. How many friends do I have?
    Mr. Pierluisi. Yes, friends, people who consider themselves 
your friends.
    Mr. Creely. How many friends do I have? It is funny. When 
you are doing well, you have a lot of friends. When things are 
looking bad for you, you don't have as many friends as you did 
before. So back then in that period of time, I had considered 
myself as having a considerable number of friends.
    Mr. Pierluisi. And that is roughly how many, at the time of 
the relevant events here?
    Mr. Creely. Sir, you know, I couldn't tell you. I had 
acquaintances; I had friends.
    Mr. Pierluisi. What is the difference between an 
acquaintance and a friend, in your mind?
    Mr. Creely. How many friends what?
    Mr. Pierluisi. I am just saying, how do you distinguish an 
acquaintance from a friend, in your mind? What is the 
difference?
    Mr. Creely. The difference is just a long-term friendship, 
a friendship that you have had for years and years and years 
with that person.
    Mr. Pierluisi. Do you visit with friends at their homes?
    Mr. Creely. Pardon me?
    Mr. Pierluisi. Do you visit with friends at their homes?
    Mr. Creely. Yes.
    Mr. Pierluisi. Do your friends visit at your home?
    Mr. Creely. Yes.
    Mr. Pierluisi. And you do that with close friends or with 
any friend?
    Mr. Creely. Visit with them?
    Mr. Pierluisi. Visit with them at home and so forth.
    Mr. Creely. Yes.
    Mr. Pierluisi. Did you visit with Judge Porteous at his 
home?
    Mr. Creely. Yes.
    Mr. Pierluisi. You would go to his home?
    Mr. Creely. Yes.
    Mr. Pierluisi. How often?
    Mr. Creely. Well, often would be he would have a Christmas 
party with a great number of people there. I would go. On 
occasion, he would have different functions. And his friends 
that were very close to him brought me into their friendship 
circles. They had parties that I attended with Judge Porteous 
and his wife and kids. So, you know, yes, we visited----
    Mr. Pierluisi. Did he visit you at your home?
    Mr. Creely. Yes, he visited me at my home.
    Mr. Pierluisi. How often?
    Mr. Creely. I can't give you that number. He visited with 
me on occasion. I am not a real social home type person where I 
have dinner parties and a lot of parties. I have had a few 
parties at my former home that I sold in 2003, but I didn't--I 
wasn't a real party type person.
    Mr. Pierluisi. Did you feel you were a close friend of his, 
of Judge Porteous?
    Mr. Creely. Did I think I was a close friend?
    Mr. Pierluisi. Yes.
    Mr. Creely. I thought he was a close friend of mine. And I 
thought I was a close friend of his.
    Mr. Pierluisi. You appeared on a regular basis before his 
court, did you not? Or--did you appear before his court while 
he was a judge?
    Mr. Creely. Did I appear in his court?
    Mr. Pierluisi. Yes.
    Mr. Creely. As I indicated earlier, in 20 years, I appeared 
in front of Judge Porteous three times. He ruled against me two 
out of the three times. Two cases he ruled against me were 
major cases, one in--when he was on the district case, the 
interdiction case, which doesn't even warrant talking about. A 
freshman in law school could have won that case.
    The case in Federal court was a removal action. It was 
originally filed in state court. The defendants removed it to 
Federal court on a motion to quash a discovery request under a 
very specific Federal statute. Without calling anybody, he read 
the papers that were filed by the defendant, granted their TRO. 
We had a conference by telephone. His response was, ``I have 
read the pleadings. You can make''--and we immediately filed 
pleadings. ``I have read the pleadings. You can come argue your 
motion; you will lose.''
    That was his basic--with all counsel on the telephone, I 
requested a record be made. I made a record. And he did just 
what he told me he was going to do over the telephone, ruled 
against me.
    I had to get relief in the form of a reversal from the 
United States Fifth Circuit Court of Appeals, which took me a 
year, and it cost--basically, I guess you could say, we lost 
the case. I mean, it was--it was a year away from resolution at 
that point in time.
    So, yes, I had three cases in front of him in 20 years.
    Mr. Pierluisi. Did you feel that your friendship was--that 
your friendship was an issue at any point in time where you 
appeared before him?
    Mr. Creely. Absolutely not. Judge Porteous did not--
didn't--if he wanted to do me a favor, he would have granted my 
motion on my request to test the solvency of the surety. He did 
not. If he wanted to do me a favor, he would have denied motion 
that the plaintiffs--the defendants had in the Federal court 
case requesting that I not be allowed to get the discovery. He 
did not. He did me no favors while he was on the bench.
    Mr. Pierluisi. Did any of the parties involved in these 
three cases you are mentioning knew the extent of your 
friendship with the judge at the time?
    Mr. Creely. No.
    Mr. Pierluisi. No?
    Mr. Creely. No.
    Mr. Pierluisi. Did you feel that you had to disclose that 
at any point in time?
    Mr. Creely. Well, I tried a jury trial. I don't know what 
our relationship back when the jury trial--I don't even know 
the year, so I tried a jury trial. The jury made the decision 
in that case, not the judge, the jury. There is a stark group 
of jury charges that he hands out, that all the judges do. The 
jury made the ruling. Post-trial motions, he ruled against me, 
ruled against me.
    Mr. Pierluisi. Well, you are a lawyer, and you are a trial 
lawyer, so you know that--that even in jury trial, a judge will 
be making rulings throughout the whole process, evidentiary 
rulings, as well as all kinds of motions he needs to deal with. 
You know that, don't you?
    Mr. Creely. And that case ended up in the Supreme Court, 
and the judgment at the trial court was affirmed by the 
Louisiana Supreme Court.
    Mr. Pierluisi. As a lawyer, were you concerned at any point 
in time about the appearance of your friendship with this judge 
while you were appearing before him?
    Mr. Creely. No, because I always thought that he was going 
to do what he was going to do. He was going to do the 
appropriate thing.
    Mr. Pierluisi. That is what you thought. How about other 
people's thoughts? Did you ever--were you ever concerned about 
what other people could be thinking about, in terms of your 
friendship with the judge you were appearing before?
    Mr. Creely. Everybody in the parish or county that we 
practice in was aware of our friendship, everybody. I was a 
very popular lawyer. He was a very popular and--and charismatic 
judge. Everybody knew we were friends. Everybody. I am not 
saying, though, every single person.
    Mr. Pierluisi. Are you then implying that, because 
everybody knew that you were friends, that nobody was concerned 
about that friendship when you were appearing before him?
    Mr. Creely. If they were concerned about it, they could 
have filed a motion, and it would have been re-allotted to 
another division, and that court could have made a ruling 
whether or not our friendship would interfere with it. Just 
because you are a judge doesn't mean that you are going to--you 
are going to do--do something improper. It doesn't mean you are 
going to rule in my favor, as he did not, and we were friends.
    But I--I understand what you are saying, sir. And, I mean, 
do I have an obligation or does every lawyer who takes a judge 
to lunch, who is extremely friendly with a judge have an 
obligation before they try a case to say, ``This guy or this 
woman is my friend, that I have taken this person to lunch, 
that I have been to Las Vegas with this person, that I have 
taken trips with this person''? Does every lawyer have an 
obligation to say, ``Look, I can't--I have made the maximum 
amount of contributions to their campaign. I have--I have 
organized individuals to make maximum contributions to their 
campaign.'' Does the lawyer have an obligation to do that? It 
is my understanding the lawyer does not.
    I didn't think I had an obligation to tell people that I 
took Judge Porteous to lunch, that I had a friendship with him.
    Mr. Pierluisi. Did you--did you give him anything of value 
while he was judging any of the three cases that you were--that 
you mentioned?
    Mr. Creely. If--if--if what I gave him fell within the time 
period of time in which he was judging those cases, the answer 
to that would be yes.
    Mr. Pierluisi. And did I hear you right that you--in your 
mind, you thought that you could give him pretty much anything, 
so long as--and that he was the one who had to disclose it in 
his ethics forms? Is that how you understood this to work?
    Mr. Creely. The----
    Mr. Pierluisi. That you could give him any gift and that it 
was simply his onerous or burden to report it in his ethics 
forms? Is that what you thought?
    Mr. Creely. My understanding of--of the law is that I can 
make gifts to judges as long as a gift is not for him to do 
something in my favor judicially. I have read the canons of 
judicial ethics. I have consulted council with that. And that 
is my understanding of the law. If--that is my understanding.
    Mr. Pierluisi. Were you concerned at any point in time 
about the appearance of giving a gift to a judge who is ruling 
on a case you are trying, sir?
    Mr. Creely. If I did--do I----
    Mr. Pierluisi. Were you ever concerned about the appearance 
of giving a gift to a judge who is ruling on a case that you 
are trying?
    Mr. Creely. Not when you--not when you know the judge is 
going to do what he thinks is appropriate. I--I--I didn't think 
he----
    Mr. Pierluisi. You were not concerned about what others 
could think about that, you giving a gift to a judge who is 
ruling on a case that you are trying?
    Mr. Creely. Counsel, I don't want--sir, I don't want to be 
combative in any way. I am trying to be as respectful and as 
cooperative as I can. And I have been every bit cooperative.
    Mr. Pierluisi. I am being--and I myself am being 
respectful. If I am raising the tone of my voice, it is simply 
because--it is because I want you to listen carefully to what I 
am saying. But I am being respectful. I just want an answer.
    Mr. Creely. I know you are. I just don't want to be 
combative. I want to answer your question in as respectfully 
and as honorably and as honestly as I can.
    Mr. Pierluisi. Were you ever concerned about the 
appearance--appearance, what others could think about you, 
giving gifts to a judge who is trying a case that you are--who 
is judging a case that you are trying, sir?
    Mr. Creely. No. I didn't--the three cases, I didn't think 
that that would have an effect upon his outcome, and it--it did 
not, in fact, have an effect on any of the cases I tried in 
front of him. It had a negative effect.
    Mr. Pierluisi. You had mentioned before that a motion--
anybody could have filed a motion requesting his recusal in the 
three cases that you were mentioning, that you mentioned 
before. That actually happened in the Liljeberg case, didn't 
it? You know that, right? That a motion for recusal was--was 
filed?
    Mr. Creely. I am aware of a motion to recuse from reading 
all these things, yes, sir.
    Mr. Pierluisi. And--and let me ask you this. It was 
explored a bit by--by Congressman Cohen, but you stood to 
benefit from these curatorships, right? From whatever fees 
those curatorships generated, you stood to benefit as a partner 
of your firm, right?
    Mr. Creely. Yes, sir.
    Mr. Pierluisi. You did?
    Mr. Creely. I got the money.
    Mr. Pierluisi. You got the money. And the same with the 
fees, whatever fees could--could--the firm could earn in the 
Liljeberg case, you stood to benefit from those, didn't you?
    Mr. Creely. Absolutely.
    Mr. Pierluisi. And to the best of your knowledge, while 
that case was pending before Judge Porteous, you gave something 
of value to the judge.
    Mr. Creely. Correct.
    Mr. Pierluisi. And you knew that that case was pending?
    Mr. Creely. Yes. And if you are talking about the Las Vegas 
trip, opposing counsel was with us on that trip.
    Mr. Pierluisi. Did you ever feel uncomfortable when giving 
monies or anything of value to the judge?
    Mr. Creely. I felt put upon, and I felt--so if you can 
relate that to being uncomfortable, I felt--I got--I felt worn 
out, tired of it, yes. I felt--I got tired of being asked for 
money.
    Mr. Pierluisi. Did you ever consider saying no to him?
    Mr. Creely. I did say no. I told him I couldn't continue to 
do this, and it would--a few weeks would pass by, and he would 
come back.
    Mr. Pierluisi. Did you feel pressured upon?
    Mr. Creely. I am sorry, sir?
    Mr. Pierluisi. Did you feel that he was exerting pressure 
on you?
    Mr. Creely. I felt that he was abusing a friendship, yes. I 
felt pressured by it. I felt he was abusing what I thought to 
be a friendship. I wouldn't have done that to a friend of mine, 
okay? I wouldn't have done what he did to me to a friend of 
mine. I have not done what he did to me to anybody that I know, 
any--anybody that I know.
    So, yes, I felt imposed upon. I felt taken advantage of. 
And I--I was tired of it. And I explained that to him.
    Mr. Pierluisi. And that--and all of that happened while he 
was a sitting judge?
    Mr. Creely. Yes, sir.
    Mr. Pierluisi. I have no further questions.
    Mr. Schiff. Mr. Gonzalez?
    Mr. Gonzalez. Thank you very much, Mr. Chairman. And I 
apologize for my absence. And I am going to ask a couple of 
questions, and staff has provided me with some of the 
information that Mr. Baron was able to go over as he made his 
presentation. And I apologize if I repeat some of it. I just 
want to make sure that it was said and stated, because it forms 
some of the basis for the questions that I ask.
    Mr. Creely, quite simply, did Judge Porteous use his 
position as a United States district trial judge to make 
requests of you for money?
    Mr. Creely. Did he use his----
    Mr. Gonzalez. Did he use his position as a sitting U.S. 
judge----
    Mr. Creely. He used----
    Mr. Gonzalez [continuing]. To make a request of you for 
money?
    Mr. Creely. No. He used the same thing that he used in 
state court, friendship. My--and he didn't request money from 
me. If it is the incident you are talking about on the boat, he 
didn't make a request of me. I wasn't on that trip. I wasn't 
with them.
    Mr. Gonzalez. Okay, Mr. Creely, I didn't ask you--you never 
responded to any of the requests in paid money to Judge 
Porteous because of his position as a sitting U.S. judge, is 
that correct?
    Mr. Creely. Absolutely not. There was nothing--other than 
that one case I told you about that I had in front of him, his 
requests were from a friend to me----
    Mr. Gonzalez. All right.
    Mr. Creely [continuing]. Telling me he needed money.
    Mr. Gonzalez. Well, and then that is--I want to go to the 
next area, and that is this friendship. We all understand 
friendship. So let me ask you. If a friend in need, would there 
have been any other manner to have assisted Judge Porteous? Co-
signer on a note? I mean, there are different ways, if you want 
to help a friend, than direct payment----
    Mr. Creely. Yes, that----
    Mr. Gonzalez. I mean, cash?
    Mr. Creely. There would have been a lot of things. And--
and----
    Mr. Gonzalez. But you didn't do that.
    Mr. Creely. Being 45 years old, when you look back over 
your life and you say, ``Do I wish I would have gotten six or 
seven of his friends to come confront him and tell him to quit 
drinking?'' Yes. Do I wish I could have done a number of other 
things to help him out? Yes. I didn't, okay? I had a very 
active practice. I continued working. And I tried to help him 
with--with the need that he came to me and asked--asked me to 
help me.
    Mr. Gonzalez. But what was available to your friend, Judge 
Porteous, was not available to anybody that did not enjoy the 
position that he had, simply meaning that he was able to 
appoint you, using his judicial authority, to a curatorship 
that resulted in payment to you. And by your own testimony--I 
am not going to go over it, because I think Mr. Baron went over 
it, there was a direct connection to your appointment, to you 
receiving a fee, paying taxes on it, and basically returning 
the money to Judge Porteous. Isn't that correct?
    Mr. Creely. A portion of the money, yes, sir.
    Mr. Gonzalez. I guess I--I am just--I don't understand the 
huge issue here. You are admitting that as a result of the 
judge's position and abilities as a Federal district judge to 
reward you, by appointment, you were able to receive monies 
that you paid back, that were the basis for the loan back to 
the judge. Isn't that what you just said?
    Mr. Creely. What I--I mean, if you go through this for 10 
years, you know, you get very confused about things. He gave me 
curators. The curators went to our operating account. He asked 
for money. I gave him money.
    Mr. Gonzalez. And this is the portion of the testimony that 
was made reference earlier in a PowerPoint. This is--I believe 
that this is--``And so I told him I had to stop. I have got to 
stop doing this, all right? But he started sending curatorships 
over to my office, all right? And he would send like two or 
three at a time. And then he started calling and saying, `I 
been sending you curators, you know? Can you give me the money 
for the curators?' I said, `Man.' So I talked to my law 
partner. I said, `Jake, you know, man, what do we do?' He says, 
`Well, just go ahead and give it to him.' We decided to give 
him the money. We would deduct the expenses. We would pay 
income taxes on it.''
    Am I missing something here?
    Mr. Creely. No.
    Mr. Gonzalez. You identified money that was being paid to 
you as a result of an appointment by a Federal district judge. 
You identify that money as the basis for you to then turn the 
money back over to the judge.
    Mr. Creely. It was----
    Mr. Gonzalez. Is that not--but for Judge Porteous's 
position and ability to do that, would you have paid him the 
money?
    Mr. Creely. It was a state court judge. Yes, I would--I 
would have paid--I would have--I would have probably given him 
money because I gave him money before he gave me curators, and 
I gave him money----
    Mr. Gonzalez. I am only talking about the money--did you 
give him money after receiving payment for your services as a 
curator?
    Mr. Creely. Before and after.
    Mr. Gonzalez. I am just talking about after at this point. 
You don't see the connection there, sir? And I don't mean to be 
harsh or whatever. I just think we are all lawyers, that we 
have all been in courtrooms. We know what--how witnesses answer 
these questions. But when you--when two and two should add up 
to four, it is hard to live with an answer when you are telling 
me it is five.
    Mr. Creely. Sir, of course there can be a connection there, 
you know?
    Mr. Gonzalez. But there was a connection, Mr. Creely. That 
is what we are all up here to establish, in part. And I think 
it is indisputable there is a connection by your own testimony.
    Mr. Creely. The--the----
    Mr. Gonzalez. If I was your friend----
    Mr. Creely. The curators----
    Mr. Gonzalez [continuing]. And I owned a filling station on 
the corner, and you have been lending me money, because we are 
close, and you go fishing and hunting together, the difference 
is, as your friend at the filling station, I can't get some 
sort of compensation to you that you turn around and pay--and 
that a third party--and in this case, either litigants or the 
United States government--is paying you money to basically get 
back to me.
    And I know what Mr. Johnson said. You know, we are looking 
at kickbacks and so. Nothing is ever clear. But on this one, I 
mean, I think you have gone the direct link or the nexus 
between the appointment of a curatorship, the compensation you 
received that formed the basis to basically funnel the money 
back to the judge that appointed you.
    Mr. Creely. It was an evolution into him giving us curators 
and our justification of giving them back to him. I think I 
have testified to that three or four times in different ways. I 
can't remember every word of my testimony exactly as I have 
given it before, but that is, in essence, my testimony, sir.
    Mr. Gonzalez. Thank you very much, Mr. Creely.
    I yield back, Mr. Chairman.
    Mr. Schiff. I thank the gentleman.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you for your testimony, Mr. Creely. I am curious. 
Since this is a form of discovery here, and as an attorney, as 
a former judge and chief justice, I know lawyers talk. Did you 
ever hear from any other attorneys that they were asked to give 
money to the judge, either based on curatorships or otherwise?
    I am sorry. I am not--is the mic on?
    Mr. Creely [continuing]. Nobody ever told me that the judge 
gave them curators and asked for money back.
    Mr. Gohmert. Well, how about just that they had then asked 
for money or donated money to the judge personally? Did you 
ever hear of that?
    Mr. Capitelli. Excuse me. Could we ask the councilman to 
speak into the mic so we could hear a little better, too?
    Mr. Gohmert. Yes. Thank you. Did you ever hear any other 
attorney say that they had provided money to the judge or asked 
for money?
    Mr. Creely. Yes.
    Mr. Gohmert. Okay. And--and what other attorneys would that 
be? What other attorneys----
    Mr. Creely. Well, no, I am--you know----
    Mr. Gohmert. But you have--you don't know the names of the 
attorneys, but you know there was discussion in the area that 
other attorneys were asked for money like you had been?
    Mr. Creely. There are names of attorneys. Judge Porteous 
testified to that. He testified----
    Mr. Gohmert. Do you know of--yes, I--I know. We have got 
the testimony, but I am asking you personally, were you aware 
of anyone else who had indicated they had provided money to the 
judge outside of your firm?
    Mr. Creely. Other people have alluded to the fact that he 
had given his money, and I believe at least one other lawyer 
testified. I indicated that he gave money to the judge.
    Mr. Gohmert. And, look, I understand this has got to be 
very uncomfortable. You are sitting here at the table. The 
judge is right behind you. I understand that. But I am 
curious--that is got to be tough on you and your law firm when 
you are asked for money, particularly cash, particularly when a 
case is pending, and someone is sent over to get $1,000. I am 
just curious, how--how do you deal with that? Do you--as--is 
that considered a business expense, as far as tax purposes? 
How--how do you deal with that? Do you just take that right out 
of your own pocket?
    Because it sounds like a price of doing business. When you 
pay $1,000 cash, is that a business expense? I am asking. I 
really don't know.
    Mr. Creely. We paid income taxes on it. We absorbed it as 
income.
    Mr. Gohmert. No, I--I knew that you had. But I am talking 
about, once you gave money to the judge----
    Mr. Creely. I didn't give any money to the judge. I gave it 
to my law partner, and the judge apparently, because I was 
avoiding doing it, I was avoiding doing it----
    Mr. Gohmert. Oh, I see. You gave it to your law partner, 
and he provided it to the judge?
    Mr. Creely. He provided it, from what I understand, to the 
judge's secretary, because we were trying to avoid giving it to 
him.
    Mr. Gohmert. I see. Okay. Well, I didn't know--yes, I 
understood you paid tax on that. That was income to you. But 
then when you are asked by a judge to provide $1,000 cash, even 
though you give it to your partner and the partner gives it to 
the secretary, I didn't know if you later dealt with that as a 
business expense, because it certainly cost you as an attorney.
    Mr. Creely. Well, no, I didn't treat it as a business 
expense, no, sir.
    Mr. Gohmert. But you did feel like, when your partner asked 
for it--or I guess your partner felt like this is something we 
have got to do, because the judge has asked for it, correct?
    Mr. Creely. Well, do you want me to tell you what happened?
    Mr. Gohmert. Sure.
    Mr. Creely. All right. What happened--the way it was told 
to me is they went fishing, and the judge broke down on the 
boat. What part of the boat--I mean, I said the front one time, 
the back one time. It could have been in the middle. I don't 
know where.
    The judge broke down, according to my law partner, and told 
him he was having problems financing, you know, I said, 
tuition. I was cross-examined. Wasn't it a wedding? I don't 
know whether it was a tuition or a wedding. The fact of the 
matter, the money was given, broke down, started crying, said 
he couldn't afford--I believe it was a wedding of his son, 
Timmy, some aspect of the wedding and needed help. He was 
embarrassed. My law partner came back from the trip and had a 
discussion with me about that, about how bad he felt about our 
friend, and asked me to--to give him $1,000. And I--I did. I 
cashed a check and gave him--gave him $1,000, gave my law 
partner $1,000.
    Mr. Gohmert. But even though that was given from the 
partner's standpoint to try to help a friend, you would expect 
that, since you gave that, that anybody in honesty who was 
asked if they had received anything from attorneys would have 
to acknowledge that he had received that, correct?
    Mr. Creely. Oh, I don't--I don't doubt that the--the judge 
received it, and I don't--and I don't dispute that it was--it 
was--it was designed to give to the judge. I don't--I don't 
dispute any of that.
    Mr. Gohmert. All right. All right. Thank you.
    Mr. Schiff. At this point, Mr. Westling, if you would like, 
we will set the clock for 10 minutes, and you may question the 
witness.
    Mr. Westling. Thank you, Mr. Chairman.
    Mr. Creely, good afternoon.
    Mr. Creely. Good afternoon, sir.
    Mr. Westling. You have been a friend of Judge Porteous's 
for many years. Is that correct?
    Mr. Creely. Yes.
    Mr. Westling. When did you first meet him, if you remember?
    Mr. Creely. It is very hard to say. I may have met him in 
our later years of high school, definitely in 1974, while he 
was a lawyer at Gretna in a law firm.
    Mr. Westling. So you knew him for years. You then practiced 
with him in approximately 1974. Is that correct?
    Mr. Creely. I am sorry?
    Mr. Westling. Then you practiced with him--practiced law 
with him in around 1974?
    Mr. Creely. I didn't practice. I practiced out of the same 
office. I did primarily real estate closings during that period 
of time. I can't say I practiced with him, but we practiced out 
of the same facility. I worked for him.
    Mr. Westling. Okay. And so you knew him for approximately 
10 years before he went on to the state bench in 1984. Is that 
correct?
    Mr. Creely. Yes, sir.
    Mr. Westling. And then you continue to know him to this 
day. That is also correct? You know him now, correct?
    Mr. Creely. Yes.
    Mr. Westling. Okay. And so the 10 years on the state bench, 
when you have given testimony today regarding curatorships, 
that is limited to the period while he was a state judge. Is 
that correct?
    Mr. Creely. Correct.
    Mr. Westling. All right. And so the curatorship situation 
ended in 1994, correct?
    Mr. Creely. Obviously.
    Mr. Westling. Okay. The only time there has been ever any 
exchange of money between you and your partner and Judge 
Porteous that you are aware of while sitting as a Federal judge 
was in connection with this request arising from the fishing 
trip. Is that correct?
    Mr. Creely. That I am aware of, yes.
    Mr. Westling. Okay. And then there was the trip to Las 
Vegas that you have testified about, as well.
    Mr. Creely. Make that clear, please.
    Mr. Westling. Mr. Creely, did you ever give money to Judge 
Porteous because he was a judge or was it always because he 
was, first and foremost, your friend?
    Mr. Creely. The only reason I would give money to anybody 
was because they were my friend, unless it was a charitable 
contribution. I would not have given him money because he was a 
judge.
    Mr. Westling. And--and I think you have testified, but at 
no time did you ever have an experience with Judge Porteous 
that led you to believe he was influenced by any of the money 
that you had given him over the years in his capacity as a 
judge. Is that correct?
    Mr. Creely. Obviously not. Two of the three cases I had in 
front of him, he ruled against me.
    Mr. Westling. In terms of your experience with him in 
Federal court, you indicated there was only one case, is that 
right, that you appeared in front of him? Or do I have that 
incorrect?
    Mr. Creely. One case.
    Mr. Westling. All right. And that didn't go so well for 
you. Is that right?
    Mr. Creely. It was a removal action from state court, 
wasn't filed in Federal court. It was removed on a Federal 
issue to his division by virtue of the request of a temporary 
restraining order by one of the defense counsel on a state 
court case.
    Mr. Westling. In every situation where you gave Judge 
Porteous money, whether he was on the state or the Federal 
bench, it was typically because of your concern about his 
personal well-being. Is that right?
    Mr. Creely. Correct.
    Mr. Westling. And you knew his family?
    Mr. Creely. Yes.
    Mr. Westling. Do you all have--both have children?
    Mr. Creely. Yes.
    Mr. Westling. Do they know one another?
    Mr. Creely. No. I have a 2-year-old and a 4-year-old child. 
I have a 27-year-old daughter. My 2- and 4-year-old do not know 
his children.
    Mr. Westling. But your 27-year-old does?
    Mr. Creely. Yes.
    Mr. Westling. Okay. And I take it that you practice in--in 
and around the city of New Orleans, where there is a very close 
relationship between lawyers and the bar. Is that right?
    Mr. Creely. Yes.
    Mr. Westling. And that is true of lawyers between--both 
lawyers and the bench and the bar, correct?
    Mr. Creely. Correct.
    Mr. Westling. And so it is not unusual, is it, to see 
lawyers out to lunch with a judge, whether in the state or the 
Federal court?
    Mr. Creely. It is very unusual not to see something like 
that going on.
    Mr. Westling. It happens all the time?
    Mr. Creely. It happens every day.
    Mr. Westling. And the community is well aware of it both 
inside the courthouse--inside the courthouse and outside the 
courthouse, correct?
    Mr. Creely. Is the community aware of that?
    Mr. Westling. I mean, the--the--the legal community inside 
and outside the courthouse is aware that judges socialize with 
lawyers, correct?
    Mr. Creely. Of course.
    Mr. Westling. All right. And you indicated that your 
friendship with Judge Porteous was well known to the community 
at large that practiced in and around both the Gretna 
courthouse and the Federal courthouse. Is that right?
    Mr. Creely. Yes. When we would--we would go fishing, we 
would take defense lawyers with us, we would take plaintiff 
lawyers with us. One trip that I took with him on a hunting 
trip to Mexico, we took a defense lawyer from a large firm. We 
didn't disguise hunting and fishing. We hunted with other 
judges. We hunted with other lawyers. We hunted with plaintiff 
lawyers, defense lawyers. We hunted with business people.
    And some of the other judges that we went hunting with--
cases in front of them. I was always treated fairly. None of 
that was done to influence anybody's decision on anything or 
any case that I had.
    Mr. Westling. And if you had believed that any of the money 
that you were asked for by Judge Porteous when he was in 
difficult personal circumstances was, in fact, designed to 
influence him, you would have told him, no, you would not give 
him that money. Isn't that right?
    But if he had asked you--because he said, ``Hey, I am a 
judge. You need to give me money.'' You would have told him no?
    Mr. Creely. No. But that never came up.
    Mr. Westling. I understand.
    Mr. Creely. Nothing like that came up.
    Mr. Westling. I understand.
    Mr. Creely. I did divorce work when he was on the--on the--
on the district bench. I tried one jury trial. The cases that I 
handled, he couldn't hear while he was on the district bench. 
He was prevented from hearing them by court rule.
    Mr. Westling. Well, you have testified at some length about 
the period of time when he was on the state bench in which the 
issues of curators came up. And I think what you have said is 
that you gave him money before and after the curators. Is that 
right?
    Mr. Creely. Correct.
    Mr. Westling. And that, had he asked you for money without 
ever giving you a curatorship, you would have continued to give 
him money out of friendship. Is that right?
    Mr. Creely. Correct.
    Mr. Westling. Right. I have no further questions, Mr. 
Chairman.
    Mr. Schiff. Thank you, Counsel.
    I would like to follow up on some of the points that have 
been raised. And I will begin where defense counsel--or--or 
Mr.--Judge Porteous's counsel left off. You said that you made 
payments to the judge before the curators, and you made 
payments to the judge after the curators, correct?
    Please talk into the microphone.
    Mr. Creely. Yes, sir.
    Mr. Schiff. And, of course, you made payments during the 
curators, correct? And you made payments during the time he was 
giving you the curators, right?
    Mr. Creely. Correct. Yes, sir.
    Mr. Schiff. And did he give you curatorships all the way up 
and to the point he left the state bench?
    Mr. Creely. You have the records. I believe that he did.
    Mr. Schiff. And so you testified that he continued to give 
you payments when the curators ended. He left the state bench 
for the Federal bench, correct?
    Mr. Creely. Yes, sir. Well, just--I didn't hear all of your 
question. He left the state bench and went to the Federal 
bench, yes.
    Mr. Schiff. And you said the payments continued after the 
curatorships ended. Does that mean the payments continued while 
he was on the Federal bench?
    Mr. Creely. No, no, no. Nothing continued while he was on 
the federal--no curator payments went to him on the federal--
while he was on the----
    Mr. Schiff. No, I understand that no curatorships were 
given to you when he was on the Federal bench, because he 
couldn't, right?
    Mr. Creely. Right.
    Mr. Schiff. But you have testified in answer to Mr. 
Westling's questions that you gave him money before he even 
started sending you the curatorships, and you continued giving 
him money when the curatorships ended, implication being you 
would have given him money regardless of the curatorships, 
correct?
    Mr. Creely. Yes, sir.
    Mr. Schiff. So your payments continued after the 
curatorships stopped is what you have testified, right?
    Mr. Creely. If you are trying to suggest that when he went 
to the----
    Mr. Schiff. Please answer my question. You have testified 
that you continued giving him money after he stopped giving you 
curatorships, correct?
    Mr. Creely. If I said that, I did not give him money when 
he was on the Federal bench, without the exception of the 
$1,000 we talked about.
    Mr. Schiff. So is it your testimony now that you stopped 
giving him money when he stopped sending you curatorships?
    Mr. Creely. I think the question is, did I stop giving him 
money when he left the state bench? That is the answer.
    Mr. Schiff. So then your answer is, yes, when the 
curatorships stopped, you stopped giving him money?
    Mr. Creely. And he--we stopped making the requests, and we 
distanced ourselves when we got on the Federal bench because he 
became associated with an entirely different group of people. 
It was almost like--I don't know what he did. Our relationship 
just kind of like smoothed out when he got on the Federal 
bench.
    Mr. Schiff. So your testimony, in answer to Mr. Westling's 
question, then, was incorrect? You did not continue the 
periodic payments to Judge Porteous after he stopped sending 
you the curatorships?
    Mr. Creely. That is correct.
    Mr. Schiff. I just want to follow up on a couple of the 
questions that my colleagues asked. My colleague, Mr. Gohmert, 
asked you if you were aware of other attorneys having told you 
that they gave money to the judge. And you said that you were. 
You then made reference to Judge Porteous's testimony or prior 
statements.
    I would like to follow up on my colleague's question. What 
other attorneys have told you that they have given money to 
Judge Porteous?
    Mr. Creely. You want me to give you names?
    Mr. Schiff. Yes.
    Mr. Creely. Well, the person that--Don Gardner----
    Mr. Schiff. Into the microphone, Mr. Creely.
    Mr. Creely. Don Gardner is the only person that I can 
remember. Lenny Levenson never acknowledged giving cash, but 
acknowledged a considerable amount of friendship and 
camaraderie, or whatever you want to call it with him, while 
this Liljeberg case was going on. And that is--that is it.
    Mr. Schiff. Have any other attorneys, other than Mr. 
Gardner or Mr. Levenson, told you either while this was going 
on or after this was concluded that they had also given Judge 
Porteous money?
    Mr. Creely. No, not that I would remember.
    Mr. Schiff. Have any other attorneys or anyone else with 
business before the bar, in the bail bonds business, attorneys, 
private individuals, have any other people told you that they 
have given Judge Porteous money?
    Mr. Creely. Not that I recall, no.
    Mr. Schiff. Have any other people told you that they have 
been asked for money by Judge Porteous?
    Mr. Creely. Nobody has told me directly, but I have heard 
people talk about how he would impose upon them in different 
situations at gambling casinos and things like that.
    Mr. Schiff. Now, by that, are you referring to people 
telling you that Judge Porteous asked them for other forms of 
financial support, as in gambling chips or something of that 
nature? What are you referring to?
    Mr. Creely. I don't have--have a recollection of that. I 
just have a recollection of other people indicating that he 
made--he was just improper in some of his requests from them. I 
don't--I don't have--have a--a specific recollection of it.
    Mr. Schiff. And who, Mr. Creely, has indicated to you that 
the judge made an improper request to them?
    Mr. Creely. I am sorry?
    Mr. Schiff. Who has made--who indicated to you that the 
judge made an improper request to them?
    Mr. Creely. I don't recall. It is just general conversation 
about him, about his--the way he acted, about the way he 
conducted himself, and people talking. It would be like a group 
of people talking.
    Mr. Schiff. Mr. Creely, earlier, our Task Force counsel 
asked you about your interview with the FBI.
    Mr. Creely. About--yes.
    Mr. Schiff. And you stated there that there were certain 
things that you did not tell the FBI, in terms of----
    Mr. Creely. Yes, sir.
    Mr. Schiff [continuing]. Your relationship with the judge, 
the money, gambling, et cetera, correct?
    Mr. Creely. Yes, sir.
    Mr. Schiff. You did that because you didn't want to injure 
your friend's chance of taking the Federal bench, correct?
    Mr. Creely. Correct.
    Mr. Schiff. I don't want to have the same problem here 
today. And I know you have a friendship with the judge you have 
testified about, but I want to ask you once again: Are you 
aware of any other attorneys than the ones you have mentioned 
that have either given the judge cash or been asked by the 
judge for cash?
    Mr. Creely. Other than my law partner--sir, I want you to 
know, I haven't talked to this man in--outside of running into 
him for judicial proceedings concerning this matter for years. 
I don't consider our friendship to exist anymore. I don't 
consider that I have a relationship with him anymore.
    I mean, I don't have any reason to help him. I have been 
injured beyond repair because of this. I can't tell you the 
pain, and I can't tell you the remorse, and I can't tell you 
the financial hardship that this has caused me.
    Mr. Schiff. Let----
    Mr. Creely [continuing]. Myself more----
    Mr. Schiff. Let me ask you, Mr. Creely, about the time when 
you were friends. And Mr. Amato's friendship with the judge 
predated your own. Is that right?
    Mr. Creely. Predated mine?
    Mr. Schiff. Yes.
    Mr. Creely. Yes.
    Mr. Schiff. And Mr. Amato was a partner of the judge's 
before you were--you joined the firm?
    Mr. Creely. Yes.
    Mr. Schiff. Now, you have testified you have had the judge 
over to your house. You have been over to his house, correct?
    Mr. Creely. Sorry. I am not doing--what was that again, 
sir? What was that one?
    Mr. Schiff. You testified that you had the judge over to 
your house, you have been over to the judge's house. Is that 
right?
    Mr. Creely. Yes.
    Mr. Schiff. Mr. Amato was also friends with the judge?
    Mr. Creely. Yes.
    Mr. Schiff. Mr. Amato, you have seen at the judge's home, 
also?
    Mr. Creely. Well, I would have to tell you I don't know, 
but I can tell you my personal experience with Mr. Amato. He 
has been my law partner for 30-say-plus years. And he lived 
around the corner from my home. And out of the 30 years that I 
knew Mr. Amato, I believe I was invited to his house on two 
occasions, twice. We did not have a social relationship between 
our families. So I don't know if Judge Porteous was invited to 
his house. I don't if Judge Porteous went to his house. I can 
only tell you that, if you had a law partner for 30-some-odd 
years, you would think you would be invited to his house more 
than one or two times over that period of time. I know he came 
to my house on several occasions. But----
    Mr. Schiff. Sir, let me get back to my question, though. My 
question was, did you ever see your partner, Mr. Amato, at the 
judge's home?
    Mr. Creely. Did I see Amato at the judge's home?
    Mr. Schiff. Correct.
    Mr. Creely. The annual Christmas party that I think Judge 
Porteous had, I may have seen him there. I have no independent 
recollection of that. I know that we had mutual friends that 
had places in the country where they would have annual feasts, 
if I may say it, of game, food, things of that nature. I would 
see Jake. I would see Porteous and all of our mutual friends at 
those gatherings.
    Mr. Schiff. And in the course of your 30-year partnership, 
you have only been to your partner's house, Mr. Amato's house, 
a couple times. Is that right?
    Mr. Creely. I went to Porteous's house a couple of times, 
yes.
    Mr. Schiff. In your 30-year partnership with Mr. Amato, you 
have only been to Mr. Amato's house a couple of times?
    Mr. Creely. Yes, but not very many. It may have been three, 
but I have not visited his home on a regular basis. It was very 
infrequent and----
    Mr. Schiff. And during the times that--the infrequent times 
you visited Mr. Amato at his home, was Judge Porteous ever 
present?
    Mr. Creely. No. Judge--I have never seen Judge Porteous at 
Amato's house.
    Mr. Schiff. And to your knowledge, has Judge Porteous ever 
been to Mr. Amato's house?
    Mr. Creely. Been to where?
    Mr. Schiff. To your knowledge, has Judge Porteous ever been 
to Mr. Amato's home?
    Mr. Creely. I would be guessing. To my knowledge, no.
    Mr. Schiff. Now, you mentioned in your testimony that you 
stood nothing to benefit by virtue of your relationship with 
Judge Porteous. That was the kind of gist of your testimony, 
wasn't it? Was it the gist of your--is it the gist of your 
testimony, Mr. Creely, that you stood nothing to benefit from 
your relationship with Judge Porteous, by virtue of his being a 
judge?
    Mr. Creely. I got no benefit?
    Mr. Schiff. Was that--is that your testimony, Mr. Creely?
    Mr. Creely. I got no benefit from him being a judge. I got 
no benefit at all from him being a judge.
    Mr. Schiff. Now, at the same time, Mr. Creely, you and your 
partner divided the proceeds of the firm pretty evenly?
    Mr. Creely. Yes, sir. We divided proceeds from the firm, if 
that was your question.
    Mr. Schiff. Yes. You divided them fairly evenly? Do you 
divide the proceeds of the firm evenly between yourself and Mr. 
Amato?
    Mr. Creely. Yes, sir. Yes. He may have gotten a little 
more, but yes.
    Mr. Schiff. And do you know why Mr. Amato, your partner, 
was brought into the Liljeberg case only 6 weeks before trial?
    Mr. Creely. Do I know that? I don't know that.
    Mr. Schiff. Mr. Creely, wasn't he brought in because of his 
and your friendship with the judge?
    Mr. Creely. Weren't brought in from our friendship, because 
I didn't know the Liljebergs from anything. It was a group of 
lawyers that were brought into that case. And I don't--I didn't 
know the Liljebergs from anybody.
    Mr. Schiff. So it wasn't based on your firm's long 
representation of the Liljebergs?
    Mr. Creely. No, I didn't know who the Liljebergs were. I 
may have met the Liljebergs one or two times during the course 
of the entire relationship. The meetings on Liljeberg weren't 
held at Amato and Creely. The business records and things 
weren't held at Amato and Creely.
    Mr. Schiff. But the legal community understood your 
relationship and Mr. Amato's relationship with Judge Porteous, 
right?
    Mr. Creely. Correct.
    Mr. Schiff. Isn't that why you were brought into this case 
by this company, Liljeberg, that you knew nothing about, 6 
weeks before trial?
    Mr. Creely. That is an answer that you want me to say yes 
to?
    Mr. Schiff. I want you to give us the truth, Mr. Creely.
    Mr. Creely. I am trying to be truthful, okay? That may very 
well have been the reason why he was brought in. Maybe the 
Liljeberg family thought that they could get an advantage by 
somebody who knew the judge. I had no--I was not privy to any 
of those discussions. I was not privy to signing up the 
contract. I don't even know what the contract reads, have no 
idea.
    Mr. Schiff. Mr. Creely, given the amounts of money that 
were involved in the Liljeberg case, were you aware that if the 
Liljebergs prevailed, as they did in the district court before 
Judge Porteous, that you and your partner stood to make between 
$500,000 to $1 million?
    Mr. Creely. Whatever the percentages were, I had no idea 
what the judgment was going to be. I didn't know what the 
judgment, from what I read, was. And I think we had a 6 
percent--I think--I don't know. I haven't seen the contract. I 
think the contract gave us 6 percent of the gross fee if we 
won, but I had no idea if we were going to win, two, whether 
the court of appeals was going to affirm any award.
    But whatever we--whatever award was going to be rendered, 
or whatever award we would get, we would get money off of it, 
yes. I was aware of that.
    Mr. Schiff. And during the pendency of this case, where 
your firm stood to earn between $500,000 to $1 million, the 
judge asked you for $2,500 in cash, and you and your partner 
gave it to him, right?
    Mr. Creely. My recollection, it was $2,000 in cash. And, 
yes, I did give it to him. I gave him my portion of it. I gave 
to Jake who gave it to him.
    Mr. Schiff. Now, you testified earlier that something along 
the lines that the district court judgment, Judge Porteous's 
decision in that case, really didn't matter because the case 
would be appealed. Is that your testimony?
    Mr. Creely. My testimony is--my experience is, every major 
case that I have had ends up in the court of appeals, unless it 
is settled. And if it is legal issues, most of the time, they 
end up in the court of appeals.
    Mr. Schiff. Are you trying to suggest to us, Mr. Creely, 
that somehow the district court decision really makes no 
difference to you or your clients, whether the judge rules for 
you, against you?
    Mr. Creely. The district court decision makes a lot of 
difference, because the law is what the law is, that if the 
district court interprets the law in a particular inappropriate 
fashion, it is always corrected by the court of appeal. If the 
district court misapplies facts to cases or makes factual--
makes manifestly erroneous factual findings, the court of 
appeals always corrects that, just like the case I had with 
him. He was totally wrong on the law, and the court of appeal 
corrected him.
    I don't know what the legal issues were in this case, but 
the court of appeal--that is why--the Fifth Circuit Court of 
Appeals is a very sophisticated court, from what I understand 
it.
    Mr. Schiff. Mr. Creely, is there a reason why you want to 
suggest that a trial judge's decision is of no consequence to 
your client in a multi-million-dollar litigation? Is there a 
reason you want to make that suggestion here today?
    Mr. Creely. Of course a decision had consequences from the 
trial court judge. Who wants to go up losing? Who wants to go 
to the court of appeals losing a case? I don't----
    Mr. Schiff. Well, and more than that, doesn't the trial 
court decision have an impact on the settlement value of the 
case?
    Mr. Creely. The judge's ruling?
    Mr. Schiff. Doesn't that have an impact on the settlement 
value of the case?
    Mr. Creely. I am sure it would have an impact on the 
settlement value of the case. If you were awarded $10,000, it 
wouldn't--it would be much more settling. If he awarded a lot 
of money, it would impact settlement. But from what I 
understand subsequent to all of this, there was no real 
settlement discussions that took place among settling this 
case.
    Mr. Schiff. Mr. Creely, I want to ask you one last 
question, and then I will turn it over to my colleagues. You 
testified a couple times that you tried to avoid giving the 
judge money. You tried to go out of your way to avoid being put 
in a position of being asked for money. Why was that difficult? 
Why couldn't you avoid him? Where would you see him when he 
asked you for money?
    Mr. Creely. You name it. I mean, anywhere. I mean, we could 
have been at lunch. We could have been--I could have been at 
the courthouse. I could have been walking down the street.
    Mr. Schiff. Were there times, Mr. Creely, that he asked you 
for money while you were in the courthouse?
    Mr. Creely. No, you are asking to me an estimation. I am--
--
    Mr. Schiff. No, Mr. Creely, I am not asking you to make 
estimations. I am asking you, did Judge Porteous ever ask you 
for money while you were in the courthouse?
    Mr. Creely. He could have. I don't know. He--you know, we 
went out together. We had lunch together. He could have asked 
me for money anywhere.
    Mr. Schiff. Mr. Creely, nothing compelled you to take him 
out to lunch, right?
    Mr. Creely. Of course not.
    Mr. Schiff. But you did, as a result of being an attorney, 
have to appear in the courthouse, didn't you?
    Mr. Creely. Yes, sir, I appeared in the courthouse. I 
didn't practice law in front of him for 10 years.
    Mr. Schiff. Mr. Creely, my question is, as a lawyer, you 
had to go to the courthouse periodically, whether you were in 
his court or not, didn't you?
    Mr. Creely. Yes, sir.
    Mr. Schiff. And as he was in the courthouse, did it make it 
difficult for you to avoid him completely because your business 
took you to the same building?
    Mr. Creely. The question is, I had to go to the courthouse?
    Mr. Schiff. The question is, you said you wanted to avoid 
him. Was that difficult because you had to work in the same 
building?
    Mr. Creely. We worked in the same building.
    Mr. Schiff. Do we need to repeat the question, Mr. Creely? 
You said you were trying to avoid the judge because he kept 
hitting you up for money.
    Mr. Creely. Right.
    Mr. Schiff. Was it difficult to avoid the judge completely 
because you had to practice in the same courthouse?
    Mr. Creely. It was--yes, because this was the courthouse 
that he practiced law in, which was the Gretna courthouse. This 
was the hearing--this was the courthouse where they handled 
divorce cases. It was in a different building, all right?
    The domestic relations section of the court was in a 
different building than the courthouse that Judge Porteous 
practiced law in. So you would--you would go to this building 
for relief on divorce cases. I believe back in the 1980's, if 
you disagreed with rulings and hearing officers and so forth, 
you would have a trial in this building.
    Mr. Schiff. Mr. Creely, I am sorry, but the court reporter 
and the transcript won't reflect what cup you are pointing to 
for a building. Let me just ask you very simply: Did your work 
as a lawyer take you into the same building where Judge 
Porteous either had his chambers or the courtroom in which he 
appeared?
    Mr. Creely. Yes.
    Mr. Schiff. And when you would meet the judge for lunch, 
would you meet him in his chambers prior to going to lunch?
    Mr. Creely. While we were in the courthouse?
    Mr. Schiff. When you would meet Judge Porteous for lunch, 
did you meet him in his chambers on occasion and then go from 
his chambers to lunch?
    Mr. Creely. There is a possibility, yes.
    Mr. Schiff. In the microphone, Mr. Creely.
    Mr. Creely. There is a possibility, yes.
    Mr. Schiff. And is it also a possibility that, while in his 
chambers before going to lunch, that he requested money from 
you?
    Mr. Creely. There is a possibility, yes.
                               __________

    Mr. Schiff. Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Chairman, I 
don't believe any on our side have any additional questions of 
this witness. Thank you.
    Mr. Schiff. At this point, Mr. Creely's testimony having 
concluded, we will recess for lunch and return in 45 minutes. 
Will that--in 45 minutes.
    We are in recess.
    [Recess.]
    Mr. Schiff. This hearing will come to order.
    Before we begin and introduce the next witness, I would 
like to ask that the exhibits that Mr. Baron used earlier in 
his presentation be made a part of the record, unless there is 
objection. Hearing none, it will be so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Schiff. Our second witness today is Jacob Amato, 
Esquire. Mr. Amato is an attorney with a law practice in the 
New Orleans area. He is here pursuant to subpoena and has 
previously been served with an immunity order that compels his 
truthful testimony at proceedings before the House. I will now 
swear the witness.
    Mr. Amato, please raise your right hand. I don't know if 
you are able to rise.
    [Witness sworn.]
    Mr. Schiff. Thank you. You may be seated.
    Mr. Dubester, you may now question the witness.
    Mr. Dubester. Okay--please introduce yourself to the 
Members of the panel.
    Okay. Will you just--I am sorry. Okay.
    And, Mr. Amato, are you an attorney?

           TESTIMONY OF JACOB AMATO, JR., ATTORNEY, 
                        NEW ORLEANS, LA

    Mr. Amato. Yes, I am.
    Mr. Dubester. And where do you practice?
    Mr. Amato. Gretna, Louisiana.
    Mr. Dubester. And what parish is that?
    Mr. Amato. Jefferson Parish.
    Mr. Dubester. And do you have offices which are right near 
the courthouse there?
    Mr. Amato. Yes, right across the street from the Gretna 
courthouse.
    Mr. Dubester. Okay. Now, in the early 1970's, were you a 
partner with Judge Porteous?
    Mr. Amato. Yes, I was.
    Mr. Dubester. And did Mr. Creely work for you?
    Mr. Amato. That is true. Mr. Creely did work for the law 
firm that--Edwards, Porteous and Amato, while he was in law 
school.
    Mr. Dubester. And are you older than Mr. Creely?
    Mr. Amato. Yes, sir.
    Mr. Dubester. And were you a peer of Judge Porteous's at 
law school?
    Mr. Amato. I think I am older than he is. In fact, I know I 
am older than he is, but I don't know. We didn't--we went--he 
went to LSU, and I went to Loyola, so I didn't meet him until 
after law school.
    Mr. Dubester. But in any event, Creely is junior to the two 
of you, correct?
    Mr. Amato. Correct.
    Mr. Dubester. And you had a relationship with Judge 
Porteous as a friend before Mr. Creely came and joined the 
practice, right?
    Mr. Amato. Correct.
    Mr. Dubester. Okay. Now, at some point, you and Mr. Creely 
formed your own practice. Is that right?
    Mr. Amato. Correct.
    Mr. Dubester. Now, in the--starting with 1984, Judge 
Porteous was elected state judge. Is that correct?
    Mr. Amato. I think that is correct. I don't know the exact 
date. It is----
    Mr. Dubester. And you maintained a friendship with him 
while he was a state judge?
    Mr. Amato. Yes.
    Mr. Dubester. Okay. Now, at some point in the--did you 
become aware that Judge Porteous was making requests of Mr. 
Creely for cash?
    Mr. Amato. At some point, yes.
    Mr. Dubester. And how did you become aware of that?
    Mr. Amato. Mr. Creely came to me one day and said that 
Tom--or Judge Porteous asked him for some money based upon 
sending curatorships.
    Mr. Dubester. Okay. Now, if you want to call everybody Tom 
and Bob, just because it is what you would refer to them, you 
just go ahead and do that. We will understand who you are 
referring to.
    Mr. Amato. I ought to be polite to everybody.
    Mr. Dubester. Understood. Okay. And after this information 
or this communication came to you from Mr. Creely, what did you 
understand--what happened next, in terms of the request to Mr. 
Creely and the provision of monies to Judge Porteous?
    Mr. Amato. Well, I never got a request from Judge Porteous 
ever as for any percentage of the curatorships. Bob would tell 
me Judge Porteous needs, you know, $500, $1,000, whatever it is 
for the curatorships, and we would each draw a check for 
whatever half the amount that he requested.
    Mr. Dubester. And you are making a reference to Bob needing 
money for the curatorships, so the request coming from the 
curatorships. What are you referring to?
    Mr. Amato. Well, the judges can send curator cases to 
various lawyers, and they do for various reasons, usually to 
help out young lawyers with fees and sometimes for--you know, 
for their own personal reasons. You know, you might have worked 
in their campaign or some campaign contributions or something. 
And Judge Porteous sent curator cases to Bob Creely and at some 
point asked that he be--receive some of that money.
    Mr. Dubester. Okay. Now, the money that went to Judge 
Porteous that you have just described, did they come--was that 
Bob's money, or your money, or both of your money?
    Mr. Amato. It was our money.
    Mr. Dubester. And how did that process work, in terms of it 
being both your money?
    Mr. Amato. Well, we each drew a salary, and we each--you 
know, a regular salary. And we also took draws. You know, if we 
had money this month, we took a little extra money. And when it 
was time to give Judge Porteous curator money, that the 
bookkeeper would write checks, $500 to me, $500 to Bob, checks 
would be cashed, and then some sort of way or another, Judge 
Porteous would receive the money.
    Mr. Dubester. Okay. Did you personally give Judge Porteous 
the cash?
    Mr. Amato. I really--I am sure I had. I can't be positive 
when--how much, but I really can't--I can't answer that.
    Mr. Dubester. Okay. Now, even though the requests were 
coming from Judge Porteous to Bob Creely, is there any question 
in your mind that Judge Porteous understood that the money 
going back to him including--it was money from you, as well as 
Bob?
    Mr. Amato. Of course. We owned our own office building. We 
had checks. We had business cards. We filed pleadings and, you 
know, Amato and Creely, a professional law corporation.
    Mr. Dubester. Did you own real estate together?
    Mr. Amato. Yes.
    Mr. Dubester. And the name on your--did you have a name on 
the building?
    Mr. Amato. We had our name on the building. We didn't have 
a big building name that said the Amato and Creely Building, 
but we had our----
    Mr. Dubester. Okay.
    Mr. Amato [continuing]. Our office name on it.
    Mr. Dubester. You have been asked several times, I think, 
in different contexts if you have a sense of how much money you 
gave--the two of you gave back to Judge Porteous. Do you have 
any sense?
    Mr. Amato. I would have to say over $10,000, but how much 
over, I don't know. But I don't think it was over $20,000. I 
just don't know.
    Mr. Dubester. Okay.
    Mr. Amato. I never had a finger on it. I never fooled with 
it.
    Mr. Dubester. Okay. But no--and also, most of that was 
being handled by Mr. Creely, correct?
    Mr. Amato. Yes.
    Mr. Dubester. Okay. Mr. Creely has estimated--if others 
have estimated it to be at least $20,000, you don't dispute 
that, do you?
    Mr. Amato. No, I can't--I have no way to refute it.
    Mr. Dubester. Okay. Now, did you feel you had a choice but 
to give Judge Porteous this money?
    Mr. Amato. Yes, I think we had a choice, but I just wasn't 
strong enough to put an end to it. To put an end to it, I would 
have to break up my law partnership and break up a friendship 
that I have had over a number of years with Judge Porteous, and 
I wasn't strong enough.
    Mr. Dubester. Okay. Now, after Judge Porteous became a 
Federal judge, did you contribute to a party in his honor?
    Mr. Amato. Yes. They had a--like a reception after he was 
sworn in and some sort of way, and I don't know how we paid for 
a part of it or all of it. I am not sure.
    Mr. Dubester. Was that at the Jefferson Hotel?
    Mr. Amato. The Jefferson Orleans. It is a banquet hall.
    Mr. Dubester. Okay. I want to go up until 1996 now. Were 
you retained as one of the attorneys to represent the 
Liljebergs?
    Mr. Amato. I was.
    Mr. Dubester. And was that shortly before trial was 
scheduled in that case?
    Mr. Amato. Not that I know of. I--that doesn't ring true, 
because I know I worked on it for 18 months to 2 years before 
it ever went to trial.
    Mr. Dubester. Okay. It turns out trial was postponed, but 
do you recall when you were first retained to--or, sorry, first 
engaged--or first entered your appearance, rather, that that 
was just a few weeks before the trial date that was presently 
set at that time?
    Mr. Amato. I don't have any recollection of that.
    Mr. Dubester. Okay. What was your fee arrangement with the 
Liljebergs?
    Mr. Amato [continuing]. Contingency fee, that I was to 
receive 8 percent of the gross recovery.
    Mr. Dubester. Do you remember what your personal 
contingency fee was?
    Mr. Amato. Eight percent.
    Mr. Dubester. And do you remember what Mr. Levenson's was?
    Mr. Amato. I thought it was something less than that, at 4 
percent or 5 percent. I don't know. I mean, I never have 
negotiated or had anything to do with how--who hired Mr. 
Levenson.
    Mr. Dubester. If your side had prevailed, would any fee 
that you received have been split with Mr. Creely?
    Mr. Amato. Of course.
    Mr. Dubester. Okay. By the way, were you like full 50/50 
partners----
    Mr. Amato. Yes.
    Mr. Dubester [continuing]. In both expenses and income, 
correct?
    Mr. Amato. Yes, and at the bank, too, when you sign the 
notes.
    Mr. Dubester. Okay. Now, understanding that there is a huge 
demand at the--in terms of what the sides are asking for, what 
did you realistically expect to be the range of what you could 
have hoped to have made if your client were successful in that 
case. What was that case worth to you?
    Mr. Amato. Probably somewhere between $500,000 and 
$800,000, but you also have to understand that I worked 2 solid 
years and took no other cases in order to prepare that case.
    Mr. Dubester. Okay. So that case was exceptionally 
important to you?
    Mr. Amato. Of course.
    Mr. Dubester. Now, do you recall that other side, Mr. Mole, 
filed a motion to recuse Judge Porteous after you and Mr. 
Levenson entered your appearance?
    Mr. Amato. I recall that there was a motion to recuse 
filed, yes.
    Mr. Dubester. Do you recall who prepared the response for 
the Liljebergs?
    Mr. Amato. I didn't. I don't know who prepared it. Usually, 
those are prepared by Ken Fonte.
    Mr. Dubester. Okay. And that is F-o-n-t-e, Mr. Fonte?
    Mr. Amato. Yes.
    Mr. Dubester. And do you recall that Mr. Levenson actually 
ended up signing that pleading?
    Mr. Amato. I don't know. I don't know who signed it. I 
don't think I did, but I--it could well have been----
    Mr. Dubester. As you sit here now, what do you recall the 
allegation that was made by Lifemark as part of its argument to 
seek the recusal of Judge Porteous?
    Mr. Amato. The friendship between myself and Mr. Levenson 
and Judge Porteous and that we had given him campaign 
contributions and that we had been--he might have alleged that 
we were law partners at one time. He also alleged that we had--
that they had a function called Justice For All, where all the 
judges in Jefferson Parish got together and had one mass 
campaign fund, raising campaign funds for elections.
    Mr. Dubester. I am going to cut you off. I understand--I 
don't think we need to go into detail with that particular 
aspect of the allegation. You have described generally what the 
substance was.
    Now, was there actually a hearing in front of Judge 
Porteous where the Lifemarks--or Mr. Mole's motion to recuse 
was argued?
    Mr. Amato. I am sure there was.
    Mr. Dubester. Do you recall that?
    Mr. Amato. In 40 years of practicing law, I can't recall 
every court appearance I made. I probably was there.
    Mr. Dubester. Okay. Now, in connection with the motion to 
recuse, do you recall whether or not--and I guess--let me 
complete my thought here. Do you recall whether or not you made 
any disclosure to Mr. Mole that, while Judge Porteous was a 
state judge, you and your partner had given him tens of 
thousands of dollars?
    Mr. Amato. No.
    Mr. Dubester. And to your knowledge, did Judge Porteous 
make that disclosure?
    Mr. Amato. Not that I know of.
    Mr. Dubester. And wasn't that a material fact that would 
have been relevant to Joseph Mole and Lifemark?
    Mr. Amato. Yes.
    Mr. Dubester. And why is it that you did not make any such 
disclosure as part of the Liljeberg recusal litigation?
    Mr. Amato. Because I probably made the biggest mistake of 
my career.
    Mr. Dubester. And can you elaborate on that?
    Mr. Amato. That is why I am here.
    Mr. Dubester. Okay.
    Mr. Amato. If he would have recused himself, I would be in 
Gretna today practicing law.
    Mr. Dubester. So you don't dispute that that was important 
information which should have been disclosed, correct?
    Mr. Amato. At this time, no, I do not dispute that.
    Mr. Dubester. No, in terms of what your mindset was at the 
time, you were not about to make a disclosure like that because 
you knew it would be embarrassing for Judge Porteous, correct?
    Mr. Amato. Absolutely.
    Mr. Dubester. And you were not about to say anything or 
make any disclosure which would have embarrassed him and your--
as a judge on the Federal bench, correct?
    Mr. Amato. That is correct. And as my friend.
    Mr. Dubester. Did you consider the issue as to the 
disclosure of your financial relationship at the most basic 
level to be that of Judge Porteous.
    Mr. Amato. I am sorry. Would you give me that again?
    Mr. Dubester. Okay. You indicated you weren't going to make 
that disclosure, but in your mind, were you staying silent 
because you were going to follow the lead of Judge Porteous to 
see what he was willing to disclose or would disclose at the 
hearing?
    Mr. Amato. Yes.
    Mr. Dubester. Okay. Now, the trial was subsequently held in 
June or July 1997. Does that sound right to you?
    Mr. Amato. It seems like it lasted 2 months, 3 months.
    Mr. Dubester. Okay.
    Mr. Amato. I don't know if it was '97 or--I just don't 
recall.
    Mr. Dubester. Okay. Fair enough. After the trial, did you 
continue to take Judge Porteous to lunch on a regular basis?
    Mr. Amato. Judge Porteous and I have been eating lunch 
together for--since we have known each other, yes.
    Mr. Dubester. Okay. And some of them, for lack of a better 
phrase, involved you eating well at Ruth's Chris Steak House, 
the Beef Connection, Andrea's, Emeril's, and so forth, correct?
    Mr. Amato. Yes, we had a nice--we had a good time.
    Mr. Dubester. By the way, it was a non-jury trial that was 
held in the Liljeberg case. Is that right?
    Mr. Amato. Correct.
    Mr. Dubester. And the gap--the point in time I am talking 
about is after trial and before Judge Porteous rendered his 
verdict. So I am talking about roughly summer of 1997 to April 
of 2000, and that is the period that you have just testified 
that, as part of your whole life, you took him to restaurants 
that we have just mentioned, correct?
    Mr. Amato. Right.
    Mr. Dubester. And, oh, by the way, you have taken him to 
restaurants hundreds of times in your life, fair enough?
    Mr. Amato. Yes.
    Mr. Dubester. And how many times has he paid?
    Mr. Amato. I know he is--I know I have gone to lunch where 
I didn't pay, but I do recall him buying lunch at least on one 
occasion.
    Mr. Dubester. Okay. Now, at some point--and it has been 
identified at least by another witness as being in 1999--do you 
recall being asked to make a contribution to Judge Porteous's 
son's externship, some sort of educational activity in 
Washington, D.C.?
    Mr. Amato. Yes.
    Mr. Dubester. What do you recall about that?
    Mr. Amato. I recall that some sort of--and I don't know the 
information got to me, but that one of his children were coming 
to Washington to extern, I think, for Senator Breaux, and they 
were looking for contributions to defray the cost.
    Mr. Dubester. And did you give a couple hundred dollars, do 
you think?
    Mr. Amato. Yes. Yes, I did.
    Mr. Dubester. Would that have--would that request have come 
from Judge Porteous or from--or his secretary, Rhonda, if you 
recall?
    Mr. Amato. Not from Judge Porteous. I don't know who it 
came from. Not from Rhonda, but----
    Mr. Dubester. Okay. Now, on June 29th of 1999, did you go 
on a fishing trip?
    Mr. Amato. Yes.
    Mr. Dubester. And you reviewed your calendar in connection 
with your deposition, and you recall that your calendar 
reflects that fishing trip to have been on the day I just 
mentioned, correct?
    Mr. Amato. Yes, I am pretty sure that is the date, yes.
    Mr. Dubester. Okay. And describe the fishing trip and 
describe what happened on that trip.
    Mr. Amato. It was a weekday, and a friend of mine has a 
fairly large boat, and we were going to Caminada Pass, which is 
the pass at Grand Isle, and at certain times of the year, the 
fish run between the Gulf of Mexico and the marsh. And the fish 
just at night, they bubble up. They come to the surface, and it 
is a free-for-all.
    So we went fishing that night. Judge Porteous was drinking. 
We were standing on the front of the boat, the two of us, and 
he was--I don't know how to put it. He was really upset. He 
was--had a few drinks. He said, ``My son's wedding was more 
than I anticipated. The girl's family can't afford it. I 
invited too many guests.'' Would I lend him, give him, provide 
him, however you want to call it, something, like $2,500, to 
pay for part of the wedding or the after-rehearsal party of 
something?
    And I felt compelled, based upon, one, his condition and 
our friendship that--that is what I would do.
    Mr. Dubester. And did--and did you do that?
    Mr. Amato. Yes.
    Mr. Dubester. Basically, he was saying he couldn't meet his 
financial condition and he was coming to you.
    Mr. Amato. Well, I wouldn't imagine he would come to me 
unless he couldn't meet--if he could meet his financial 
obligations, he wouldn't have come to me.
    Mr. Dubester. Was that a surprise, that event?
    Mr. Amato. The first time he ever asked me for money, the 
last time he ever asked me for money, the last time we ever--
the only time we ever discussed money, and that is the reason I 
was able to remember it.
    Mr. Dubester. Okay.
    Mr. Amato. Because never was our relationship one where we 
talked about, ``Give me this, and I will do that.''
    Mr. Dubester. Did you, in fact--what--sorry, what, if 
anything, did you do as a result of that conversation?
    Mr. Amato. At some point within the next few days, a week, 
you know, I got him $2,000 or $2,500. I don't recall how--did I 
pick--did I pick him up and go to lunch and we--I gave him the 
money? Or Rhonda came, Rhonda Danos, his secretary came and 
picked it up? I just don't know.
    Mr. Dubester. And was that half your money and half 
Creely's money?
    Mr. Amato. I can't tell. I had some cash at my house, and I 
think I used the cash at my house.
    Mr. Dubester. Because Creely recalls that--sorry, Bob 
Creely--Mr. Creely recalls that he paid half of that. That is 
not inconsistent with your memory either, is it?
    Mr. Amato. If he said he paid half?
    Mr. Dubester. Yes.
    Mr. Amato. Then he paid half.
    Mr. Dubester. And just one more--one more question here. In 
the fall of 1999, do you recall paying for a 5-year party--or a 
party to celebrate Judge Porteous's 5 years on the bench?
    Mr. Amato. Yes, I do.
    Mr. Dubester. Roughly how much was that?
    Mr. Amato. I think it was $1,700.
    Mr. Dubester. And where was that, if you recall?
    Mr. Amato. French Quarter in French Quarter Restaurant and 
Bar on Decatur, right across from the Morning Call.
    Mr. Dubester. That concludes my questions. Thank you, Mr. 
Amato.
    Mr. Amato. Thank you, Mr. Dubester.
    Mr. Schiff. Mr. Amato, I am going to ask you a few 
questions, and then my colleagues are, and then Mr. Westling 
and counsel for Judge Porteous will have a chance to ask you a 
few questions.
    I wanted to pick off--pick up where my colleague left off. 
You started to say when you were asked for cash--or asked for 
money by Judge Porteous on this fishing trip that you felt 
compelled to give it to him. And you said, number one, he was 
in need and he was my friend.
    Mr. Amato. Right.
    Mr. Schiff. Was there a number two, Mr. Amato? Was there 
another reason you felt compelled to give him money?
    Mr. Amato. I felt sorry for him. I really did. You know, it 
is tough to see somebody, you know, almost to the point of 
tears, you know, to do something for his children, which I 
suspected was the reason for the emotional outlay he had.
    Mr. Schiff. What affect would it have had on your 
relationship with Judge Porteous if you had said no, if you had 
said, ``You are presiding over a case that is under submission, 
and I can't give you cash''? What would have been the impact on 
your relationship?
    Mr. Amato. Probably none. It would remain the same.
    Mr. Schiff. Did you have any concern about the fact that 
you had litigation pending in his courtroom?
    Mr. Amato. I do now. At the time, I didn't give it much 
thought.
    Mr. Schiff. When the recusal motion was brought, Judge 
Porteous made a number of statements in court I would like to 
ask you about. At one point during the hearing on a motion to 
recuse, he said, ``The first time I ran, 1984, I think is the 
only time when they gave me money.'' Was that a truthful 
statement?
    Mr. Amato. I don't recall the statement, but I don't know 
the context. I think the context might have been--that was when 
the first time he ran and the first time he collected money for 
campaign contributions. I--that is the best I can do.
    Mr. Schiff. If Judge Porteous represented at the hearing 
that the only time he had gotten money from you or Mr. Levenson 
was in 1984, would that have been a truthful statement?
    Mr. Amato. In 1994?
    Mr. Schiff. If, during the recusal hearing----
    Mr. Amato. Oh, okay. I am sorry.
    Mr. Schiff.--Judge--if Judge Porteous represented at the 
recusal hearing that the only time he had gotten money from you 
or Mr. Levenson was in 1984, would that have been a truthful 
statement?
    Mr. Amato. No, that wouldn't have been true.
    Mr. Schiff. Now, if it came up in the context of a 
discussion of whether he had received campaign contributions, 
would it have been misleading for him to say that he had not 
gotten money, except in 1984, and not disclose the fact he had 
been getting personal cash for years?
    Mr. Amato. Yes.
    Mr. Schiff. During the latter part of the recusal hearing, 
Judge Porteous said, ``You haven't offended me, but don't 
misstate.'' He is saying this to Mr. Mole, representing the 
other party, ``But don't misstate--don't come up with a 
document that clearly shows well in excess of $6,700 with some 
innuendo, that that means that they gave that money to me. If 
you would have checked your homework, you would have found that 
that was a Justice for All program for all judges in Jefferson 
Parish. But go ahead. I don't dispute that I received funding 
from lawyers.''
    In light of the fact that he had been receiving thousands 
of dollars from you, wasn't that a misleading statement?
    Mr. Amato. Probably, because I--again, Mr. Schiff, I don't 
know if he was referring to the Justice for All collection or 
something different.
    Mr. Schiff. Well, if the judge was taking issue with the 
opposing counsel for suggesting that you had given him money 
that, in fact, went for a different program, at the same time 
had, in fact, received thousands of dollars from you, wouldn't 
it be misleading to the court not to reveal that?
    Mr. Amato. Yes.
    Mr. Schiff. And wouldn't it be misleading to the court to 
take issue with counsel for not doing their homework, when the 
court did not disclose that they had received thousands of 
dollars from you?
    Mr. Amato. Yes.
    Mr. Schiff. The judge also said during that hearing, ``I 
have always taken the position that if there was ever any 
question in my mind that this court should recuse itself, that 
I would notify counsel and give them the opportunity if they 
wanted to ask me to get off.'' Given the fact that he did not 
notify counsel and did not give them the opportunity to ask him 
to get off, wasn't that a misleading statement by the judge?
    Mr. Amato. Yes.
    Mr. Schiff. Mr. Amato, are you aware of any other attorneys 
other than yourself and Mr. Creely who gave cash or other 
things of value to Judge Porteous?
    Mr. Amato. Not firsthand, no.
    Mr. Schiff. Have you had other attorneys tell you that 
they--either they were asked for cash or they know of other 
parties who gave money to the judge?
    Mr. Amato. No.
    Mr. Schiff. In discussing the curatorships, a couple times 
you made reference--you said the judge would ask for some of 
that money, referring to the curatorship money. Was there ever 
any doubt in your mind that what the judge was asking for, once 
he started the curators, sending curators to your office, was 
part of the money for the curatorships back to him?
    Mr. Amato. Yes.
    Mr. Schiff. Yes there was a doubt or--my question is, was 
there ever any doubt in your mind that what he was asking for 
during the period he was sending you curatorships was part of 
the money he was sending you for the curatorships?
    Mr. Amato. No, no doubt.
    Mr. Schiff. And I think, when my colleague asked you about 
how often or when you gave money directly to Judge Porteous, 
you said you couldn't recall how often or when. Without asking 
you the specific dates or even number of times, do you recall 
that on several occasions you, in fact, gave cash to Judge 
Porteous?
    Mr. Amato. Yes.
    Mr. Schiff. And the amounts of cash that you would have 
given would have been anywhere from maybe less than $100 to 
several hundred dollars?
    Mr. Amato. Probably in the range of $500 to $1,500.
    Mr. Schiff. And then the only time you would have given him 
more than that was after the fishing trip?
    Mr. Amato. Right. Yes, sir. I am sorry.
    Mr. Schiff. Has Judge Porteous ever been to your house?
    Mr. Amato. Judge Porteous ever been to my house?
    Mr. Schiff. Yes.
    Mr. Amato. I think he has picked me up at my house. I don't 
think he has been in my house. He has been to my country house.
    Mr. Schiff. So he has been to your country house?
    Mr. Amato. Yes.
    Mr. Schiff. And how often has he been to your country 
house?
    Mr. Amato. A couple of times.
    Mr. Schiff. And how often would you say he picked you up at 
your other residence?
    Mr. Amato. Probably a couple of times.
    Mr. Schiff. And on what occasions would he have picked you 
up at your primary residence?
    Mr. Amato. When we were going fishing or hunting or 
something.
    Mr. Schiff. And when he came to your country residence, did 
he spend the night at your country residence?
    Mr. Amato. I think he did once.
    Mr. Schiff. Would those times when he picked you up or 
spent the night at the country residence, would that have taken 
place prior to the Liljeberg case or during the Liljeberg case?
    Mr. Amato. I don't know when he went to the place across 
the lake. I have had it for almost 20 years, and I don't know, 
you know, before or after, during. I can't answer that, sir.
    Mr. Schiff. Is there anything that would help refresh your 
recollection that we could provide you with, in terms of the 
dates, so you could determine when he would have come to your 
house?
    Mr. Amato. No, nothing.
    Mr. Schiff. You--in terms of the amounts of cash that you 
and Mr. Creely provided to the judge, you said you thought it 
was in the neighborhood of 10 to 20 thousand. Is that right?
    Mr. Amato. Yes.
    Mr. Schiff. And would that have been individually or 
between the two of you 10 to 20 thousand.
    Mr. Amato. I think it is between the two of us.
    Mr. Schiff. Now, do you know what--roughly about what 
percentage of the money that you got from the curatorships that 
went back to the judge? Was it most of the money, minus 
expenses? Was it all of the money? Was it only part of the 
money?
    Mr. Amato. It was part of the money. I think it--I don't 
know what percentage. I didn't have anything to do with it.
    Mr. Schiff. If--the records indicated that the amount of 
the curatorships over time approximated $40,000, would that 
indicate to you more accurately how much you think you would 
have given the judge over time between the two of you?
    Mr. Amato. I would think we would give him something less 
than $20,000.
    Mr. Schiff. So something less than half of the value of the 
curatorships?
    Mr. Amato. Yes, because we had to take out expenses and, 
you know--when you have got a curatorship, you put an ad in the 
paper, and that costs so much money, and all that was deducted 
out before we got to a net fee.
    Mr. Schiff. You mentioned, I think, that you didn't like 
having to make these payments. You weren't strong enough to say 
no----
    Mr. Amato. Right.
    Mr. Schiff [continuing]. And in part because you thought it 
would break up your partnership with Mr. Creely. Why do you 
feel it would have broken up the partnership?
    Mr. Amato. Because in order to put an end to it, I would 
probably have to report my partner to the bar association and 
the judge to the judiciary commission.
    Mr. Schiff. Can you explain that to me?
    Mr. Amato. Well, in Louisiana, if you know someone is 
violating the ethics rules, you are under an obligation to 
report it. So I would have had to report my partner. So, in 
turn, we would have had to report the judge.
    Mr. Schiff. So if you said no, you felt you would have had 
to have gone public with----
    Mr. Amato. Correct.
    Mr. Schiff [continuing]. With the nature of the payments?
    Mr. Amato. Uh-huh.
    Mr. Schiff. Is that a ``yes''?
    Mr. Amato. Yes.
    Mr. Schiff. When you received the curatorships, you 
reported that as income to the business.
    Mr. Amato. Absolutely.
    Mr. Schiff. And when you spend money to take out the 
advertisements, you deducted that as expenses.
    Mr. Amato. Correct.
    Mr. Schiff. Did you deduct the--or did you deduct as an 
expense the amount that you gave to the judge?
    Mr. Amato. No, we paid taxes on it.
    Mr. Schiff. You paid taxes on the curator income, right?
    Mr. Amato. On whatever our--the curator fee would have 
been, we would have paid taxes on it.
    Mr. Schiff. But you did not deduct as an expense the amount 
you had to pay back to the judge?
    Mr. Amato. No.
    Mr. Schiff. How were you brought into the Liljeberg case?
    Mr. Amato. I got a call from Ken Fonte that they had a--
that John Liljeberg and Bobby Liljeberg had a case in Federal 
court, and would I be interested in taking a look at the case 
to see if I would take over trying the case?
    Mr. Schiff. And why did Mr. Fonte bring you into the case? 
What were you bringing to the table?
    Mr. Amato. Well, I was bringing 35 years of experience. I 
was bringing trying similar cases. Up until my recent health 
problems, I was fairly vigorous at practicing law. And I 
thought I was a good lawyer.
    Now, what were their motives? I don't know. But I know that 
the Liljebergs had a checkered history in Federal court that, 
no matter what they did, that they couldn't win a case. They 
couldn't hire a law firm.
    Mr. Schiff. Did you believe that at least part of the 
reason the Liljebergs may have wanted to bring you into the 
case was because your close friendship with the judge was well 
known?
    Mr. Amato. I am sure that came into the mix. I don't think 
it was the primary reason. But I think that came into their 
decision-making process.
    Mr. Schiff. So having that relationship with the judge was 
a benefit to you and Mr. Creely, in the sense that it helped 
bring business like the Liljebergs?
    Mr. Amato. Yes. No question about that. It was----
    Mr. Schiff. That is all the questions I have.
    Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Amato. I am sorry. Excuse me.
    Mr. Goodlatte. That is all right. Mr. Amato, Mr. Creely 
testified that these payments were often made by each of you 
equally. Is that your recollection?
    Mr. Amato. Yes, sir.
    Mr. Goodlatte. And why was that? You say that you received 
these conservatorships, you made payments--you received 
payments for them, you deducted the expenses, you paid this 
separately as a cash item, you didn't write checks to the 
judge, you gave him cash, but you didn't consider that a part 
of the business arrangement. Why was that?
    Mr. Amato. Well, if he would have taken the money, all of 
the fee off the curators, he would have had to pay taxes at the 
end of the year, when it got to be, you know, you drew $60,000, 
and I drew $40,000----
    Mr. Goodlatte. No, I am talking about your payments to 
Judge Porteous. Why did you--the payments that you made, why 
didn't you include those as a part of your business expenses?
    Mr. Amato. We didn't.
    Mr. Goodlatte. I know. Why not?
    Mr. Amato. I couldn't answer that.
    Mr. Goodlatte. Wasn't it because, as you indicated earlier, 
that is a violation of Louisiana law to be paying the judge?
    Mr. Amato. Yes, that is probably correct.
    Mr. Goodlatte. And why would you have to wait until your 
partnership with Mr. Creely broke up before you would report 
that violation of Louisiana law regarding your and Mr. Creely's 
relationship with the judge?
    Mr. Amato. We didn't. We didn't report it.
    Mr. Goodlatte. I know you didn't report it, but you said 
you didn't want--you were worried that, if you didn't make the 
payments, you would have to break up your partnership. And if 
you broke up your partnership, you would have to report that 
relationship and those payments with the judge to some 
authorities, I presume. Why would you have to wait until your 
partnership broke up to do that? Why wouldn't you simply do 
that because it is a violation of the law in the arrangement 
that you were in?
    Mr. Amato. Because if it--whenever I would have done it, it 
would have broken up the partnership.
    Mr. Goodlatte. Well, now we are getting some circular 
reasoning here. If it were wrong to have made the payments and 
you would have to report it if your partnership broke up, why 
wouldn't it be wrong to make the payments and the right thing 
to do to report it while the partnership's ongoing?
    Mr. Amato. Because it is a relationship I had with Bob 
Creely that, by reporting it to the bar association, it would 
have broken the partnership.
    Mr. Goodlatte. So you knew that it was the wrong thing to 
make those payments to the judge at the time the payments were 
being made?
    Mr. Amato. Yes.
    Mr. Goodlatte. Now, when you were hired for the Liljeberg 
case, what type of a legal practice did you have back then?
    Mr. Amato. Well, there has been a lot of supposition as to 
what kind of legal practice I had. I started off----
    Mr. Goodlatte. Let me help you out a little bit. Mr. Creely 
said that, while he had handled some complex litigation similar 
to the Liljeberg case, you hadn't.
    Mr. Amato. Well, Mr. Creely was mistaken. He misspoke, 
because I had handled a number of cases, including Omnitech--
sorry, Dr. X v. Clorox. I handled Bergeron v. International 
Marine. I handled Call Center v. Acadian Marine. I handled the 
American Tugs v. Hypernia Bank. I have handled a number of 
cases. I handled foreign companies. I handled foreign banks.
    Mr. Goodlatte. Now, let me--you said earlier that, during 
the 2 years that you were working on the Liljeberg case, you 
didn't take any other cases. Is that what you continue to 
maintain?
    Mr. Amato. I didn't devote any time to acquiring business, 
because we were working on the Liljeberg case.
    Mr. Goodlatte. Well, and you had the Liljeberg case on an 8 
percent contingent fee----
    Mr. Amato. Right.
    Mr. Goodlatte [continuing]. For which you never recovered 
any fee. Is that correct?
    Mr. Amato. That is correct.
    Mr. Goodlatte. Because the case was reversed on appeal.
    Mr. Amato. Correct.
    Mr. Goodlatte. How did you live for those 2 years if you 
weren't taking any other business?
    Mr. Amato. Well, in a business, when you do contingency 
work, the cases I would be settling, let's say, next week, but 
cases that have been in my office for 2 or 3 years, and I also 
had other people in the office working on cases. And I had a 
partner who was generating an income at the same time.
    I mean, at one point in there, we were six or seven 
lawyers, so, you know, I was going to work every day working on 
the cases I had, and I was working on Liljeberg, but I wasn't, 
you know, spending a lot of time in acquiring new business 
during that time. I am not saying I didn't get any cases, but, 
you know, the acquisition of business slowed down because of 
the time I spent on the Liljeberg case.
    Mr. Goodlatte. Now, while the Liljeberg case was pending 
and Judge Porteous on the Federal bench was hearing the case, 
did Judge Porteous ever use any court employees, such as his 
secretary, to either pick up money from you or request money 
from you for private purposes?
    Mr. Amato. Rhonda called us on a couple of occasions for 
things like the----
    Mr. Goodlatte. This is Rhonda Danos, who is his secretary?
    Mr. Amato [continuing]. For the American Cancer Society, 
Brother Martin's High School, I don't know. I am sure there was 
other charities that she was involved in and that the judge was 
involved in. We were always buying tickets for something or 
another.
    Mr. Goodlatte. Did you write checks for those or did you 
pay cash for those?
    Mr. Amato. Checks.
    Mr. Goodlatte. You wrote checks?
    Mr. Amato. Obviously.
    Mr. Goodlatte. Because those would have been charitable 
contributions for which you could take a deduction. Is that not 
correct? What about cash?
    Mr. Amato. I don't know if she ever did or not. I really 
don't.
    Mr. Goodlatte. Mr. Creely testified that he provided $1,000 
in cash and you provided $1,000 in cash, which was put in an 
envelope, which Ms. Danos picked up from you.
    Mr. Amato. I don't recall it, but I am--I can't tell you 
that that didn't happen.
    Mr. Goodlatte. But you don't know for sure?
    Mr. Amato. I don't know for sure.
    Mr. Goodlatte. Were you--did Judge Porteous ever mention to 
you that gambling debts were why he needed his money, not his 
son's wedding or other things like that?
    Mr. Amato. No, he never did mention that he had the 
gambling problem to me.
    Mr. Goodlatte. Did you ever go gambling with him?
    Mr. Amato. Twice.
    Mr. Goodlatte. Can you tell us about those occasions? Did--
--
    Mr. Amato. I went to Las Vegas in the early 1980's with a 
number of other lawyers on a junket, and he was on the junket, 
and he--I saw him play blackjack. And if I am not mistaken, one 
day in the afternoon, we were to meet at Harrah's in New 
Orleans, and I don't know if we met or I saw him at the table 
or what, but that is the extent of it. I never spent any time 
gambling with Judge Porteous.
    Mr. Goodlatte. I think that is all the questions I have, 
Mr. Chairman.
    Mr. Amato. Thank you, sir.
    Mr. Schiff. I thank the gentleman.
    Mr. Cohen from Tennessee?
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Amato, you have had a pretty good career as a lawyer, 
have you not?
    Mr. Amato. I was very proud of my career, sir.
    Mr. Cohen. And successful, as well?
    Mr. Amato. I worked very hard, yes.
    Mr. Cohen. Right. Where would you estimate, before this 
case came up in 1997, I guess--when did you get assigned or 
appointed to this Liljeberg case? Was that in 1997?
    Mr. Amato. I don't know the year. It has been so long.
    Mr. Cohen. Well, let's give an estimate of 1995-1996. What 
do you think your typical income was in a year like that?
    Mr. Amato. I really can't tell you, because my income 
varies year to year.
    Mr. Cohen. Yes, I know, but approximately. Were you making 
six figures?
    Mr. Amato. Yes.
    Mr. Cohen. Making $500,000?
    Mr. Amato. No.
    Mr. Cohen. Give me in the ballpark, on the typical year.
    Mr. Amato. A hundred and fifty, two.
    Mr. Cohen. Hundred and fifty. And in the 2 years that you 
had this--worked on this case, you didn't take any new 
business. You basically sacrificed what could have been work 
that would have developed into, give or take, $300,000, if you 
amortized over your career. You didn't take any new business. 
Is that--that is what your testimony----
    Mr. Amato. I did take new business. I did not solicit a lot 
of new business, because I was busy on the Liljebergs.
    Mr. Cohen. Earlier--but first, you said you didn't take 
any. You spent the whole 2 years working on this case. So that 
was not accurate.
    Mr. Amato. That is what it seemed like I did for 2 years, 
was work on the case.
    Mr. Cohen. Okay. You didn't take much new business. Most--
basically, you worked on the case?
    Mr. Amato. That is a much fairer statement.
    Mr. Cohen. And you were totally on a contingency fee?
    Mr. Amato. Correct.
    Mr. Cohen. You must have been pretty positive you were 
going to win this case, to sacrifice the equivalent of 
$300,000?
    Mr. Amato. When I took that case, I was convinced that the 
facts were in my favor, the law was in our favor, that the 
damages were there----
    Mr. Cohen. Yes, and what else was in your favor?
    Mr. Amato. That the judge was not unfriendly to us.
    Mr. Cohen. Not unfriendly?
    Mr. Amato. Not unfriendly. And----
    Mr. Cohen. So you had a pretty good expectancy you were 
going to win and you were going to collect $500,000 to $1 
million?
    Mr. Amato. I have never taken a case without the 
expectation of winning it. If I would have thought I wouldn't 
be able to win it no matter who the judge would have been, I 
wouldn't have taken the case at all.
    Mr. Cohen. All right. I practiced some law, but I haven't 
done a whole lot of trial work.
    Mr. Amato. Yes.
    Mr. Cohen. In my knowledge, mostly contingency cases are 
plaintiffs work. How often does a defendant work on a 
contingency?
    Mr. Amato. My client wasn't a defendant.
    Mr. Cohen. He wasn't?
    Mr. Amato. No, he was a plaintiff.
    Mr. Cohen. He was the plaintiff. Okay. Okay. I was given 
some false information, incorrect information. So he was--he 
had a plaintiff's case, and you just kind of worked on that and 
hoped you would collect.
    Did you have any idea what the--when the judge came to you 
and was complaining he didn't have any money to pay for his 
son's bachelor party or wedding or whatever it was, did you 
have any idea what a judge's salary was?
    Mr. Amato. I knew it was in the hundreds--hundred and 
something thousand dollar range.
    Mr. Cohen. Right. And that comes to more than a couple of 
thousand dollars a month. So what you gave him was--I mean, a 
week. I mean, so what you gave him was a week's salary at--on 
the low end. Did you ask him if he was having a problem, why he 
couldn't afford a week's salary?
    Mr. Amato. No, just gave it to him.
    Mr. Cohen. You have got lots of friends, don't you?
    Mr. Amato. I did, yes.
    Mr. Cohen. Yes. And how many of these other friends did you 
give money to like that?
    Mr. Amato. I couldn't tell you, sir.
    Mr. Cohen. Well, tell me two or three of them and how much 
you gave them.
    Mr. Amato. I have lent money to my clients over----
    Mr. Cohen. Lent?
    Mr. Amato. Just lent.
    Mr. Cohen. You gave money to the judge.
    Mr. Amato. Yes.
    Mr. Cohen. How many people did you give money to?
    Mr. Amato. Couldn't tell you. I couldn't tell you.
    Mr. Cohen. Because there weren't any, were there?
    Mr. Amato. There was some, but none to the extent that 
Judge Porteous.
    Mr. Cohen. And was it because you liked Judge Porteous that 
much more? Was it because you felt so much more sorry for him? 
Or was it because he was a judge with a $500,000 to $1 million 
judgment in your future?
    Mr. Amato. Probably a combination of all three.
    Mr. Cohen. And if you had to kind of do a weighted verdict, 
what percentage would you give the judgment you were looking 
toward?
    Mr. Amato. I would give having the judge being not 
unfriendly, 10 percent.
    Mr. Cohen. Ten percent?
    Mr. Amato. Yes.
    Mr. Cohen. And the other 90 percent was you felt sorry for 
him? I am talking about the idea of why you gave him this money 
and you didn't give other people money. And you said there were 
three reasons, and one of them is you felt sorry for him, and 
one of them, he was your friend, and the other was he had this 
case before him which meant a lot to your financial future.
    Now, sometimes in damages, you can apportion damages, and 
you can give a certain percentage on each one that everybody 
takes a portion percentage--their negligence, in comparative 
negligence. What comparative part of that factor would you 
allocate to the judge's being the determiner of your financial 
fate?
    Mr. Amato. Well, he was----
    Mr. Cohen. Seventy percent, eighty percent?
    Mr. Amato. Probably, yes.
    Mr. Cohen. I think the facts speak for themselves. This 
sounds like the--that the situation down there in this case 
where you have got--what are these things called, these cases 
you have got, the--where you have got these appointments?
    Mr. Amato. Curatorships.
    Mr. Cohen. Curatorships. Is this the judicial deduct box?
    Mr. Amato. I don't think so.
    Mr. Cohen. Sounds like it.
    Time.
    Mr. Schiff. The gentleman yields back.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Thank you, Mr. Chairman. I just have a 
few questions.
    After the trial was concluded and while a decision was 
pending, did Judge Porteous ever solicit a cash contribution 
from you?
    Mr. Amato. No.
    Mr. Sensenbrenner. Okay. Were any payments made by you to 
Judge Porteous between the time the trial was concluded and 
before the decision was rendered?
    Mr. Amato. None other than the one I discussed of June 
1999.
    Mr. Sensenbrenner. Okay. And----
    Mr. Amato. His son's wedding.
    Mr. Sensenbrenner. Okay. So--and this was in the amount of 
approximately $2,000 for his wedding?
    Mr. Amato. Yes.
    Mr. Sensenbrenner. Were there any other solicitations 
related to the wedding or a bachelor party during this period?
    Mr. Amato. Not that--not from me. Not--no.
    Mr. Sensenbrenner. Okay. Do you have knowledge of any other 
solicitations that were made?
    Mr. Amato. No.
    Mr. Sensenbrenner. Okay. Thank you.
    Mr. Schiff. The gentleman yields back.
    Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    Let me ask this question. You are familiar with this 
kickback scheme involving the curatorships, correct?
    Mr. Amato. Correct. Yes, sir.
    Mr. Johnson. And the kickback scheme involved the judge 
forwarding--unsolicitedly forwarding to your firm the 
curatorships in return for you paying the judge the monies that 
your firm received for the--for the curatorships. Is that 
correct?
    Mr. Amato. Part of the money, yes. Part of the money, yes, 
sir.
    Mr. Johnson. Part of it is yes?
    Mr. Amato. Part of--part of the fee, not the whole amount, 
part of the fee.
    Mr. Johnson. Okay. But you never solicited these 
curatorships?
    Mr. Amato. No. I don't think I ever got one from him. I am 
not sure, but I don't think I even got a curator case from 
Judge Porteous.
    Mr. Johnson. So you--you were not a part of the--of the 
scheme for the curatorships?
    Mr. Amato. I never talked to Judge Porteous about curator 
cases at all, never once the whole time. I never talked to him 
about curator cases.
    Mr. Johnson. Okay. You did talk with your partner, though, 
about it, Mr. Creely?
    Mr. Amato. Correct. Correct.
    Mr. Johnson. And that was during the time that--that was 
during the time that--that this--these curatorships were coming 
in to the office? Is that correct?
    Mr. Amato. At some point in time, I think that the 
curatorships were coming in--after they started coming in, Bob 
came to me and said, ``Porteous wants some of the money from 
the curator cases.'' That is what I recall.
    Mr. Johnson. So do you agree that that was a kickback 
scheme?
    Mr. Amato. I don't know what the legal definition with that 
would be.
    Mr. Johnson. Well, just--not a legal definition, but a--
just a common knowledge definition. How did that scheme differ 
from a kickback scheme?
    Mr. Amato. It probably didn't.
    Mr. Johnson. It probably did not? All righty.
    And, listen, I see that you are--came to court today in--
with a wheelchair.
    Mr. Amato. Yes, sir.
    Mr. Johnson. Are you still practicing law right now?
    Mr. Amato. Not very much. I am trying to get to Medicare. I 
hope you all pay us some health legislation.
    Mr. Johnson. Well, I like that. I like that. I voted for 
that myself, as a matter of fact. Bingo.
    Mr. Amato. I must have hit a----
    Mr. Johnson. Bingo. No further questions. No, I am just 
kidding. I am just kidding. So is Mr. Creely still your 
partner?
    Mr. Amato. No, he is not my partner. I don't know what he 
is--I know he is practicing law, but that is--it is----
    Mr. Johnson. At any time after Judge Porteous was confirmed 
as a U.S. district court judge, at any time thereafter, did you 
provide any cash payments to him?
    Mr. Amato. I am sure I did. I just don't--I--I know we paid 
for, you know, a couple of things. I know we paid for his son 
being, you know, a part of the--his son being part of the--an 
externship, part for his anniversary party. You know, that is 
all I can recall.
    Mr. Johnson. Now, this--have you been the subject of a bar 
complaint regarding your relationship----
    Mr. Amato. It is my appreciation that that is confidential.
    Mr. Johnson. Well, I am not asking you for the ruling on 
it, but you have been the subject--is that case--what posture 
is that case in now?
    Mr. Amato. Not comfortable.
    Mr. Johnson. Well, I am sure. I am sure not. But is it--has 
the case already been disposed of?
    Mr. Amato. No.
    Mr. Johnson. So it is pending?
    Mr. Amato. Yes.
    Mr. Johnson. When was the complaint filed?
    Mr. Amato. I----
    Mr. Johnson. The bar complaint.
    Mr. Amato. It has been at least a year.
    Mr. Johnson. Any--have you filed a responsive pleading?
    Mr. Amato. I am being represented, and I am sure they are 
doing whatever they need to do.
    Mr. Johnson. Okay. But--is--are you accused in the bar 
complaint of a disbarrable offense?
    Mr. Amato. The Louisiana State Bar can disbar you for just 
about anything.
    Mr. Johnson. Well, now, let me ask you this question. Did 
Judge Porteous--I think you said he paid for one lunch.
    Mr. Amato. Yes.
    Mr. Johnson. How many times did you all go to lunch 
together and you picked up the tab?
    Mr. Amato. Hundreds.
    Mr. Johnson. When he picked up the tab, was that only for 
himself or was that for he and you?
    Mr. Amato. Both of us.
    Mr. Johnson. And did you--you have had some discussions 
with Judge Porteous about the Liljeberg recusal motion, have 
you not?
    Mr. Amato. No.
    Mr. Johnson. You have never discussed that case?
    Mr. Amato. No. I never discussed the recusal motion with 
him.
    Mr. Johnson. But you have discussed the case?
    Mr. Amato. I have--I asked him, after the case was tried, 
when could--you know, how was the judgment coming? And he told 
me that he didn't have a law clerk who could spend enough time 
to render a decision. Also, at some point, he told me that you 
better prove your case, because the fifth circuit will take it 
away if you don't. And that is--I thought I proved my case, and 
the fifth circuit took the case away, took the judgment away.
    Mr. Johnson. Did you take the case--ask for an en banc 
hearing or oral arguments, anything like that?
    Mr. Amato. I didn't handle the appeals, but I think they 
went all the way to reach the United States Supreme Court.
    Mr. Johnson. You--the judge never paid you back any of the 
money that you gave him, cash money?
    Mr. Amato. No. No, he has never paid me back.
    Mr. Johnson. So out of the approximately $10,000 that you 
say you gave Judge Porteous, would about half of that been 
before he become a Federal court judge?
    Mr. Amato. I think most of it was before he became a 
Federal judge.
    Mr. Johnson. But there were--there was some. Approximately 
how much would you say?
    Mr. Amato. Well, the only thing I can tell you for sure was 
that the money for his son's wedding.
    Mr. Johnson. Did you go to Las Vegas with him to gamble?
    Mr. Amato. I did not.
    Mr. Johnson. Did you have any input in the preparation of 
the responsive pleadings to the motion to recuse in the 
Liljeberg case?
    Mr. Amato. No, I did not.
    Mr. Johnson. What was your role during that--that part of 
the case?
    Mr. Amato. The recusal?
    Mr. Johnson. Yes. Because you were attorney of record on 
the case, correct?
    Mr. Amato. Sat in the courtroom and kept my mouth shut.
    Mr. Johnson. And you were attorney of record, as well?
    Mr. Amato. I was one of the attorneys of record. There was 
five attorneys of record----
    Mr. Johnson. But you weren't the lead attorney?
    Mr. Amato [continuing]. And a sixth attorney assistant.
    Mr. Johnson. This is the case that you were going to take 
an 8 percent contingent fee out of?
    Mr. Amato. Yes.
    Mr. Johnson. What kind of case was that, by the way?
    Mr. Amato. It was with Lifemark and Tenet Healthcare stole 
my client's hospital and tried to put him out of business.
    Mr. Johnson. All right, so a business tort?
    Mr. Amato. It was a business tort that went on for years 
and that was very convoluted and very difficult. And----
    Mr. Johnson. Well, let me ask you this question, sir. Your 
physical disability that you have that requires you to be in a 
wheelchair, is that because you--does this condition cause you 
to be unable to walk?
    Mr. Amato. I can walk a certain distance, but I can't walk 
more than a block without aid. I do very little walking. I 
haven't traveled in 10 years on a plane. And I was lucky enough 
that the hotel rented wheelchairs, because I would have never 
made here without it.
    Mr. Johnson. Well, what is the reason for the wheelchair 
today?
    Mr. Amato. Because I have a degenerative disc disease. I 
have had--my bottom of my spine is fused. I have cervical 
stenosis. I have lumbar stenosis. I have neuropathy in my hands 
and my feet. I have had two aortic aneurysm surgeries in the 
past year.
    Mr. Johnson. Okay. I got----
    Mr. Amato. I have cancer.
    Mr. Johnson. I got the--got the gist of it. You are not in 
good health at this time?
    Mr. Amato. Well, it depends on what doctor I go to.
    Mr. Johnson. Well, let me ask you, did you ever provide the 
judge or facilitate the judge's acquisition or use of any 
tangible item, be it a car, boat, airplane, any kind of service 
during the period in question?
    Mr. Amato. He went fishing with us. I don't----
    Mr. Johnson. Well, did--but did you facilitate his 
acquisition of a boat?
    Mr. Amato. No, no. No, no.
    Mr. Johnson. Or house?
    Mr. Amato. No.
    Mr. Johnson. Or any other tangible item?
    Mr. Amato. No.
    Mr. Johnson. Did you make any gifts yourself to Judge 
Porteous's family members or other relatives?
    Mr. Amato. Wedding presents. Wedding presents.
    Mr. Johnson. Wedding presents for the son?
    Mr. Amato. His children, yes.
    Mr. Johnson. What was that present, by the way? Or what 
were the presents?
    Mr. Amato. I think we gave them cash.
    Mr. Johnson. Gave the son cash?
    Mr. Amato. The son cash for the wedding present.
    Mr. Johnson. How much was that, you think?
    Mr. Amato. I think it was about $250.
    Mr. Johnson. Did you--you did make payments to Judge 
Porteous prior to the Liljeberg trial while you were signed on 
to the case as an attorney for the plaintiff? Is that correct?
    Mr. Amato. I don't understand the question. I am sorry.
    Mr. Johnson. After you signed onto the Liljeberg case----
    Mr. Amato. Okay.
    Mr. Johnson [continuing]. Had you--after you signed up for 
that case, did you give the judge any money?
    Mr. Amato. Other than the money for the son's wedding, I 
don't think so. I don't recall any.
    Mr. Johnson. And you gave that money for the son's wedding 
to the son?
    Mr. Amato. To the judge.
    Mr. Johnson. To the judge?
    Mr. Amato. Yes.
    Mr. Johnson. And that was cash money?
    Mr. Amato. Yes.
    Mr. Johnson. Did he ask you for that?
    Mr. Amato. Yes.
    Mr. Johnson. He asked you specifically for $250 for his 
son?
    Mr. Amato. No. No.
    Mr. Johnson. Well, what did he ask you?
    Mr. Amato. He asked me to help pay for his son's wedding.
    Mr. Johnson. Was there any suggestion from him how much to 
pay?
    Mr. Amato. I want to say he told me that he was short 
$2,500 on--for the wedding, that his portion was $2,500 that he 
didn't have.
    Mr. Johnson. And the wedding was in 1999?
    Mr. Amato. Over 10 years ago, 1999.
    Mr. Johnson. I have no further questions at this time.
    Mr. Schiff. The gentleman yields back.
    Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Now, Mr. Amato, looking at the report and recommendation of 
the Judicial Conference Committee on Judicial Conduct and 
Disability, their findings--page 22--contains this statement: 
``Much of the available evidence concerns Judge Porteous's 
solicitation and receipt of cash payments from a law firm, 
Amato v. Creely, with business before him as a Federal judge. 
This was a continuation of a relationship begun when Judge 
Porteous was a state court judge. While he was a state court 
judge, the law firm had indicated to Judge Porteous that it was 
unhappy with having to bear expenses or repeated payments to 
him.''
    ``In response, Judge Porteous frequently appointed the 
court to curatorship proceedings and at Judge Porteous's 
suggestion, received in return a portion of the fees paid.''
    Do you have any--do you accept those facts as contained in 
this statement of facts in the report and recommendation of the 
Judicial Conference.
    Mr. Amato. I don't have any way to dispute it, no. That 
apparently is what happened between Judge Porteous and----
    Mr. Lungren. And your law firm?
    Mr. Amato. Yes.
    Mr. Lungren. It says further, on page 23, ``Judge Porteous 
and his benefactors used methods of payments that left no paper 
trail. The gifts described above were always either in cash or 
direct payments of expenses to vendors. No checks to Judge 
Porteous were used.''
    Is that the facts, as far as you are concerned?
    Mr. Amato. I don't know of any vendors that we paid 
anything to, but we never did give him any checks.
    Mr. Lungren. Why? Why was it in cash? What was your purpose 
in making sure that they were cash payments?
    Mr. Amato. I presume that the----
    Mr. Lungren. No, I don't want a presumption. This is why 
you did this or you in concert with your partner did this. Why 
did you give him cash?
    Mr. Amato. Because we made a bad mistake.
    Mr. Lungren. Well, I mean, I know you made a bad mistake, 
but why would you give him cash? Why would you not give him a 
check in accordance with your usual procedure, running your law 
firm?
    Mr. Amato. I have no further answer I can give, sir. I 
mean, we just did it that way.
    Mr. Lungren. Was it part of the deceit?
    Mr. Amato. Yes.
    Mr. Lungren. All right. Now, interestingly enough, they say 
further that Judge Porteous's financial disclosure form 
contains no record of these benefits. Had they been disclosed--
that is, the benefits--opposing parties could have sought 
recusal and, were it denied, could have sought appellate 
relief. And the controlling authority is a case called 
Liljeberg v. Health Services Acquisition Corp. from 1988. Is 
that the same client that you had in Liljeberg?
    Mr. Amato. Yes.
    Mr. Lungren. And in that case, the finding was a vacation 
of judgment where a district judge failed to disclose he was a 
trustee of a university that had substantial business dealings 
with the litigant before his court. Were you aware of that 
finding or that ruling at the time?
    Mr. Amato. I am aware of that ruling, yes.
    Mr. Lungren. So a controlling authority on--in terms of 
recusal not only was known to you, but actually, it involved a 
case with the--the same person, the same entity that hired you 
for your work. Is that correct?
    Mr. Amato. Correct.
    Mr. Lungren. Now, you said earlier about why they hired 
you. You said that it was for your experience and so forth. And 
according to the findings of the Judicial Conference Committee 
on Judicial Conduct and Disability, you were brought in 39 
months after the case was originally filed and just 2 months 
before it was to go to trial before Judge Porteous. Is that 
correct?
    Mr. Amato. I presume it is. I don't--I don't recall it that 
way, but I have no reason to doubt that that is----
    Mr. Lungren. And you still stand on your statement that 
they were hiring you because of your experience in Federal 
court?
    Mr. Amato. I think they were hiring me because I had a lot 
of trial experience. That is one of the reasons, yes.
    Mr. Lungren. And one of the statements you made was that 
you would not have taken this case unless you thought you could 
win, correct?
    Mr. Amato. Correct.
    Mr. Lungren. You are aware of the appellate court reversal 
of the decision by Judge Porteous?
    Mr. Amato. I think they were wrong.
    Mr. Lungren. You think they were wrong?
    Mr. Amato. Yes.
    Mr. Lungren. So when they said, ``The extraordinary duty 
the district court imposed upon Lifemark, who loaned money to 
build the hospital and held the mortgage on it to secure its 
payment, is inexplicable,'' you find that an erroneous decision 
by them or erroneous conclusion by them?
    Mr. Amato. Yes.
    Mr. Lungren. Where they say, ``The district court's finding 
of a conspiracy to wrest control of the hospital and medical 
office building from Liljeberg and the Liljeberg Enterprises 
border on the absurd,'' you disagree with that?
    Mr. Amato. Absolutely.
    Mr. Lungren. I see.
    And where the appellate court says, ``The district court in 
Liljeberg Enterprises offer no statutory or case law support 
law for this proposition, a conspiracy theory, for the simple 
reason that it is not the law,'' you disagree with them on 
that?
    Mr. Amato. I would have to read more of the decision, but, 
yes, I think the court of appeals was wrong. I still think the 
court of appeals was wrong.
    Mr. Lungren. And where they say, ``The idea that Lifemark 
deliberately subordinated its mortgage interest to Travelers, 
knowing it would result in a required payment, to wit, 
approximately $7.8 million, to Travelers at any judicial sale, 
comes close to being nonsensical,'' you find that wrong?
    Mr. Amato. Yes, because there was other litigation going on 
between Travelers and Jones Walker and--well, Lifemark was 
purchased by Tenet. That was going on almost simultaneous with 
this case, where all that was litigated.
    Mr. Lungren. And further on, when they talk about Lifemark 
as a mortgagee, did not have a duty to protect the hospital 
owner from other creditors asserting their rights against the 
hospital, as the district court held Lifemark did. And then 
further on, they said this is a chimera or ``chimera,'' 
existing nowhere in Louisiana law, it was apparently 
constructed out of whole cloth. You disagree with them on that?
    Mr. Amato. Yes, sir.
    Mr. Lungren. But they did hire you because of your 
knowledge of the law and your ability in Federal court?
    Mr. Amato. Yes.
    Mr. Lungren. Your law firm had a number of other--a number 
of other curatorships besides the ones sent to you by Judge 
Porteous--by the judge in this case, correct?
    Mr. Amato. I am sure we received other curator cases. I 
don't----
    Mr. Lungren. You are not aware whether you did or you 
didn't?
    Mr. Amato. No, I said I am sure we did receive other 
curator cases.
    Mr. Lungren. In any of those cases, did you--are you aware 
of the judge who sent them to your office requesting payments 
either in cash or by check?
    Mr. Amato. No.
    Mr. Lungren. So this is not a usual practice in New 
Orleans?
    Mr. Amato. No.
    Mr. Lungren. When, if ever, did your ethnical antennae go 
up and indicate to you that something was wrong here?
    Mr. Amato. I couldn't tell you when.
    Mr. Lungren. According to your testimony before the court 
proceedings with Chief Justice--Judge Jones, Judge Benevides 
asked you about the--the curatorships, and they asked you how 
much, and you said it was never an amount that was astonishing. 
It was always a couple thousand dollars.
    Judge Benevides, ``A couple thousand dollars sometimes 
every 6 months and sometimes every 3 or 4 weeks?'' ``Yeah, but, 
I mean, it wasn't a constant thing. It wasn't, you know, look, 
I expect a check every Thursday or Friday or 2 weeks or 
anything like that.''
    But it was repetitive, correct?
    Mr. Amato. Yes, sir.
    Mr. Lungren. And it took place over years?
    Mr. Amato. Yes, sir.
    Mr. Lungren. And as you say, it was always a couple 
thousand dollars? That was your testimony under oath before 
that panel.
    Mr. Amato. I think that is correct, yes.
    Mr. Lungren. We have had testimony about the draw that you 
or Mr. Creely made that is we believe $2,000, and Rhonda Danos 
came to pick it up. You do or do not recall that?
    Mr. Amato. I don't recall that specifically. I really 
don't, sir.
    Mr. Lungren. During the pendency of the Federal case, do 
you recall making payments of cash to the judge?
    Mr. Amato. The only one I recall was for his son's wedding.
    Mr. Lungren. Was that before, at the time that it was 
pending, or after the recusal motion?
    Mr. Amato. It was prior to the judgment being rendered, 
after the recusal motion and the trial.
    Mr. Lungren. It was following the decision, the recusal 
motion that you then gave him money in that specific instance?
    Mr. Amato. That is when his son got married, in June 1999, 
and I think the recusal motion was some years before that.
    Mr. Lungren. Thank you very much.
    Thank you, Chairman.
    Mr. Schiff. The gentleman yields back.
    At this point, Mr. Westling, if you have some questions, 
you may proceed.
    Mr. Westling. Thank you, Mr. Chairman.
    Mr. Amato, I will try to work through this quickly. I know 
you have been up here a long time.
    First, I think I just want to clarify: Your testimony has 
been clear that there was only a single time that Judge 
Porteous ever asked you for cash money, and that was in 
connection with his son's wedding. Is that correct?
    Mr. Amato. That is correct.
    Mr. Westling. So when you tell us about your knowledge 
about money and the curatorships, that was, in fact, something 
that you did not handle personally. Is that correct?
    Mr. Amato. That is correct.
    Mr. Westling. That was something Mr. Creely handled?
    Mr. Amato. Yes.
    Mr. Westling. And so, as a practical matter, you would say 
that he would recollect those facts better than you. Is that 
correct?
    Mr. Amato. Yes.
    Mr. Westling. Okay. Now, moving on to the period of time--
Judge Porteous became a Federal judge in 1994, as you are 
aware. He was confirmed on October 11, 1994. Does that sound 
about right to you?
    Mr. Amato. I have no way to dispute that.
    Mr. Westling. And it was some couple of years later that 
you were actually retained to get involved in the Liljeberg 
case, correct?
    Mr. Amato. Yes.
    Mr. Westling. All right. Now, Mr. Amato, you have talked 
some about your law practice. Were you typically a contingency 
lawyer?
    Mr. Amato. Yes.
    Mr. Westling. So you were a person that was engaged in a 
business of evaluating cases before you got involved in them in 
an attempt to determine whether you thought you could bring 
back a judgment. Is that a fair statement?
    Mr. Amato. Correct.
    Mr. Westling. And so, in this particular case, you made a 
comment about looking at the facts, looking at the records, and 
the work that you did in that regard. You also made a comment 
about a judge who was not unfriendly to you.
    Mr. Amato. Correct.
    Mr. Westling. And I want, from a plaintiff's lawyer's 
perspective, what does that mean?
    Mr. Amato. That means a judge who will listen to you and 
hopefully will rule correctly, as opposed to some, you know, 
agenda that the judge has that is pro-defendant, pro-plaintiff, 
pro-whatever.
    Mr. Westling. And so when you used the term ``not 
unfriendly,'' you didn't mean it was because it was Tom 
Porteous. You meant it was because it was a fair judge. Is that 
correct?
    Mr. Amato. Correct.
    Mr. Westling. Have you known throughout your career Judge 
Porteous to do the right thing?
    Mr. Amato. Always.
    Mr. Westling. Did you feel like your relationship ever made 
a difference when you were in his court, in terms of the way he 
would eventually rule?
    Mr. Amato. No.
    Mr. Westling. Now, you have talked about the recusal 
motion, and that was, I think, filed in October 1996. Does that 
sound about right?
    Mr. Amato. Yes.
    Mr. Westling. You were brought in about a month before 
that. Does that sound about right?
    Mr. Amato. I don't know when I was brought in.
    Mr. Westling. Do you also know that Mr. Mole was only in 
the case about 5 or 6 months before you were brought in?
    Mr. Amato. No, I didn't know that.
    Mr. Westling. So you have new counsel on both sides of this 
case and a recusal motion that has been filed. Is that a fair 
statement?
    Mr. Amato. Yes, that is apparently what happened.
    Mr. Westling. You were brought in by lawyers who were 
already working on the case, correct?
    Mr. Amato. Yes.
    Mr. Westling. And one of those lawyers was a gentleman by 
the name of Don Richard?
    Mr. Amato. Yes.
    Mr. Westling. And he remained involved in the case through 
the trial, correct?
    Mr. Amato. Don was basically lead, and I was second chair, 
and we did the bulk of the trial work and trial preparation.
    Mr. Westling. Now, you went through this very lengthy 
trial, and it was some 2 years later--well, I guess a year 
later that the case was tried, in 1997. Is that right?
    Mr. Amato. I don't--yes.
    Mr. Westling. Okay. Now, Mr. Amato, this was a contentious 
piece of litigation, fair statement?
    Mr. Amato. Absolutely.
    Mr. Westling. Have you ever seen a fight like this in any 
other case you have ever handled?
    Mr. Amato. Well, I have been in some pretty good fights, 
but this was a good fight. I mean, this was--this was, you 
know, blood and guts, up against the wall, no holds barred, you 
know, anything that they could do, they did.
    Mr. Westling. As a practical matter, this case had a 
lengthy history before you had gotten involved in it. Is that 
correct?
    Mr. Amato. Yes.
    Mr. Westling. And it had been a tactic used by both sides, 
the Liljebergs and by Tenet, to seek to disqualify judges in 
this case?
    Mr. Amato. I know that it happened on some occasions prior 
to my entering the case.
    Mr. Westling. Isn't it fair to say that Judge Porteous made 
very clear when the case got to him--and if you know this, you 
do, and if you don't, just tell me--that he was insistent that 
the case would not delay any longer, but it would get to trial 
and resolution?
    Mr. Amato. Yes.
    Mr. Westling. Okay. Now, you have also indicated that your 
sense of the facts was that the Liljebergs had been victims of 
Lifemark. Is that fair?
    Mr. Amato. Yes.
    Mr. Westling. And that, in fact, they had been victims 
because of a certain amount of dishonesty, thievery, whatever 
the right term is, by the other side. Is that correct?
    Mr. Amato. Those terms sound like Lifemark and Tenet.
    Mr. Westling. And so we are dealing here with a major 
national corporation. Is that correct?
    Mr. Amato. Yes.
    Mr. Westling. And it was basically Tenet Healthcare. Is 
that right?
    Mr. Amato. That is correct.
    Mr. Westling. And they are the same company that entered 
into a $900 million settlement for their falsehoods with the 
Federal Government within the last several years?
    Mr. Amato. Yes. And during the pendency of this suit, we 
filed a qui tam suit--or a qui tam complaint against Tenet for 
all of the Medicaid fraud that they committed at the hospital. 
And the U.S. attorney in New Orleans at the time, Eddie Jordan, 
decided that it wasn't worth pursuing.
    Mr. Westling. All right. Now, in this particular case, you 
have indicated that you felt confident that the result that 
Judge Porteous reached in issuing his more than 100-page 
opinion was correct. Is that right?
    Mr. Amato. Yes.
    Mr. Westling. When you went to the fifth circuit--I know 
you didn't handle the appeal--but lawyers went to the fifth 
circuit, there were issues that were critical that related to 
Louisiana law that were before the fifth circuit. Is that 
correct?
    Mr. Amato. Specifically to Louisiana law.
    Mr. Westling. And the three judges who sat on that panel 
are all Texas judges with no experience in Louisiana law. Is 
that fair?
    Mr. Amato. They were Texas judges. I don't know what 
Louisiana experience they have.
    Mr. Westling. Do you know whether they had ever taken or 
passed the Louisiana state bar examination?
    Mr. Amato. No, I wouldn't know that. I really wouldn't----
    Mr. Westling. And just so it is clear, for the benefit of 
those present, Louisiana has a different body of law when it 
comes to just about everything that relates to civil 
interaction, in terms of obligations, contract and the like. Is 
that fair?
    Mr. Amato. To some great extent, yes.
    Mr. Westling. Mr. Amato, did you ever give Tom Porteous any 
money because he was a judge?
    Mr. Amato. No.
    Mr. Westling. You gave it to him because he was your 
friend. Is that a fair statement?
    Mr. Amato. Correct.
    Mr. Westling. I have no further questions, Mr. Chairman.
    Mr. Schiff. Mr. Amato, we have a few follow-up questions 
for you. Let me pick up where counsel just left off.
    You stated in your testimony that there was never a doubt 
in your mind that, once the curatorships started, the money 
that the judge was asking for was coming out of the 
curatorships. Is that right?
    Mr. Amato. Yes.
    Mr. Schiff. Was that based on conversations you had with 
Mr. Creely?
    Mr. Amato. Yes.
    Mr. Schiff. Mr. Creely made it plain in those conversations 
that the judge was calling and he wanted the money from the 
curatorships?
    Mr. Amato. Yes.
    Mr. Schiff. And you remember that distinctly?
    Mr. Amato. We are talking 25 years ago. I mean, how--you 
know, I knew some discussion took place that--you know, that 
this was something that we would have to deal with.
    Mr. Schiff. Were you aware that the judge would call your 
office periodically to find out how many curatorships he had 
sent over there recently?
    Mr. Amato. No, I don't recall him calling. I recall Mr. 
Creely complaining about him calling, but I don't recall him 
calling.
    Mr. Schiff. And what were the nature of the complaints that 
Mr. Creely made?
    Mr. Amato. Calling about the curators. Tom is calling about 
the curators.
    Mr. Schiff. And why was he calling about the curators? What 
was the gist of it?
    Mr. Amato. I guess he needed money.
    Mr. Schiff. Was there any other purpose for him calling 
about the curators?
    Mr. Amato. Not that I know of.
    Mr. Schiff. He didn't get involved personally in finding 
out whether you took out advertisements on behalf of absent 
plaintiffs or parties, did he?
    Mr. Amato. I don't know what did. I doubt it.
    Mr. Schiff. You during the Liljeberg case had an attorney-
client relationship with Liljeberg, correct?
    Mr. Amato. Absolutely.
    Mr. Schiff. And that relationship continues to this day, in 
the sense that you are not--Liljeberg hasn't waived its right 
to demand your confidence, correct?
    Mr. Amato. That is correct.
    Mr. Schiff. And because of the relationship, you would not 
be in a position to come in to the hearing today and give us 
private information about weaknesses in Liljeberg's case, would 
you?
    Mr. Amato. I don't think so. I don't think I could be in 
the position, and I am not--I don't think I am in a position to 
violate the attorney-client privilege. And more so, I don't 
think I am in a position to discuss the Liljeberg case, because 
I hadn't looked at it.
    Mr. Schiff. What--and I want to make clear, we are not 
asking you to do either, but I do want to ask you whether you 
consider yourself still bound by your relationship with 
Liljeberg.
    Mr. Amato. Yes.
    Mr. Schiff. You mentioned in answer to Mr. Cohen's 
questions that there were several reasons why, when the judge 
hit you up for money during the fishing trip, that you gave it 
to him.
    Mr. Amato. Yes.
    Mr. Schiff. You mentioned it was part friendship. You 
mentioned it was part feeling sorry for him. And you mentioned 
it was part that he was a judge presiding over a major case 
that you had before him, correct?
    Mr. Amato. Yes.
    Mr. Schiff. And he asked you if you could quantify, well, 
how much of your motive in giving the money was related to each 
of those three things, right?
    Mr. Amato. I think we tried to get there, yes.
    Mr. Schiff. And if I understood you correctly, you said 
that 70 percent--70 percent to 80 percent of the reason you 
gave him the money was this was a judge presiding over this 
case you had, right?
    Mr. Amato. No, I thought it was the other way around. I 
thought it was 10 percent to 20 percent because it was a judge 
who was listening to the case as opposed to the friendship I 
have had with him for--ever since he got out of law school.
    Mr. Schiff. Well, I am glad, because I want to clarify 
this. So in your estimation, then, 70 percent to 80 percent was 
friendship and 10 percent to 20 percent was this is a judge 
presiding over a very important case to me?
    Mr. Amato. Yes.
    Mr. Schiff. You also mentioned, I believe in answer to Mr. 
Johnson's questions, you were asked about, wasn't this just a 
classic kickback scheme? I think he asked you, but again it was 
sort of a double negative, and I want to make sure we have it 
correct. This didn't differ, I think was his question, from a 
kickback scheme. Let me ask it in the affirmative: This was 
really a form of a kickback scheme, wasn't it?
    Mr. Amato. I really don't know how to answer that question, 
because there was never anything done as far as Tom sending 
curators, but you have got to do this for us on another case or 
you have got to let Joe Smith out of jail or anything like 
that. I think that would qualify as a kickback scheme. What 
this qualifies as, Lord only knows.
    Mr. Schiff. Mr. Amato, would you consider it a kickback 
scheme if someone sends you business, a curatorship, with 
expectation you will kick back some of that money to a person 
who sent you the case?
    Mr. Amato. It would fit into that definition.
    Mr. Schiff. So wasn't this a classic kickback arrangement?
    Mr. Amato. Yes.
    Mr. Schiff. On the fishing trip, you mentioned that the 
judge--well, actually, let me ask you. I don't know if it was 
on the fishing trip. You mentioned that, during the pendency of 
the Liljeberg case, you had a conversation--maybe more than one 
conversation--with the judge about the Liljeberg case. And you 
said something very interesting. You said that the judge told 
you, ``You'd better prove your facts, because otherwise the 
fifth circuit will take it away.'' Is that what the judge told 
you?
    So the judge didn't tell you, you needed to prove the facts 
to him. You needed to prove the facts, because otherwise the 
court of appeals would reverse, and that was his message to 
you.
    Mr. Amato. No, his message was, you had better have a good 
case and you had better give me enough evidence that will 
withstand an appeal. And I thought that we did that.
    Mr. Schiff. So he was telling you, you had better have 
enough evidence that I can rule in your favor, otherwise, if I 
do, I will be reversed?
    Mr. Amato. If I didn't, he would be reversed.
    Mr. Schiff. That was his----
    Mr. Amato. If I proved--listen, it is not hard to explain, 
but I thought we over-proved the case. We produced their 
executives to testify as to how they set up a scheme to defraud 
my client.
    Mr. Schiff. Mr. Amato, I want to ask you about your 
conversations with the judge. I appreciate your feeling about 
the merits of the case, but I just want to make sure that we 
have this accurately. What the judge told you was not that you 
had to prove the case for his benefit, that you needed to show 
the facts. Otherwise, the fifth circuit would reverse him. Is 
that the message he gave you?
    Mr. Amato. No. The message he gave me was, you are not 
getting a gift. You are going to try your case, and you are 
going to prove your case, and you are going to have to prove it 
to such an extent that the court of appeals is going to leave 
it alone.
    Mr. Schiff. Why would he mention the court of appeals? Why 
wouldn't he say, ``You are going to have to prove it to my 
satisfaction''?
    Mr. Amato. Because there is a history of the court of 
appeals that every case that the Liljebergs ever had did 
something to overturn the decision.
    Mr. Schiff. And when you asked him how is the judgment 
coming, this was at a time when it had been under submission 
for some time?
    Mr. Amato. Yes.
    Mr. Schiff. Was this on the fishing trip?
    Mr. Amato. No.
    Mr. Schiff. Was it before or after the fishing trip?
    Mr. Amato. I couldn't tell you. I really couldn't, Mr. 
Schiff. You know, you are talking stuff that happened 10, 15 
years ago. And I--sequentially, I cannot answer. I just don't 
know.
    Mr. Schiff. And when the judge told you that you needed to 
prove the case or the fifth circuit would take it away, was it 
just the two of you, or were there other people present?
    Mr. Amato. I don't know. I don't know. I don't know who was 
there.
    Mr. Schiff. Did you ever disclose to opposing counsel that 
you had had this ex parte communication about the case with the 
judge?
    Mr. Amato. I didn't think it was ex parte communication. We 
didn't discuss the issues. We didn't discuss facts. We didn't 
discuss witnesses. You know, it is probably like, you know, how 
are you going to vote on something? You don't have to give a 
reason. You can just--you know, I am going to vote Democrat 
this year or Republican this year. But you don't give a reason.
    Mr. Schiff. I don't think the relationship of an attorney 
representing a client before a judge is the same as how are you 
going to vote in an election. You didn't feel you had any 
obligation to disclose to opposing counsel that you were 
discussing the pendency of a matter with the judge without any 
others present?
    Mr. Amato. No, I didn't consider it a discussion of the 
facts of the case or the merits of the case.
    Mr. Schiff. When Mr. Lungren asked you about why you had 
paid in cash rather than wrote a check from the firm to the 
judge, wasn't this in large part, if not exclusively, because 
you didn't want a paper trail?
    Mr. Amato. No paper trail.
    Mr. Schiff. And, finally, you used the word unfriendly.
    Mr. Amato. I am sorry?
    Mr. Schiff. You used the word unfriendly, that you thought 
you had a good chance to prevail on the case because the judge 
was not unfriendly. Similarly, you mentioned that you thought 
maybe one of the reasons why you were brought into the case was 
because of the wide knowledge that you had a friendship with 
the judge. Part of that friendship was providing him with 
thousands of dollars, wasn't it?
    Mr. Amato. I think Tom and I would have been friends no 
matter what, but I am sure he appreciated our generosity or our 
friendship shown that way.
    Mr. Schiff. I have no further questions.
    Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Amato, to follow up on the question of the Chairman 
regarding your discussions with Judge Porteous about the 
Liljeberg case, did you ever have any discussions with him 
about the potential award in the case?
    Mr. Amato. No, never did.
    Mr. Goodlatte. Well, then how did he come to have a 
conversation with you in which you talked about having to prove 
your case, and you characterized his message to you--I am not 
saying these are his words--but you characterized his message 
to you as, ``You are not getting a gift.'' How did you come to 
have a conversation with him where he would send a message to 
you, ``You are not getting a gift. You have to prove your 
case''?
    Mr. Amato. Let me see if I understand the question. I think 
that the message he was trying to convey was that you--if you 
don't prove your case to a preponderance----
    Mr. Goodlatte. I know what his message was. When did it 
occur? How did it come about? How did you happen to be talking 
to him?
    Mr. Amato. I don't know if we were at lunch or we were 
drinking or what. But it came up that, you know, you had better 
prove your case.
    Mr. Goodlatte. Now, you said, ``you had better prove your 
case or the fifth circuit is going to take it away from you.'' 
What do you think he meant by ``it''?
    Mr. Amato. The judgment.
    Mr. Goodlatte. You had better prove your case, or the fifth 
circuit is going to take it away from you. How could he know 
that in advance? Wasn't he really saying he is going to--he is 
going to take it away from him, that he was giving you a 
judgment, but you had better have enough evidence to sustain it 
or they would take it away?
    Mr. Amato. I truly don't understand, other than the fact 
that he conveyed to me that----
    Mr. Goodlatte. Well, why wouldn't he say to you--let me 
characterize it a different way. Why wouldn't he say to you, 
``You had better prove your case or I am going to rule against 
you''? ``You had better prove your case or I am going to take 
it away from you''? Why would he say, ``You had better prove 
your case or the fifth circuit is going to take it away from 
you''?
    Mr. Amato. Probably because of knowing him as long as I 
have--I have practiced law with him. I tried cases with him. I 
tried cases against him. I tried cases before him. I know what 
he expects in a trial, in a case, and I think any good trial 
lawyer understands that. What a judge expects from a----
    Mr. Goodlatte. That is a good standard for a judge to have 
for himself. Why would he be setting the standard for the fifth 
circuit, rather than for himself?
    Mr. Amato. I don't know. I just don't know. I am just 
conveying what was related to me and----
    Mr. Goodlatte. Now, in response to Judge Porteous's 
counsel, you said--he asked you, did the judge have a 
reputation for doing the right thing? And you said, ``Always.''
    Mr. Amato. Yes.
    Mr. Goodlatte. Is that what you thought when you were 
worried about breaking up your partnership because you were 
engaged in a kickback scheme with the judge and he was sending 
curatorships over and you were getting this work or your 
partner was getting this work and you were--the two of you--
sending money from the law firm to the judge? Was he doing the 
right thing then?
    Mr. Amato. What I meant by that answer was that the 
relationship we had with him never, to my knowledge, ever 
affected how he ruled in any case.
    Mr. Goodlatte. But he nonetheless told you that he wouldn't 
take it away, but the fifth circuit would take it away if you 
didn't prove the case?
    Mr. Amato. He must have knew something about the fifth 
circuit that I didn't.
    Mr. Goodlatte. All right. Yes, and as a judge, he was 
making the decision about who got the curatorships. Is that not 
correct?
    Mr. Amato. On the state court, yes.
    Mr. Goodlatte. Right. But, I mean, he is saying that he had 
a different standard for himself on the state court than he had 
on the Federal court?
    Mr. Amato. I presume he did.
    Mr. Goodlatte. You are saying he did have a different 
standard?
    Mr. Amato. I am sorry?
    Mr. Goodlatte. He did have a different standard in the 
state court than he did in the Federal court?
    Mr. Amato. I hope so.
    Mr. Goodlatte. Well, why would you expect that?
    Mr. Amato. Because I know the man.
    Mr. Goodlatte. But you know that the man took legal 
proceedings, gave them to your law firm, with the expectation 
that your law firm would provide him with cold, hard cash that 
he could use for whatever purposes--it wasn't going to the 
court. It was going to his own benefit. And that would be what 
you knew about him before he moved to the Federal court.
    Now, on the Federal court, he says you had better prove 
your case not or I will overturn it or I will rule against you. 
He said you had better prove your case or the fifth circuit is 
going to take it away, as if to say, you had better make me 
look good with the evidence you produce when I rule in your 
favor, because otherwise you are not going to get very far, 
because the fifth circuit will take it away from you.
    Mr. Amato. I think what he is telling me was is, you had 
better make your case look good or not only will I not give you 
a judgment, but the fifth circuit wouldn't give you one.
    Mr. Goodlatte. Well, the fifth circuit would never get a 
shot at it unless he gave you a judgment, would it?
    Mr. Amato. Correct.
    Mr. Goodlatte. All right. Now, what was the overall 
contingent fee arrangement that the fellow who retained you in 
the Liljeberg case--what was the overall percentage that was 
going to be recovered if there were a judgment in favor of 
Liljeberg?
    Mr. Amato. I don't know. I don't know what any other 
lawyers' percentages were or who was getting what, who was 
getting paid by the hour, who was getting paid by--all I knew 
was, you know, was what my fee was going to be.
    Mr. Goodlatte. Your fee was 8 percent?
    Mr. Amato. Right.
    Mr. Goodlatte. And Mr. Levenson was also brought into the 
case?
    Mr. Amato. He got--and Lenny told me that he was going to 
get 4 percent.
    Mr. Goodlatte. Now, counsel for Judge Porteous indicated 
that, when you were brought in, which was in October--I am 
sorry, September 19th of 1996, both you and Mr. Levenson 
entered your appearances. At that time, the case had been 
pending for quite a long time and, in fact, had been assigned 
to Judge Porteous some 8 months before that, on January 16, 
1996. You came in, in September, while the case was set for 
trial the next month.
    And the counsel for Judge Porteous said that Judge Porteous 
told you that the case wouldn't be delayed. And is that right, 
that your understanding?
    Mr. Amato. Of this question, yes.
    Mr. Goodlatte. Yes, that he was going to move this case 
along, that the case had already been pending for 8 months 
before you came in, it didn't go to trial in point of fact 
until the following June, another 9 months after it was 
originally scheduled, and then a decision was not rendered for 
nearly 3 years after that. So the judge wasn't really moving 
this case along swiftly at all, was he?
    Mr. Amato. No, doesn't appear to be.
    Mr. Goodlatte. And during that time, he was milking all 
kinds of benefits from attorneys who were dealing with it, not 
only the payment--the cash payment that was made by you and 
your partner, but also a number of other benefits, in terms of 
trips and dinners and so on, all going on for a period of 
almost 3 years after he had heard the evidence in the case. So 
he wasn't trying to move this case along swiftly.
    Mr. Amato. Apparently not.
    Mr. Goodlatte. And in the meantime, at some point, you 
don't remember when, but at some point, he said, ``You had 
better prove your case or the fifth circuit is going to take it 
away''?
    Mr. Amato. That was before I tried the case.
    Mr. Goodlatte. Before the case went to trial. But you don't 
think that he was suggesting to you that you had better give 
him a good basis for making the decision, as opposed to simply 
telling you that he was going to try this fairly and honestly, 
that he had already decided that you were going to win the 
case, but you had better give him the evidence to make it?
    Mr. Amato. No, I don't think he decided I was going to win 
the case before I tried the case, and I don't know when he 
decided whenever he was going to--he was going to rule in the 
case and into whose favor.
    Mr. Goodlatte. But he took 3 years and quite a bit of 
payments from you and others to get to that point?
    Mr. Amato. You would have to ask him that question. I don't 
know.
    Mr. Goodlatte. I hope to have the opportunity.
    Mr. Amato. Thank you, sir.
    Mr. Goodlatte. Thank you, Mr. Amato.
    Mr. Schiff. The gentleman yields back.
    Mr. Johnson?
    Mr. Johnson. Yes, thank you.
    It was--I think you testified earlier today that you took 2 
years off to prepare for this case. That was your testimony 
this morning, correct?
    Mr. Amato. Yes.
    Mr. Johnson. But then--and this Liljeberg case, did the 
plaintiffs come to your office first to retain you? Were you 
the first counsel retained on the case or signed up on the case 
as attorney?
    Mr. Amato. No, I was not.
    Mr. Johnson. Who else had been----
    Mr. Amato. I don't know what the order was, but Ken Fonte 
was their regular attorney. Don Richard, Doug Draper, then 
myself, Lenny Levenson, and Hans Liljeberg, the nephew who was 
a lawyer, helped out.
    Mr. Johnson. Would you consider this case to have been 
complex litigation?
    Mr. Amato. Yes. Not complex to the extent that other 
litigations are because of the number of parties, but there 
was--the complexity was brought about by the number of medical 
records and drug paraphernalia and drug dosages and how the 
dosages were to take place. And, you know, they would hide 
records, and they would hide all sorts of things. And, you 
know, that is what made it complex.
    Mr. Johnson. I see. Was there extensive--would you agree 
that the pre-trial discovery period produced a lot of discovery 
in the case? Was it massive discovery?
    Mr. Amato. Yes, there was massive discovery going on prior 
to this case being tried. And there were other litigations that 
were being filed in state court and other Federal courts to 
minimize the effectiveness of the trial team that the 
Liljebergs had. They fired the key pharmacists at the hospital, 
which caused all sorts of litigation. You know, the discovery 
motions that, you know, that they would--we would file for 
interrogatories and requests for production and documents and 
for medical charts. And then they would come back and didn't, 
wouldn't produce it.
    Then we would have to go back to the magistrate and try to 
get what we needed. And then, you know, it just kept going on 
and on and on, where a good deal of the time was spent 
preparing for trial.
    Mr. Johnson. How long did discovery last? And how many 
depositions were taken?
    Mr. Amato. I couldn't answer that, sir. I really--it has 
been too long.
    Mr. Johnson. Were you involved in the discovery process?
    Mr. Amato. Absolutely.
    Mr. Johnson. And you don't recall whether any depositions 
were taken during the course of that litigation?
    Mr. Amato. Oh, of course they were taken. I don't know how 
many. I mean, I just couldn't tell you how many were taken. You 
know, and----
    Mr. Johnson. Well, let me ask you this question then. Were 
there any difficulties in the discovery process that caused any 
of the parties to have to file a motion to compel?
    Mr. Amato. Absolutely. We had trouble--there was an 
attorney for Tenet who was in Dallas who we litigated on and on 
as to taking her deposition and, you know, litigated the 
attorney-client privilege and what was privilege and what 
wasn't privileged and on. I mean, it was not, you know, an easy 
case to put together.
    Mr. Johnson. What were you doing for that 2 years that were 
not taking many cases? How were you using that time to prepare 
for this case?
    Mr. Amato. Well, to start with, they had truckloads of 
documents. We had the Liljebergs on the building on veterans 
highway, and we made up a war room, and Don Richard and I would 
go there almost every day and go through documents and try to 
have documents match up.
    Then we hired people to put it on computers. And then, on 
the weekends, the other lawyers would get together and discuss 
what we found and what was going on. There was also a 
bankruptcy proceeding that was going on at the same time, so it 
was bankruptcy stuff happening while we are trying to prepare 
for trial.
    And I am sure I mentioned this once before, but the 
Liljebergs could not hire a large law firm in the city of New 
Orleans for any law firm, because Tenet Healthcare had 
conflicted everybody out. Everybody was--every firm in the city 
of New Orleans was represented by Tenet.
    Mr. Johnson. Well, let me ask you this question. Did Judge 
Porteous rule on any of those pre-trial motions to compel 
discovery or any other pre-trial motions?
    Mr. Amato. I think most of them are handled by the 
magistrate.
    Mr. Johnson. Did he issue any orders himself?
    Mr. Amato. The magistrate or the judge?
    Mr. Johnson. The judge, Judge Porteous.
    Mr. Amato. I am sure he did. I couldn't answer. I don't 
know enough.
    Mr. Johnson. Do you recall how the clients came out with 
respect to those rulings?
    Mr. Amato. We won some and we lost some.
    Mr. Johnson. And it was all during this time that you were 
providing cash money to the good judge?
    Mr. Amato. It was after, when his son got married, which 
was in 1999.
    Mr. Johnson. You are familiar with the term home cooking?
    Mr. Amato. Been there.
    Mr. Johnson. Because--I am sorry. Say that again?
    Mr. Amato. I said I have been home cooked.
    Mr. Johnson. Yes. So what does home cooking mean when you 
are trying cases? And you have tried a bunch of cases over 35 
years.
    Mr. Amato. Well, there are a bunch of places I don't go 
because the pot is too hot, but----
    Mr. Johnson. What do you mean?
    Mr. Amato [continuing]. Where the outsider can't apparently 
get a fair shake, because of the relationship with the judges 
and the lawyers and the politicians and whatever else that goes 
into the mix. And it is called home cooking. I mean, I didn't 
make up the word, but I have been home cooked.
    Mr. Johnson. Yes, well, I will tell you, do you know of any 
lawyers that have been--that were on the other side of a case 
that you handled in front of Judge Porteous who were home 
cooked?
    Mr. Amato. Mr. Johnson, I have never won a case that the 
other side didn't think that I home cooked them. Every lawyer 
who ever lost a case thinks that some shenanigans went on that 
caused them to lose it, as opposed to out-lawyering them, out-
working them, and having a better case.
    Mr. Johnson. What impact did you think that you would have 
on Judge Porteous by providing him with financial favors?
    Mr. Amato. I didn't think any. I didn't think any. I didn't 
think that my helping my friend would in any way affect his 
decision-making.
    Mr. Johnson. Well, let me ask you this. If the 
circumstances were reversed and you were trying a case before 
Judge Porteous and--wouldn't it--and you did not know Judge 
Porteous from the man in the moon, he just happened to be the 
judge on your particular case, would you not have been 
concerned if you found out that there was such a close 
relationship between my opposing counsel and the trial judge in 
my case?
    Mr. Amato. I am concerned every time I walk into the 
courtroom.
    Mr. Johnson. Well, you would be concerned about that in 
particular, would you not?
    Mr. Amato. It would give me some concern, yes.
    Mr. Johnson. During the motion to recuse, what role did you 
play in this?
    Mr. Amato. I was in the courtroom. That was it. I didn't 
prepare the pleadings. I didn't argue the motion. I didn't say 
a word. I was there.
    Mr. Johnson. So you were there the whole time the motion 
was being argued?
    Mr. Amato. I don't know if I was there the whole time. I 
probably was.
    Mr. Johnson. Was there an evidentiary hearing on that 
motion?
    Mr. Amato. No. No--motion.
    Mr. Johnson. Were there any oral arguments presented prior 
to Judge Porteous ruling on the motion to recuse?
    Mr. Amato. I am pretty sure, yes.
    Mr. Johnson. But you did not participate in it?
    Mr. Amato. I did not.
    Mr. Johnson. Did you ever hear someone during that motion 
for recusal process make a misstatement about the true 
relationship that you, Mr. Creely had with Judge Porteous?
    Mr. Amato. I don't recall any statements made at all. I 
don't know if there were misstatements or not. I just--I am 
sorry, Mr. Johnson, but, you know, that is 15 years ago and a 
lot of water under the bridge. I just don't know.
    Mr. Johnson. This entire episode was revealed to the public 
when and how?
    Mr. Amato. When the Fifth Circuit Court of Appeals put on 
the Internet their decision to recommend the removal of Judge 
Porteous.
    Mr. Johnson. And when was that?
    Mr. Amato. I don't have the exact date. It was a year, 
year-and-a-half ago or something.
    Mr. Johnson. So this was at proceedings by the U.S. 
attorney down at Eastern District of----
    Mr. Amato. This is after they decided not to indict Judge 
Porteous. And then the fifth circuit had some sort of hearing 
and rendered some sort of report based upon grand jury 
testimony and statements that they had collected or whatever.
    Mr. Johnson. Did you have occasion to speak with anyone in 
the U.S. Attorney's Office for the Eastern District or for any 
other district with--or FBI or other investigators regarding 
this case prior to the conclusion of it by the U.S. attorney?
    Mr. Amato. Yes.
    Mr. Johnson. You did discuss?
    Mr. Amato. I was called before the grand jury with 
immunity, and I testified truthfully, and I was called before 
the judiciary--fifth circuit judiciary hearing, and I testified 
truthfully. I met with counsel for the Committee on three 
occasions, I think, you know, three separate occasions, plus 
today. And I am here today.
    Mr. Johnson. This--do you feel like you would call Judge 
Porteous as a witness in your state bar notice of inquiry? Do 
you think he would be on your witness list?
    Mr. Amato. I would hope so.
    Mr. Johnson. Now, you were given immunity. Why were you 
given immunity? And what kind of immunity were you given?
    Mr. Amato. It was forced immunity.
    Mr. Johnson. Excuse me?
    Mr. Amato. Forced immunity. And why was I given it? I have 
got a good lawyer.
    Mr. Johnson. Did Mr. Creely also--was he represented by 
your current attorney----
    Mr. Amato. Mr. Capitelli.
    Mr. Johnson [continuing]. At that time?
    Mr. Amato. Yes.
    Mr. Johnson. And so both of you all were able to get 
immunity?
    Mr. Amato. Yes.
    Mr. Johnson. Does this immunity apply to the filing of a 
criminal complaint against either one of you for being a party 
to a crime or a conspiracy?
    Mr. Amato. I presume it does.
    Mr. Johnson. So at that time, you knew that you were in 
some legal jeopardy because of the relationship that you had 
with Judge Porteous?
    Mr. Amato. Yes.
    Mr. Johnson. You--is that one of the reasons why you tried 
to cover up the cash payments to him by always doing things in 
cash?
    Mr. Amato. Well, that all happened before any immunity came 
about. So I would presume that giving him cash was probably the 
easiest thing we could do. And, of course, it didn't leave a 
paper trail.
    Mr. Johnson. Did Judge Porteous ever pay you back any of 
the money?
    Mr. Amato. No.
    Mr. Johnson. Mr. Chairman, I have no further questions at 
this time.
    Mr. Schiff. The gentleman yields back.
    Mr. Amato, I know it has been a long day. I have two or 
three final questions, and then we will break. I want to just 
follow up on what my colleague asked you. If I understood you 
correctly, you anticipate that at your state bar disciplinary 
proceeding that you may call Judge Porteous as a witness? Is 
that correct?
    Mr. Amato. Yes.
    Mr. Schiff. And so depending on what he says, it may have 
an impact on whether you can continue to practice law?
    Mr. Amato. I doubt it.
    Mr. Schiff. You mentioned that you thought that Judge 
Porteous had a reputation for being fair and always doing the 
right thing, correct?
    Mr. Amato. Right.
    Mr. Schiff. He wasn't either fair or doing the right thing 
during the recusal hearing, was he?
    Mr. Amato. No.
    Mr. Schiff. The misleading statements that I read to you 
earlier, that wasn't either fair or the right thing for him to 
lead the parties to believe that he had no cash relationship 
with the lawyers in the case, was it?
    Mr. Amato. No.
    Mr. Schiff. And by failing to inform the opposing party 
that he had received cash from you over the years, didn't the 
judge deprive that party of the right to the honest services of 
the court?
    Mr. Amato. I think you will have to ask Judge Porteous that 
question. I don't know.
    Mr. Schiff. Well, I am asking you the question. Don't 
litigants in a courtroom have the right to the honest services 
of the judge?
    Mr. Amato. I would hope so, yes.
    Mr. Schiff. And if they have a legitimate basis to make a 
motion to recuse or to appeal the denial of a motion to an 
appellate court, don't they have the right to expect the judge 
will be truthful in presenting the facts that will be the basis 
of that motion to recuse?
    Mr. Amato. Yes.
    Mr. Schiff. And weren't they deprived of that when Judge 
Porteous failed to inform the parties that he had received cash 
from lawyers in the case?
    Mr. Amato. Yes.
                               __________

    Mr. Schiff. That will conclude your testimony today. This 
Committee will be in recess until 10 a.m.
    [Whereupon, at 5:31 p.m., the Task Force was adjourned.]


  TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. 
                THOMAS PORTEOUS, JR. (PART I)--Continued

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

                  House of Representatives,
                 Task Force on Judicial Impeachment
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Task Force met, pursuant to notice, at 10:04 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Adam 
Schiff (Chairman of the Task Force) presiding.
    Present: Representatives Schiff, Conyers, Jackson Lee, 
Cohen, Johnson, Pierluisi, Goodlatte, Sensenbrenner, Lungren, 
and Gohmert.
    Staff present: Alan Baron, Counsel; Harold Damelin, 
Counsel; Mark H. Dubester, Consel; Kirsten Konar, Counsel; and 
Jessica Klein, Staff Assistant.
    Mr. Schiff. This hearing of the House Judiciary Task Force 
on Judicial Impeachment will now come to order. Without 
objection, the Chair will be authorized to declare a recess of 
the hearing.
    Today, we will continue our examination of allegations that 
Judge Porteous violated the public trust, the law and ethical 
canons by presiding over the Liljeberg case.
    Our third witness on this issue is Joseph Mole, Esquire. 
Mr. Mole is an attorney with a law practice in the New Orleans 
area. He is here pursuant to subpoena. He has not been given an 
immunity order.
    I will now swear the witness.
    [Witness sworn.]
    Thank you. You may be seated.
    Task Force counsel--just so you know the procedure today, 
Mr. Mole, Task Force counsel, Mr. Harry Damelin, is going to be 
starting by asking you questions. Members of the Task Force 
will then have a chance to ask you questions, as will counsel 
for Judge Porteous. Judge Porteous is present with us this 
afternoon, as is his counsel.
    And with that, we will begin with Mr. Damelin.
    Mr. Damelin. Good morning, sir.
    Mr. Mole, you are an attorney, correct?
    Okay. And where do you practice?
    Okay. And could you just generally describe what type of 
practice you have, sir?

              TESTIMONY OF JOSEPH MOLE, ATTORNEY, 
                        NEW ORLEANS, LA

    Mr. Mole. I have practiced 32 years. For most of that time, 
I have handled large, complex business lawsuits, commercial 
litigation of all sorts, antitrust, bankruptcy, leases, 
contracts.
    Mr. Schiff. Mr. Mole, you may want to move your microphone 
a little closer.
    Mr. Mole. Closer?
    Mr. Schiff. You may want to lower that microphone, and you 
will need to talk very close to it so we can hear you. Thank 
you.
    Mr. Damelin. Mr. Mole, did there come a time when you 
became involved in the case that we will refer to as Lifemark 
v. Liljeberg?
    Mr. Mole. Yes, in March 1996, the company that owned 
Lifemark became my client during a search for attorneys in New 
Orleans to take over an existing lawsuit. And I enrolled, I 
believe, in early April 1996 as counsel.
    Mr. Damelin. Okay. And for purposes of clarity, is it fair 
to say that you represented Lifemark against Liljeberg? Is that 
clear?
    Mr. Mole. That is correct.
    Mr. Damelin. At the time you became involved in the case, 
had it already been assigned to Judge Porteous?
    Mr. Mole. Yes, it was with Judge Porteous.
    Mr. Damelin. And had you ever previously had a case before 
Judge Porteous either in state or Federal court?
    Mr. Mole. No, I had never had a case with Judge Porteous.
    Mr. Damelin. Okay. And you say you got involved in the case 
around March 1996?
    Mr. Mole. I believe the interview with the client was in 
March. I enrolled as counsel, if memory serves me, on April 5, 
2006, in the actual lawsuit, as counsel of record for the two 
Lifemark companies.
    Mr. Damelin. And when you got involved in the case, was 
there a trial date already set?
    Mr. Mole. Again, if memory serves me correct, trial was set 
for early November of that year, 1996.
    Mr. Damelin. And when you got involved in the case, were 
Jake Amato and Leonard Levenson already in the case?
    Mr. Mole. No, they were not. They didn't surface until they 
made a motion to enroll sometime in September, I believe.
    Mr. Damelin. Of what year is that?
    Mr. Mole. 1996.
    Mr. Damelin. And approximately how close to trial was it 
when they enrolled or entered their notice of appearance?
    Mr. Mole. Well, when I briefed the issue to--with the 
court, I used the term 6 weeks before trial, so that is what I 
think it was.
    Mr. Damelin. At the time they entered their appearance in 
the case, did you know either of the gentlemen?
    Mr. Mole. I did not.
    Mr. Damelin. Have you come to find out since the time they 
entered their appearance what type of fee arrangement that they 
had in connection with the case? By that, I mean, was it an 
hourly rate or a contingent fee basis?
    Mr. Mole. Yes, I did find out. Because the Liljeberg 
companies--one or both of them--involved in the litigation were 
in Chapter 11 proceedings, Mr. Levenson and Mr. Amato had to 
make an application to the bankruptcy court to get their fee 
arrangement approved. I found that in the bankruptcy record, 
and they had a contingency fee arrangement, and it was their 
deal. I don't know what their deal between themselves was, but 
between Mr. Levenson and Mr. Amato's firm, the deal was they 
got 11 percent of the value of the hospital claim that was part 
of the litigation.
    Mr. Damelin. Okay. And when they entered their appearance, 
Mr. Mole, did that cause you any concern? And if so, why?
    Mr. Mole. Well, as in any case, you know, especially a case 
as big as that, you investigate every aspect of it. So when two 
new lawyers signed up 6 weeks before trial, it raised some 
concerns, and so I did what I would always do, is I did some 
due diligence into who these guys were. And I made phone calls 
and talked to people and developed some concerns, yes.
    Mr. Damelin. Okay, what did you learn in the course of your 
due diligence?
    Mr. Mole. I learned that--from people who would talk to me, 
but didn't want to, you know, sign an affidavit or go on the 
record--that Mr. Levenson and Mr. Amato were very close to 
Judge Porteous, that Mr. Amato had been his law partner, as had 
Mr. Creely--Amato and Creely was the firm--and Mr. Levenson was 
very close to Judge Porteous and had--I think had been to a 
fifth circuit conference or two as Judge Porteous's guest, that 
they frequently socialized in--in the way of lunches, hunting 
trips, and things like that, and that they--I also knew--well, 
I formed the opinion that there was--there was a high 
likelihood that the case--it was a bench trial. There was no 
jury. So it would be entirely a decision by the judge in a case 
that had been valued as high as $200 million for my client that 
the case would be handled in the way by the judge that would be 
favorable to his friends, and that was of deep concern.
    Mr. Damelin. As a result of your due diligence and the 
conclusions that you reached, did you then file a motion to 
recuse Judge Porteous from the case?
    Mr. Mole. Yes, after I did my investigation, such as it 
was, I, of course, conferred with my client. I dealt with a 
lawyer in house at Lifemark. And we decided the best course of 
action was to take a shot at recusal.
    Mr. Damelin. Okay. Had you ever filed a motion to recuse a 
Federal judge previously in your years of practice?
    Mr. Mole. I believe that is the only time I have ever done 
it in any court.
    Mr. Damelin. And could you explain what the factual 
underpinning or basis was of the motion that you filed?
    Mr. Mole. Well, usually when you file a motion to recuse, 
you have to have some evidence that you present to the court--
relationship or a fact that you think the judge should consider 
in disqualifying himself for whatever reason.
    I had no cold facts. All I had was my opinion, based upon 
hearsay from people who didn't want to be public about their 
opinion, so I signed an affidavit that said pretty much what I 
told you, Mr. Damelin, that there was an appearance--possible 
appearance of impropriety. I argued that the judge shouldn't be 
handling a case where two of his closest friends, if not his 
very closest friends, had just signed up 6 weeks before trial, 
whose facts had been in litigation since 1987 in one court or 
another, and that I didn't believe they had anything to add, 
other than their relationship with the judge, and that if the 
result came out in a certain way, it would create an appearance 
that things had not been right. And that is what I argued.
    Mr. Damelin. Mr. Mole?
    Mr. Mole. And filed an affidavit to that effect.
    Mr. Damelin. Okay, Mr. Mole, let me ask you this. At the 
time of your motion, in October 1996, were you aware of the 
fact that other than campaign contributions, Jake Amato and his 
law partner, Bob Creely, had given Judge Porteous thousands of 
dollars in cash while he was a state judge?
    Mr. Mole. No, I was not. If I had known that fact, I would 
have made it--made it--to the court it time.
    Mr. Damelin. Okay. Would that have been a significant fact 
that you would have used in your motion to recuse?
    Mr. Mole. Obviously. I think that would have been--that 
would have made the motion to recuse mandatory to be granted.
    Mr. Damelin. Now, just a small point, but what if the money 
that I just mentioned came solely from a Mr. Creely? Would that 
still have been important to you in connection with the motion 
to recuse Judge Porteous?
    Mr. Mole. Well, the firm on the pleading was Amato and 
Creely, so, yes, it would have. It was the firm, not just Mr. 
Amato. But Mr. Creely didn't participate in the trial, but, 
yes, it would have been very----
    Mr. Damelin. Okay. Now, did there come a time that Judge 
Porteous, in fact, held a hearing with regard to your motion to 
recuse?
    Mr. Mole. Yes. Yes, we made the motion probably in 
September, and the hearing was in mid-October.
    Mr. Damelin. Now, were Mr. Levenson and Mr. Amato present 
at the hearing with regard to your motion to recuse?
    Mr. Mole. Yes, they were.
    Mr. Damelin. And at any time, either before, during or 
after the hearing, were you ever informed that Mr. Amato had 
previously provided Judge Porteous thousands of dollars when he 
was a state judge?
    Mr. Mole. No.
    Mr. Damelin. Would this fact have been important to you, 
again, in connection with arguing the motion to recuse?
    Mr. Mole. Yes. It would have been pretty significant.
    Mr. Damelin. Now, at the recusal hearing, Judge Porteous 
stated, ``Yes, Mr. Amato and Mr. Levenson are friends of mine. 
Have I gone along to lunch with them? The definite answer is 
yes.'' Now, were you aware or was it ever disclosed to you 
that, in fact, for a number of years, both Mr. Amato and Mr. 
Levenson had regularly been paying for hundreds of expensive 
lunches for Judge Porteous?
    Mr. Mole. Well, I knew from my--what I called an 
investigation that they did lunch together frequently. I didn't 
know the details of that arrangement.
    Mr. Damelin. Were you aware of the extent of that in any 
way?
    Mr. Mole. No, only what I heard on the phone from people 
who were willing to talk to me.
    Mr. Damelin. Now, did Judge Porteous, in fact, deny your 
motion to recuse?
    Mr. Mole. He did.
    Mr. Damelin. Okay. And then the matter proceeded to trial 
eventually?
    Mr. Mole. The trial setting of November 6th was pushed 
back, and we began trial in June 1997, tried the case for--over 
a period of, I believe, 6 weeks.
    Mr. Damelin. Okay, we will get to that. We will get back to 
that in a minute. But after Judge Porteous denied your motion 
to recuse, did you retain an attorney named Don Gardner to 
become part of the Lifemark team?
    Mr. Mole. Yes, I did.
    Mr. Damelin. What type of practice did Don Gardner have?
    Mr. Mole. Don seemed to do mostly family law, divorces, and 
personal injury type cases in Jefferson Parish.
    Mr. Damelin. Okay. Was that in any way relevant and 
relative, his experience, to the type of case that you were 
handling?
    Mr. Mole. No, it was not.
    Mr. Damelin. Why was Gardner then brought in by Lifemark?
    Mr. Mole. After we lost the motion to recuse, my client and 
I discussed that--and my client insisted that we try to find a 
lawyer who, like Mr. Amato and Mr. Levenson, was a friend with 
the judge and knew him very well. They were concerned that they 
would do everything they can to achieve a level playing field.
    I resisted doing that. I am not happy with the fact that we 
did it. But my client insisted, and so we did it.
    Mr. Damelin. And so was Gardner brought into the case 
simply because of his relationship with Judge Porteous?
    Mr. Mole. Yes.
    Mr. Damelin. And at the trial that subsequently proceeded, 
did he play any role whatsoever?
    Mr. Mole. No, Don was there every day, but he did not take 
a witness or do any argument.
    Mr. Damelin. Based on Mr. Gardner's fee arrangement, how 
much was he paid when he simply entered the case?
    Mr. Mole. He got a retainer of $100,000.
    Mr. Damelin. Now, when did the case eventually proceed to 
trial?
    Mr. Mole. We began, I believe, in mid-June. The last day of 
trial was July 31. But we didn't try it every day in that 
interim. I believe there were 16 or 17 days of evidence.
    Mr. Damelin. This was a non-jury trial?
    Mr. Mole. That is correct.
    Mr. Damelin. Were you the lead trial counsel on the 
Lifemark side of the case?
    Mr. Mole. I was.
    Mr. Damelin. Now, during the trial, did Judge Porteous at 
some point in time get involved in the questioning of your 
witnesses after they had, in fact, been cross-examined by the 
Liljeberg attorneys? Did that happen during the trial?
    Mr. Mole. Yes, it did happen. They would occur when we put 
on a strong or important witness. I or one of my partners would 
examine him. And I think we did a very good job at trial. And 
when we do a good job with an important witness, the 
Liljebergs' lawyers would cross-examine. And typically, to my 
recollection and my opinion, our witnesses did very well on 
cross.
    Mr. Damelin. Did or did not do very well on cross, the 
Liljeberg lawyers?
    Mr. Mole. I didn't feel they laid a glove on them. But 
Judge Porteous would question my witnesses. And, as you know, 
judges are allowed to question witnesses, especially in a bench 
trial, but I felt that the judge had gone too far in cross-
examine and done some damage. So I was determined at some point 
to object or ask the judge for some relief from what I--the 
damage I thought he had done, because the judge with the black 
robe is pretty hard for a witness to resist.
    Mr. Damelin. Okay. So at some point during the trial, when 
Judge Porteous was examining witnesses that you had called and 
examined and Liljeberg had cross-examined, did you, in fact, 
raise an objection to the judge?
    Mr. Mole. Yes. After he had done that to three or four of 
my witnesses, there was a particularly important witness named 
Steve Fouche. He was an intelligent man. He was a pharmacist, 
but he was relatively unsophisticated as far as the trial went. 
He did a very good job on direct, survived cross very well, and 
then the judge went into him with some questions.
    When Judge Porteous finished his questions, I stood up and 
said, ``Judge, may I follow up?'' And I remember Judge 
Porteous's response was, ``Nobody follows me up.'' And I said, 
``Well, then, Judge, with all due respect, I object. I think 
you have gone too far with these questions.'' And it is a 
little bit of a blur after that, but I recall that he got very 
incensed. And at some point, we had bench books on the bench, 
that we had given the judge, big, black binders of documents. 
He would pick up several of them and threw them like a soccer 
ball toward me in anger. That was on a Thursday afternoon.
    Mr. Damelin. He physically threw the binders at you?
    Mr. Mole. Well, I mean, I don't think there was any 
realistic possibility he would get them as far as I was. It was 
about the same distance as I am from Mr. Schiff. But whether he 
was throwing at me, I don't know. But it was in my general 
direction.
    Mr. Damelin. Okay. And then what happened after he threw 
the binders?
    Mr. Mole. You know, it is--it is--it was the end of the 
day. We stopped court. There was no trial on Friday. It was 
Thursday afternoon. We came back Monday, and the judge ruled on 
my objection. He had written an opinion, read it into the 
record--my objection to his questions, but then allowed me to 
follow up with the witness, and then we went on to the trial. 
Over the weekend, no one was willing to stand close to me.
    Mr. Damelin. You have done a lot of trial work over the 
years. Has anything like that ever happened to you before?
    Mr. Mole. No, I have made judges angry before, but no one 
has thrown things at me in court.
    Mr. Damelin. As the trial concluded, Mr. Mole, did you feel 
that you had clearly proven your case?
    Mr. Mole. Yes, well, lawyers always feel they do a good 
job, but I felt we had--it was a slam dunk. I think we had--to 
use another metaphor, pitched a shutout. I thought it was not a 
close case. It was a difficult case, long, but I think we had 
done a very good job.
    Mr. Damelin. Now, the judge had this case under advisement 
for quite a long period of time. Is that correct?
    Mr. Mole. Yes, I think almost 3 years.
    Mr. Damelin. Now, let me ask you this. During the time that 
this case was under advisement, from July 1997 until the judge 
issued his opinion in April of 2000, did you know that Mr. 
Amato and Mr. Levenson took Judge Porteous out to lunch on a 
number of occasions?
    Mr. Mole. No, I had no knowledge of that.
    Mr. Damelin. Did you know that Mr. Amato and Mr. Levenson 
contributed money to Judge Porteous to help pay for some type 
of intern or externship for one of Judge Porteous's sons?
    Mr. Mole. No one told me that.
    Mr. Damelin. Did you know that Judge Porteous requested 
money from Amato and that Amato had given him about $2,500 in 
cash?
    Mr. Mole. No, I didn't know that.
    Mr. Damelin. Did you know that Amato had paid about $1,500 
for a party to celebrate Judge Porteous's fifth year on the 
bench?
    Mr. Mole. No, I didn't know that.
    Mr. Damelin. Okay. And with regard to Mr. Levenson, did you 
know that he had, in fact, traveled to Washington with Judge 
Porteous at the end of January 1999, that he traveled to 
Houston with Judge Porteous in April 1999, that he was in Las 
Vegas with Judge Porteous in October 1999, and that Levenson 
and Judge Porteous went on hunting trips together, including a 
hunting trip to a hunting lodge in December 1999? Did you know 
that?
    Mr. Mole. No. All of those things were the things I--sort 
of things I feared were happening or would happen, but had--I 
had no knowledge of.
    Mr. Damelin. Would any or all of those things had been 
important to you to know while that case was under advisement?
    Mr. Mole. Certainly.
    Mr. Damelin. Okay. Now, at the recusal hearing in 1996, 
Judge Porteous said that he would let you know if anything ever 
came up which in his mind might be a cause for recusal? That is 
in the transcript of the recusal hearing. Now, did Judge 
Porteous, his secretary, his courtroom clerk, or anyone else 
ever let you know about any of the above-mentioned events that 
I just pointed out to you?
    Mr. Mole. No. No one ever informed me of those facts.
    Mr. Damelin. Now, you got Judge Porteous's decision in 
April of 2000. What was your reaction when you read that 
decision?
    Mr. Mole. You know, I was not surprised with the outcome. 
Some aspects of it were unusual in the remedies that Judge 
Porteous fashioned.
    Mr. Damelin. When you say you weren't surprised with the 
outcome, you had previously said you thought you had pitched a 
shutout, so what do you mean you weren't surprised with the 
outcome?
    Mr. Mole. I felt we would lose. I felt that the playing 
field wasn't level. I didn't have any confidence that we would 
get what I considered a victory, which was to keep the hospital 
and sever the relationships between the Liljebergs and my 
clients.
    Mr. Damelin. So was Judge Porteous's decision, the one he 
rendered in April, a loss for you and your client?
    Mr. Mole. A very big loss. He had given the hospital--it is 
a convoluted story, by my clients own the hospital. It is a 
nice, large hospital in suburban New Orleans that had 
previously been owned by the Liljebergs. He had ordered the 
hospital be given back to the Liljebergs, not a remedy that had 
even been requested, but it was a valuable hospital.
    Mr. Damelin. Okay. Now, based on the judge's decision and 
your understanding of the contingent fee arrangement that Amato 
and Creely had, approximately how much did they stand to make 
if Judge Porteous's decision was allowed to stand?
    Mr. Mole. Well, based on their fee arrangement of 11 
percent, they were to get 11 percent of the value of the 
hospital claim. At trial, Mr. Amato and Mr. Levenson's expert 
valued the hospital in a range of between roughly $50 million 
and $75 million, so their fee would have been 11 percent of 
that figure. My math is somewhere between $5 million and $8 
million.
    Mr. Damelin. Okay. Now, did you appeal Judge Porteous's 
decision to the Fifth Circuit Court of Appeals?
    Mr. Mole. We did. The client and I located a firm who had a 
good relationship with Lifemark, a Texas firm, Haynes and 
Boone, who did the lion's share of the work on the appeal, but 
I participated actively in it.
    Mr. Damelin. Okay. And the fifth circuit eventually 
reversed that decision, did they not, Judge Porteous's 
decision?
    Mr. Mole. Yes, Judge Porteous's decision was, I believe, 
108 pages, and theirs was 116.
    Mr. Damelin. Okay. And was that reversal in the fifth 
circuit--did you view that as a win for you and your clients?
    Mr. Mole. Yes. It was a resounding win.
    Mr. Damelin. Okay. Now, an issue has been raised in the 
course of the hearing so far that the panel of fifth circuit 
judges that ruled that decision--that made that decision were 
from Texas and they didn't understand or misinterpreted 
Louisiana law. How would you respond or how do you--how do you 
respond to that observation?
    Mr. Mole. Gee, the fifth circuit is a highly respected 
circuit. Louisiana law is not that unusual. I mean, people use 
the Napoleonic code, lawyers do, to try to intimidate clients 
into hiring Louisiana lawyers, but it is not that different 
anymore. We hired, as a lawyer on our side, Louisiana's 
foremost expert on the real property transactions, Max Nathan, 
a lawyer who had taught me in law school. We made the arguments 
that the fifth circuit accepted under Louisiana law. The fifth 
circuit handles--it is a three-state circuit, so it handles a 
very high proportion of Louisiana cases every day, so it knows 
Louisiana law well.
    What else? The judge who wrote the opinion, Judge 
Higginbotham, is perhaps the sharpest and most respected mind 
on the fifth circuit. I think he is been considered for the 
Supreme Court before. He is a little old now, but he is a very 
good judge. That just doesn't resonate with----
    Mr. Damelin. So you don't think that that group of three 
judges on the fifth circuit misunderstood or didn't understand 
Louisiana law?
    Mr. Mole. And they also hire very talented clerks from all 
over the country. They get the pick of the crop, so--I am not 
even sure that is right that all three judges were from Texas, 
but I am sure Judge Higginbotham, I think, is a Dallas lawyer 
originally.
    Mr. Damelin. Okay. In--in all of your years of practice, 
Mr. Mole, do you ever recall being involved in a case where an 
appeals court used such harsh language as the fifth circuit did 
here in reversing a trial judge's decision?
    Mr. Mole. I only have my own experiences, but I have never 
seen an appeals court use language like the fifth circuit used 
to describe the opinion. The thing that does resonate with me 
is the term they used, ``made up out of whole cloth.'' That 
pretty much matched my view of what had happened in the 
district court.
    Mr. Damelin. Okay, Mr. Mole. Thank you. I have no further 
questions.
    Mr. Schiff. Thank you.
    Mr. Mole, I would like to ask you a number of follow-up 
questions. First, as a threshold matter, you came in, you were 
brought in to the Liljeberg case in March, and the case at that 
time was set for November. Is that right?
    Mr. Mole. That is correct.
    Mr. Schiff. So you were brought in more than half a year 
before the trial date?
    Mr. Mole. Yes, that was a problem. We had to scurry to 
assimilate an enormous amount of history. We succeeded in being 
able to take a lot of depositions, some that had already been--
already been taken, so we did a lot of work.
    Mr. Schiff. There was a suggestion in questioning yesterday 
that both you and Mr. Amato and Levenson were all new arrivals 
on the case prior to the trial, but that wouldn't be correct, 
would it?
    Mr. Mole. Well, I mean, I--the time period is what it is. I 
got in, in early April, and he got in, in mid-September. So it 
is--but we did put a lot of lawyers on it, a lot of paralegals, 
and spent--you know, I have never had just one case at a time, 
but I pretty much spent all the time I could on that case for 
whatever the interval is. And we ended up postponing the trial 
until June, so that worked out.
    Mr. Schiff. So you were brought in more than 6 months prior 
to trial? And Mr. Amato was brought in only about 6 weeks from 
trial?
    Mr. Mole. That is correct.
    Mr. Schiff. It would be unusual to bring in new lawyers 6 
weeks before a complex trial, wouldn't it?
    Mr. Mole. It was. And the existing Liljeberg lawyers had a 
long history with the case, and they were all specialists in 
the areas that they were handling, Don Richard and Doug Draper, 
who handled the bankruptcy and technical issues.
    Mr. Schiff. I want to ask you about the recusal hearing. 
Judge Porteous during the hearing stated that ``a lawyer who 
reasonably believes that the judge before whom he is appearing 
should not sit must raise the issue so that it may be 
confronted and put to rest. Any other course would risk 
undermining public confidence in our judicial system. I cite 
that so everyone understands that I recognize my duty and 
obligations and that I am fully prepared to listen.''
    Did the judge indicate to you that he at least understood 
the law, in terms of what he was required to do on a recusal 
motion?
    Mr. Mole. Yes.
    Mr. Schiff. He knew what the appropriate standard was?
    Mr. Mole. Yes, he seemed to understand, and we certainly 
briefed it thoroughly. It is a very difficult thing to do, to 
ask a judge to recuse themselves.
    Mr. Schiff. When he went on to say, ``Yes, Mr. Amato and 
Mr. Levenson are friends of mine. Have I ever been to either 
one of them's house? The answer is a definitive no. Have I gone 
along to lunch with them? The answer is a definitive yes. Have 
I been going to lunch with all of the members of the bar? The 
answer is yes.''
    When the judge made those statements, was he, in your 
opinion, trying to give the impression that, yes, they were 
friends, but not unlike every other member of the bar that he 
had lunch with?
    Mr. Mole. That was my impression.
    Mr. Schiff. When you pointed out, Mr. Mole--you said, ``The 
public perception is that they do dine with you, travel with 
you, that they have contributed to your campaigns.'' The judge 
responded, ``Well, luckily, I didn't have any campaigns, so I 
am interested to find out how you know that. I never had any 
campaigns, Counsel. I never had an opponent.''
    He then goes on to say, ``The first time I ran, 1984, I 
think is the only time when they gave me money.'' Was it your 
impression from what the judge was saying that he was making 
the claim that he had only received money once and that was 
back in 1984?
    Mr. Mole. In the form of campaign contributions.
    Mr. Schiff. Now, you were concerned about campaign 
contributions because that might affect the way he presided 
over the case, right?
    Mr. Mole. Yes, but I know from experience that campaign 
contributions are not a reason to ask for a recusal, because in 
Louisiana, we have elected judges, and the fact that the lawyer 
has contributed to the judge that he is trying a case to is not 
grounds for recusal. But in Judge Porteous's case, he was a 
Federal judge. All I had to work with was the fact that there 
are public campaign records that told me that Jake Amato and 
Lenny Levenson had given him some money, so I raised that.
    Mr. Schiff. Now, all you had to work with was the campaign 
cash issue, because you were unaware of the fact that Mr. Amato 
and his partner had given somewhere between $10,000 to $20,000 
in personal cash to the judge, right?
    Mr. Mole. Yes. Part of the way I pitched the recusal--and 
it was a very difficult thing to word, was, ``Judge, you 
disclose to us, because we don't have records, what the 
relationship is in full. And if you are comfortable with it, 
then it will work. And if it is--if you are not, then I have a 
point that you need to address.'' And that was--I was hoping he 
would make disclosure.
    Mr. Schiff. Now, I take it that, had you known of the 
relationship where as a state judge, he would send curators to 
the Amato-Creely law firm, and they would kick back some of the 
money from those curatorships to the judge, if you had known of 
that relationship, that would have been much more significant 
to you than any campaign contribution, in terms of the recusal 
motion.
    Mr. Mole. That has all kinds of implications. Yes, that 
would have been a serious concern. I may have had--that that 
would have been a serious concern, yes.
    Mr. Schiff. At another point in the hearing, the judge said 
to you, ``You haven't offended me, but don't misstate. Don't 
come up here with a document that clearly shows well in excess 
of $6,700 with some innuendo that that means that they gave 
that money to me. If you would have checked your homework, you 
would have found that that was a Justice for All program for 
all judges in Jefferson Parish. But go ahead. I don't dispute 
that I receive funding from lawyers.''
    When the judge said that, he was taking issue with your 
suggestion or characterization that money had gone to him when, 
in fact, it had gone to all the judges, right?
    Mr. Mole. That is correct. Yes, I remember that.
    Mr. Schiff. And he was basically saying you hadn't done 
your homework, right?
    Mr. Mole. That is--yes. But from the campaign records, all 
I saw was the number and his name. And it hadn't been properly 
apportioned, but he was correct. It was a mistake, in fact.
    Mr. Schiff. Given what--what you know now in terms of the 
relationship between Mr. Amato and the judge, where over a 
period of time, he had given the judge thousands of dollars, do 
you consider it misleading that the judge accused you of not 
doing your homework for suggesting that he had gotten campaign 
cash, when, in fact, he had received a tremendous amount of 
personal cash?
    Mr. Mole. I felt he should have disclosed those things. And 
I think, in context, it was an omission that was material that 
he should have made and should have told us, yes, what the 
financial relationship was and had been. I do think it was a 
misrepresentation.
    Mr. Schiff. By suggesting that he had never gotten campaign 
cash and not disclosing the fact that he had gotten a lot of 
personal cash, do you feel that he misled you?
    Mr. Mole. Absolutely.
    Mr. Schiff. The court goes on to say, ``I have always taken 
the position that if there was ever any question in my mind 
that this court should recuse itself, that I would notify 
counsel and give them the opportunity if they wanted to ask me 
to get off. Did the court give you that opportunity?
    Mr. Mole. No.
    Mr. Schiff. Do you feel that you were deprived of the right 
to honest services of the judge?
    Mr. Mole. I think my client was, yes. I think my client was 
mistreated by the system--or by the judge on that level.
    Mr. Schiff. Now, you mentioned that your client insisted 
that you bring in Mr. Gardner.
    Mr. Mole. Yes.
    Mr. Schiff. And this was a step you were reluctant to take?
    Mr. Mole. That is correct.
    Mr. Schiff. And the reason you brought Mr. Gardner in was 
you needed to offset the advantage you felt the other party had 
in bringing in two friends of the judge?
    Mr. Mole. That is correct. And part of the reason--there 
are a lot of reasons for it, but that is essentially it. We 
were trying to achieve a level playing field, to get a source 
of information, yes.
    Mr. Schiff. And, Mr. Mole, do you consider that a 
corruption of the system, too, that both you and the opposing 
party felt they needed to bring friends of the judge in as 
counsel?
    Mr. Mole. I am sorry. I didn't hear the first part of your 
question.
    Mr. Schiff. Do you feel that--that also is a corruption of 
the system, where in order to have a level playing field or 
secure some advantage, that either you or the other party or 
both have to bring in friends of the judge as counsel on the 
case?
    Mr. Mole. I do. It was deeply offensive to me as a lawyer 
that the case depends on something other than the facts and the 
law.
    Mr. Schiff. Now, you knew by reputation that Mr. Gardner 
had a relationship with the judge, was a friend of the judge?
    Mr. Mole. Well, once my client said we needed to get 
someone else who is a friend of the judge, I began looking 
around and making phone calls again. And I found Mr. Gardner 
that way. I interviewed him, and that is basically the 
selection process.
    Mr. Schiff. Now, were you aware that Mr. Gardner at some 
point had also given cash to the judge?
    Mr. Mole. No, I was not.
    Mr. Schiff. My--our counsel made reference to a trip to Las 
Vegas during the Liljeberg case. Were you aware Mr. Gardner had 
also gone on that trip?
    Mr. Mole. No. Don told me he was quite close to the judge 
and they would go to dinners where he would provide wine--you 
know, and entertain the judge, and participate in social events 
with him. But I didn't know that he had given him money or the 
extent of how much money he gave him or what he paid for or 
what the--what the social arrangements were. Frankly, I didn't 
want to know.
    Mr. Schiff. During the course of your research for your 
client to find another lawyer to bring into the case, did other 
lawyers in the community ever tell you that they were aware of 
attorneys giving money to the judge?
    Mr. Mole. No one ever told me that. People were always very 
careful. Some people wouldn't--frankly, wouldn't talk to me 
about it. When I told him what my problem was, they would say, 
``I can't talk to you about that.''
    Mr. Schiff. During the--the time when the Liljeberg case 
was under submission, we heard testimony yesterday that Mr. 
Amato had a conversation with Judge Porteous, a private 
conversation, in which the judge said, ``You had better prove 
your case, or the fifth circuit will take it away from you.'' 
Were you aware of this conversation?
    Mr. Mole. No, I was not.
    Mr. Schiff. Do you consider it appropriate for the judge 
and opposing counsel to have a--to have a private conversation 
about a case that is under submission?
    Mr. Mole. Absolutely. You know, my first job as a lawyer 
was clerking for an old Irish Federal judge who would never 
talk to a lawyer on any level if he had a case with them. I 
don't think ex parte communications are proper, certainly not 
about the case itself.
    Mr. Schiff. I just want to make sure I have heard your 
original answer correctly. So your view is it is improper to 
have that kind of ex parte contact?
    Mr. Mole. Absolutely.
    Mr. Schiff. And how do you--in the context of the Liljeberg 
case, how would you interpret a statement, ``You had better 
prove your facts, because otherwise the fifth circuit will take 
it away from you''?
    Mr. Mole. I think you are asking me to interpret someone 
else's thoughts. But with that statement, I would interpret it 
as the judge was concerned that what he did was supportable by 
a record so that it wouldn't be reversed on appeal. And, you 
know, there was a sense in the trial that I was straining to 
make that impossible, to make a record that couldn't be 
supported--a ruling for the Liljebergs. So I think there was 
some sense that it was going to be a difficult thing for the 
judge to do.
    Mr. Schiff. Can you explain that, though? You know, what I 
think is kind of perplexing to us is the idea that the judge 
has to struggle to reach a decision that the court of appeals 
can uphold. You said that it--it was--you were straining to 
demonstrate during the trial facts or bring out facts that 
would not allow a judgment to be held. Can you explain what you 
mean by that?
    Mr. Mole. Well, for example, on the hospital claims, the 
Liljebergs have lost their hospital, and my client had bought 
it at a foreclosure sale. And they sued my client in a posture 
as a plaintiff for the value of the hospital. And their expert 
witness was--I felt we had destroyed him on cross-examination. 
His opinion as to the value of the hospital was unsupported and 
foolish.
    And that meant the judge, in my opinion, knew that if he 
gave the $75 million as an award for the loss of the hospital, 
there was no evidence or even expert opinion to support that. 
And yet--and when he wrote the opinion, he got around that by 
simply ordering us to give the hospital back to the Liljebergs, 
something that is totally unsupportable, but that is--that was 
my objective, is to make the record so bulletproof there was no 
way to support any result other than what we thought was 
appropriate.
    Mr. Schiff. Now, the remedy of giving the hospital back to 
the opposing party, was that a remedy that was asked for in the 
litigation?
    Mr. Mole. That was the most stunning part of the opinion. 
No, it wasn't even requested by any party that I remember. It 
was really surprising.
    Mr. Schiff. And was the first time that you learned of this 
when the opinion came out?
    Mr. Mole. I remember very well turning to that page and 
saying, ``This is--holy cow. This is really unusual.''
    Mr. Schiff. So during the litigation, opposing counsel and 
the opposing party were seeking damages, but in the judge's 
order, the judge awarded the hospital to the other party?
    Mr. Mole. Yes.
    Mr. Schiff. And at no time in the pleadings or in arguments 
of counsel did the opposing party actually ask for that remedy?
    Mr. Mole. To my recollection, no. We were so--I was totally 
stunned and surprised by that particular aspect of the opinion.
    Mr. Schiff. Did you ever learn beyond your suspicions why 
Amato and Levenson were brought in?
    Mr. Mole. Only from these proceedings, from the subsequent 
proceedings. I testified in the fifth circuit in that 
proceeding with--the fifth circuit's judiciary commission, or 
whatever the term is, investigated and made a recommendation to 
this body. And I had the same sort of questions you have asked 
that suggested these things have happened, but other than that, 
I have no direct knowledge of them.
    And I testified in the grand jury hearings, but I don't 
believe there is any suggestion there.
    Mr. Schiff. Just one last question before I turn it over to 
my fellow colleagues. You mentioned that you weren't surprised 
by the outcome in the case. What was it about the nature of the 
trial or the--the judge's conduct of the trial that led you to 
believe you were going to lose in the end, notwithstanding your 
feeling about the merits?
    Mr. Mole. You know, after trying a lot of cases, you just 
get a feeling when it--it is hard to isolate the factors, but 
there was the reputation that I had learned of before trial.
    Mr. Schiff. And what reputation are you talking about?
    Mr. Mole. Of the relationship between Judge Porteous and 
these two lawyers. Judge Porteous came from a state court 
bench. He had been a state court judge in--in Jefferson Parish, 
which has a history of corruption. So that confirmed or 
reinforced my concern about a corrupt result.
    The attitude of the lawyers, the flow of the trial, you 
know, Judge Porteous is a strong personality and a good trial 
judge, in the sense that he knows the rules of evidence. He is 
decisive. So I can't say the trial made me feel like he was 
leaning on me, but nonetheless, I felt just an instinct that, 
you know, this is--this is--I know where this is going to end 
up, and my remedy is going to be in the court of appeal.
    Mr. Schiff. Thank you. That is it for me.
    Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Mole, you--in response to questions from Mr. Damelin 
and from the Chairman, you indicated you believe that Judge 
Porteous had a duty to disclose during the hearing on your 
motion that he recuse himself of the payments that he had 
received from the attorneys on the other side. And I presume--
perhaps you answered this. I presume that as this case drug on 
for a long period of time after the case was tried and these 
other payments were received, I presume you felt that he would 
have had a duty to have disclosed that to the parties in the 
case, as well. Is that correct?
    Mr. Mole. Yes. While the case was under submission would 
have been a particularly sensitive period--things happen that 
affects the outcome.
    Mr. Goodlatte. Doesn't Judge Porteous's failure to notify 
the parties after these events--after, in fact, he said he 
would do so--amount to a fraud on the court?
    Mr. Mole. I have never been a judge, so I don't reach legal 
conclusions, but my opinion is it was a fraud on my client.
    Mr. Goodlatte. And that that is a--that is in--in fact, a 
part of a judicial proceeding over which he was the presiding 
officer that would be, in fact, more than a fraud on your 
client. It would be a fraud on our judicial system, would it 
not?
    Mr. Mole. Yes, I would tend to agree with you, yes, but it 
is not my decision.
    Mr. Goodlatte. What was your reaction when you read Judge 
Porteous's opinion in the Liljeberg case?
    Mr. Mole. You know, I remember where I was when I read it. 
I was in court to try another case in Jefferson Parish, and 
somebody brought it over to me, before BlackBerries. I think 
this was in, what, 2000--yes, 2000. And I remember flipping 
through it, standing there and saying, ``Jeez, he hit us there, 
he hit us there, he hit us there,'' so there were a number of 
claims. It was a very big case. And when I got to the decision 
on the--on the hospital, my reaction was, ``Well, that is good. 
This is so off-the-wall it is going to be easier to shoot at 
the whole opinion on appeal. This is so unbelievable as a 
result, that he would simply take the hospital and give it back 
to the Liljebergs. I have to look at this, but I don't think 
there is any support to that.''
    Mr. Goodlatte. But did your original concern about his 
relationship with the attorneys and your motion to have him 
recuse himself come back to mind, as you read that opinion?
    Mr. Mole. You know, I am--I am a trial lawyer, so I am only 
result-oriented. At that point, I was focused on, ``Okay, let's 
get on to the appeal.'' I put all that time in.
    Mr. Goodlatte. Knowing what you know now, which is more 
than what you knew then, about the relationship between the 
judge and the attorneys, do you believe that the decision was 
based solely on a reasonable interpretation of the relevant 
law? Or do you think it was influenced, at least in part, by 
his relationship with others?
    Mr. Mole. I think it is the latter. You know, yesterday, I 
watched in the conference room as Mr. Amato testified. And, you 
know, I heard all those facts, but hearing Jake say them, it 
sort of took my breath away.
    Mr. Goodlatte. Were you familiar with the conversation that 
Mr. Amato testified to yesterday about his conversation with 
the judge in which he basically said, ``You had better make 
your case, or the fifth circuit will take it away from you''?
    Mr. Mole. You know, that rang true, from based on--on what 
I saw and believe.
    Mr. Goodlatte. Were you surprised or concerned about the 
length of time it took the judge to decide this case, almost 3 
years from the time you went into court until he rendered an 
opinion? Is that common?
    Mr. Mole. No, it was very unusual. It was very hard on my 
client. But it was always puzzling as to why it was taking so 
long, because that didn't benefit anyone.
    Mr. Goodlatte. So were there any efforts made to 
determine--you know, to contact the court and ask the judge, 
``Why are you taking so long to render an opinion?'' Or were 
you worried that that might have an adverse effect on his 
decision?
    Mr. Mole. You are always careful about contacting a judge 
who has got your case in his hands. I called Don Gardner, the 
lawyer we had hired, and said, ``Do you know what is going on? 
Have you seen the judge?'' And his reaction was, ``Don't know. 
He is taking a long time. It is a hard case.''
    Mr. Goodlatte. When you retained Mr. Gardner, Mr. Gardner 
was paid a retainer of $100,000----
    Mr. Mole. That is correct.
    Mr. Goodlatte [continuing]. Was that based against any 
hourly work or simply based upon him showing up in court and 
doing what you ask him to do during the court of the trial?
    Mr. Mole. That was a retainer that he was going to keep no 
matter what.
    Mr. Goodlatte. And did he have any contingency arrangement?
    Mr. Mole. Yes, there was--his fee went up, as the result 
got better for us, to a maximum of $500,000. And part of my 
thinking on agreeing to that was, I wanted to make him have an 
interest in the case, because I wanted to be able to trust him 
to be interested in the outcome when he became involved. And I 
was hoping that pressure from both sides, of having friends on 
both sides would cause the judge to step aside. There was also 
a payment that Don would get if the judge did recuse himself.
    Mr. Goodlatte. Now, you said that, during the trial, Judge 
Porteous on several occasions examined or cross-examined your 
witnesses after you had put them on and after the Liljeberg 
attorneys had questioned those witnesses.
    Mr. Mole. That is correct.
    Mr. Goodlatte. That is not entirely unusual. Judges do ask 
questions in cases, don't they?
    Mr. Mole. Absolutely. And he did--he did that to at least 
one of the Liljeberg witnesses that I recall, laid into him 
pretty well. He has a strong personality.
    Mr. Goodlatte. I think that is all the questions I have, 
Mr. Chairman. Thank you.
    Mr. Schiff. The gentleman yields back.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And, Mr. Mole, thank you for your presence here. Some of 
the questions I may pose may have already been answered, but 
let me try to sort of lump them together and pose a series of 
questions to you.
    First, let me ask you this. Did you ever give anything to 
Judge Porteous, any--anything, a gift?
    Mr. Mole. No, I have never given him anything, never taken 
him to lunch, never----
    Ms. Jackson Lee. Did you ever--did you ever take him to 
lunch?
    Mr. Mole. Never.
    Ms. Jackson Lee. Did you ever give him cash?
    Mr. Mole. No.
    Ms. Jackson Lee. Did you ever go hunting with him?
    Mr. Mole. No.
    Ms. Jackson Lee. Would you ever give things of value of the 
nature that I just asked to a judge, period, or if you had a 
case before he or she?
    Mr. Mole. No. I have contributed to judges' campaigns, but 
that is the limit of what I have done with a judge.
    Ms. Jackson Lee. And you had a case before him. Could you 
just--the case involved what issue? The case that you had 
before him involved what issue?
    Mr. Mole. Before Judge Porteous?
    Ms. Jackson Lee. Yes.
    Mr. Mole. It was a very old dispute. The Liljebergs are a 
family in New Orleans. They are originally pharmacists. They 
obtained a license to build a hospital in New Orleans in the 
suburbs in the early 1980's, and they didn't have the money or 
the expertise to build or run it, so they hired Lifemark to 
build it, to finance it, and then Lifemark leased the hospital 
from them, and they had a contractual arrangement with Lifemark 
to run the pharmacy in the hospital for a profit. And then they 
had a mortgage on the hospital that was held by Lifemark.
    And so all those relationships went bad almost immediately. 
The litigation began in 1987 in state court over pharmacy 
payments. The Liljebergs got into other financial trouble with 
other lenders in the 1980's and early 1990's and lost their 
hospital to Travelers, who had financed their medical office 
building. So by the time we got to trial, the litigation was 
over the loss of the hospital, which they blamed on my client.
    Ms. Jackson Lee. Which is Lifemark?
    Mr. Mole. Lifemark. And over how much money Lifemark owed 
them for running the pharmacy. And the claims there varied 
between--I think the judgment value of Judge Porteous's 
judgment was about $15 million. The Liljebergs sought up to $30 
million or $40 million.
    Ms. Jackson Lee. So this was a case long in brewing and 
very important and very complex?
    Mr. Mole. Yes.
    Ms. Jackson Lee. A lot of documentation, a lot of work that 
would go into it for your preparation?
    Mr. Mole. Absolutely, yes.
    Ms. Jackson Lee. And I understand that, in the course of 
working on this case, there was a decision to hire Don Gardner. 
And forgive me if you have answered this, but I just want to 
try and reinforce the point. How much was Mr. Gardner paid for 
simply entering into the contract?
    Mr. Mole. One hundred thousand dollars.
    Ms. Jackson Lee. And it was a complicated case. Could you 
point out to any precise expertise that Mr. Gardner had for 
this case?
    Mr. Mole. None.
    Ms. Jackson Lee. And did he assist you, did he examine any 
witnesses?
    Mr. Mole. He did no work at trial. I talked to Don quite a 
bit. You know, he gave me some insight into Judge Porteous's 
personality and likes and dislikes that might help us with 
witnesses and how we pitch certain issues, which was helpful.
    Ms. Jackson Lee. But minimal?
    Mr. Mole. Yes.
    Ms. Jackson Lee. A minimum. Do you think that your clients 
were influenced--or let me just ask this. Did Mr. Gardner have 
a relationship with Judge Porteous?
    Mr. Mole. Yes.
    Ms. Jackson Lee. Do you think your clients had any 
understanding of that? And was there some consideration of that 
fact?
    Mr. Mole. I would say that is the only reason he was hired.
    Ms. Jackson Lee. Would you think that the value of Mr. 
Gardner's services--and let me clarify that or qualify that by 
saying this is not a trying of Mr. Gardner. I am sure that he 
is a well respected lawyer. But let me try to find out, was the 
compensation equal to the services rendered?
    Mr. Mole. You know, it was a risk taken by him to get 
involved, and it was a risk taken by my client to pay him that 
much money. I don't think the fee was unearned in that sense. I 
think it was--it was earned. A difficult situation, and I am 
not--you know, not happy about it.
    Ms. Jackson Lee. Let me try to put it in a different way so 
that--certainly, counsel can provide a variety of support, but 
did--did the--the level of work, intensity of work equal to the 
purpose or for his being retained?
    Mr. Mole. Well, in a sense, Ms. Jackson Lee, Don is a very 
active lawyer. He is the kind of guy who is in court every day, 
who has a dozen files in his briefcase, and has lots of people 
in the middle of divorces who want his constant attention. I 
will say this for him: He was very diligent in being in court 
and being available and being supportive. You know, I like him, 
enjoyed his company, but he had to give all that up, so I don't 
know how much in fees he lost and how much in clients' goodwill 
he lost, but it was worth--worth it to my client to pay him 
that much to give that up.
    And so, I mean, the bargain was what they made, and, you 
know, I wouldn't--I wouldn't say the fee was unearned. I think 
he--he gave us what we asked for. And----
    Ms. Jackson Lee. But it was a decision of the client and 
not of yours?
    Mr. Mole. I ultimately went along with the client, but if I 
hadn't agreed to do it, they would have found another lawyer. I 
would have lost the case.
    Ms. Jackson Lee. Did Don Gardner ever tell you that he saw 
Amato's partner, Creely, in Las Vegas with Judge Porteous at 
his son's bachelor's party?
    Mr. Mole. No, I didn't know about that.
    Ms. Jackson Lee. That doesn't ring a bell?
    Mr. Mole. No, it does not.
    Ms. Jackson Lee. If you had known that, would that have 
been important to you at the time?
    Mr. Mole. You know, I wanted to know who was paying for it.
    Ms. Jackson Lee. The idea of having a team on the other 
side of the case that may have had a longstanding relationship, 
you practices for a number of years--I am sure you have 
practiced in state and local courts, as Federal courts, rather. 
How much of a disadvantage and how injurious is that to the 
justice system to have potentially individuals in the 
opposition that may have had a financial relationship with the 
decider?
    Mr. Mole. You know, that is a very difficult and a very big 
question. You know, as a lawyer, I have practiced law all 
around the country and in Puerto Rico, tried cases, anyway. And 
you visit courthouses where you don't know anybody, and you 
walk in, and everybody else knows everybody else, and you know 
the judges have--and even in New Orleans, I would go into 
courthouses where the judges know the lawyers, but they don't 
know you.
    And that is normal. That is human relationships, and you 
live with that, and I know how to handle that. But if--you 
know, and judges socialize, and I think they--you know, they 
socialize with lawyers. It is natural. And it is a good thing.
    But if there is a financial relationship, you sort of have 
to trust the judge to disclose that or to withdraw and--and 
draw his own boundaries that make the system work.
    I can deal with social relationships. You know, I can get 
to like people or get them to like me or not. And I can trust 
the system that way. But if it is a financial relationship, I 
can't work with that. You know, I just need to have the system 
work the right way.
    Ms. Jackson Lee. Mr. Chairman, this is my last question. 
But, Mister, you sought a recusal, did you not?
    Mr. Mole. Certainly did.
    Ms. Jackson Lee. And were you successful?
    Mr. Mole. No, we lost.
    Ms. Jackson Lee. And what was the final result of the case 
in the--in the trial court?
    Mr. Mole. We lost. You know, it was--there were many 
aspects of the case. We lost every one big.
    Ms. Jackson Lee. And as a--we always have a special 
affinity for the case we are trying. But as a seasoned lawyer, 
do you think you had some aspects of your case being 
meritorious?
    Mr. Mole. You know, I watched Jake yesterday say he thought 
he won. And every lawyer thinks, you know, they are great. It 
is the nature of the beast. And my wife has to deal with that.
    But I truly think we pitched a shutout, that it was a silly 
case and we should have won, and it was fueled by something 
other than, you know, facts and law.
    Ms. Jackson Lee. And you don't think because you were the 
defense in a plaintiff's oriented court system that it might 
have been that biased, plaintiff versus defense, big guys 
versus the little hometown guys?
    Mr. Mole. There may have been some of that. But, you know, 
I find in commercial litigation you--you find less of that. 
These are two business interests that were, you know, going at 
it head to head. And the Liljebergs were a smaller entity, but 
that may have been part of it.
    Ms. Jackson Lee. So you were in a lopsided situation?
    Mr. Mole. Yes.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Schiff. The gentlewoman yields back.
    Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Mole, for many--many years, I have introduced 
legislation to allow peremptory challenge in the Federal 
system. If there had been a peremptory challenge, you would 
have had a different judge, wouldn't you?
    Mr. Mole. I certainly would have used it.
    Mr. Lungren. Since you don't have a peremptory challenge in 
the Federal system, what is your recourse in a trial where you 
believe the judge may not give you a fair hearing?
    Mr. Mole. Well, you could make a motion to recuse. And then 
you--failing that, you make a very good record.
    Mr. Lungren. Is there--what information that has been 
revealed through these proceedings and the proceedings in the 
fifth circuit--what of that information was--were you aware of 
at the time you made your recusal motion?
    Mr. Mole. Well, all I knew was that Mr. Amato and Mr. 
Levenson dined frequently with Judge Porteous, didn't know who 
paid, although I suspected they paid, and that they socialized, 
hunting trips, entertainment, out-of-town trips frequently. And 
I knew that they had a history, as Mr. Amato and Mr. Creely 
did, anyway, a history as law partners with Judge Porteous.
    I learned that Mr. Levenson--and I am still not certain 
about this--that Mr. Levenson had been Judge Porteous's guest 
at a Fifth Circuit Judicial Conference, at--I believe at which 
judges are entitled to take along one non-judge guest, a 
lawyer, typically, I guess.
    And that is pretty much the facts I was aware of, but they 
weren't admissible evidence. It was all people telling me that 
stuff.
    Mr. Schiff. Could you--Mr. Lungren--Mr. Mole, could you 
pull the microphone down and bring it a little closer to you?
    Mr. Mole. Sure.
    Mr. Schiff. You want to bring it down even more than that.
    Mr. Lungren. In making your request, your motion for 
recusal, was that by way of written evidence or--or written 
documents that you filed with the court, articulating these--
these specific concerns?
    Mr. Mole. Yes. Ordinarily, you know, I haven't done it but 
once, but ordinarily, when you make a motion to recuse, you 
submit evidence in the form of an affidavit----
    Mr. Lungren. Right.
    Mr. Mole [continuing]. From a banker or somebody who says, 
``I have a relationship,'' or, ``I know their cousins,'' or 
something. I had none of that, so I submitted my own affidavit 
saying, ``I have heard these things.'' And that left me feeling 
a little exposed.
    Mr. Lungren. You had none of that because neither the judge 
nor the attorneys on the other side revealed those things to 
you, correct?
    Mr. Mole. That is certainly true.
    Mr. Lungren. Was it your understanding there was any 
obligation on the part of the judge or the other attorneys to 
reveal that to you and to reveal that to the court for the 
record?
    Mr. Mole. As I recall, my legal research and reasoning, 
when we made the motion to recuse, my focus was on the judge. I 
don't have any understanding and haven't analyzed what the 
lawyer's responsibility was. I think that is a whole other ball 
game with the ethics commission of the Louisiana Bar 
Association. But my effort was to get the judge to disclose. 
And I thought he should disclose the details of the 
relationship.
    Mr. Lungren. As a lawyer before the Federal courts and the 
Louisiana bar, would you believe you would have a 
responsibility to articulate facts that would indicated a 
personal relationship with the judge if a recusal motion were 
being made in a case in which you represented one of the 
parties?
    Mr. Mole. Yes, and I agreed with what Jake said yesterday, 
that if--if he were going to disclose the facts that he has 
disclosed to this body, he would have had to disclose them to 
the Louisiana Bar Association, as well.
    Mr. Lungren. Yesterday, when I questioned Mr. Amato, I 
asked him about the conclusions of the Fifth Circuit Court of 
Appeals, in which they characterized Judge Porteous's ruling 
and various aspects of it as inexplicable, constructed entirely 
out of whole cloth, nonsensical, absurd, indicating that there 
was nothing based in law or fact to justify the decision.
    Yet under cross-examination, I believe, Mr. Amato suggested 
that, well, you have to understand, the appellate judges were 
from Texas, and they don't understand Louisiana law.
    I don't practice in Louisiana. I haven't practiced in 
Louisiana. What would your response be to that?
    Mr. Mole. I smiled when I heard it yesterday, too. I was 
listening to the monitor. I think it is laughable. I think the 
fifth circuit is a fine court. I think Judge Higginbotham, who 
wrote the opinion, is the most respected member of that court. 
He is known for his intellect.
    Mr. Lungren. This is Judge Higginbotham that is known by 
opinions that he writes for the fifth circuit, correct?
    Mr. Mole. Largely on Louisiana law. Louisiana is a very 
litigious state. It is one of three states only in the fifth 
circuit, so it is Mississippi, Louisiana and Texas. So a 
substantial number of the fifth circuit's opinions are about 
Louisiana issues. And they have their pick of the law clerks 
from the law schools.
    So they--you know, it is a good court. And the fact that 
they don't know Louisiana law is ludicrous. And Louisiana law 
is not that weird. We used to be, and we used the Napoleonic 
code to scare out-of-state clients into hiring us, but it 
really isn't that different anymore.
    Mr. Lungren. Well, truth is a defense. So thank you for 
that.
    Do you have an opinion about the possible reason for the 
delay in the rendering of the opinion? In other words, did that 
delay disadvantage either side disproportionately?
    Mr. Mole. It did my client, in the sense that it had to--it 
had to post a bond. I think we posted a bond of approximately--
maybe $40 million, somewhere plus or minus $10 million, a large 
bond. So that had to be maintained and interest had to be paid.
    Also, one of the key aspects of the decision was not 
monetary. We sued to sever the relationship, the contract with 
the Liljebergs. They ran the pharmacy in the hospital. They are 
very difficult people. And it was very difficult to run a 
hospital with a pharmacy which supplies all the medications who 
was hostile to my client, because they have to cooperate to 
treat patients. And the Liljebergs were always reporting the 
hospital to various state agencies and trying to make trouble 
and suing us. This is not the only lawsuit that we had with 
them, so it was a very difficult relationship, and severing 
that relationship was very important, and that went on for 3 
more years than it had to, in my opinion.
    Mr. Lungren. So delay didn't work in the favor of your 
client?
    Mr. Mole. It certainly did not.
    Mr. Lungren. On page 183 of your testimony for the fifth 
circuit, you make reference to Mr. Gardner telling you 
something about Jeep leases and Jeep purchases. What was that 
in reference to?
    Mr. Mole. At one point, Don told me that Judge Porteous's 
son had gotten a new Jeep and he didn't know where it came from 
and he wondered about it. And that is about all I remember 
about that.
    Mr. Lungren. Okay. So you don't have any further 
information----
    Mr. Mole. No facts.
    Mr. Lungren [continuing]. On that. Is that correct?
    Mr. Mole. That is correct.
    Mr. Lungren. Any attorney in this room who has been in a 
courtroom understands the uncertainty when you go before any 
judge, even a judge you may know well. But going into an 
environment where a judge has a personal relationship with the 
attorneys on the other side, where there are actual payments of 
funds made by those attorneys to that judge, where in the past 
there are legal proceedings directed to those attorneys by the 
judge and which result in some financial benefit to those 
attorneys, and is the source of the funds that they pay the 
judge for his personal expenses, if you have that information 
going in, if you would have had that information going in, what 
would you advise your clients about the prospects of getting a 
fair trial?
    Mr. Mole. We would say it is extremely doubtful that we 
will get a fair trial and that, if those facts were exposed to 
the light of day, that if the judge refused to recuse himself, 
we certainly had an almost certain chance of getting that 
reversed by a court of appeal, if the facts were fully known.
    Mr. Lungren. During the conduct of the trial itself, did 
you feel you were getting a fair shot?
    Mr. Mole. Yes, I think Judge Porteous conducted the trial 
in a way that objectively had the feel of a balanced 
experience. I mean, I didn't--he didn't refuse me the 
opportunity to put on my evidence. He didn't refuse to sustain 
my objections when I made them. Some he did, some he didn't, 
like any judge.
    But, you know, just the overall impression I had, knowing 
everything I knew, and synthesizing that information, my 
opinion was we were--we were trying it for the--for the court 
of appeals. We were making a record to survive his judgment.
    Mr. Lungren. And when you--when you actually had an 
opportunity to review his opinion in the case, with respect to 
the findings of fact and findings of law and the conclusions he 
rendered, what was your observation then?
    Mr. Mole. Well, like I said, I mean, my main--my principal 
reaction was, ``This is good for my client, because it is so 
one-sided and so unsupportable that it will raise eyebrows and 
we should be able to get it reversed.'' And in some of the 
claims where I didn't feel we had as strong a case as others, I 
think our case increased in value.
    Mr. Lungren. But you weren't banking on a Fifth Circuit 
Court of Appeals that couldn't understand the intricacies of 
Louisiana law, were you?
    Mr. Mole. No. I had every confidence they would understand 
that.
    Mr. Lungren. Didn't you want a Fifth Circuit Court of 
Appeals that did, in fact, understand the laws and the proper 
application of the laws in the case?
    Mr. Mole. Absolutely. If you look at our briefs to the 
fifth circuit, we took that argument on the hospital and put it 
up front, because it was so unsupportable and so clear what the 
result should be under Louisiana law. And we went back to 
French commentators and translated them and sent them to the 
court. So we layered that brief with all the Louisiana law we 
had. It wasn't something that concerned us. Those are--those 
are bright judges, and it is a bright court.
    Mr. Lungren. You didn't make appeal to Texas law, I take 
it?
    Mr. Mole. No. I have been in Texas.
    Mr. Lungren. Thank you very much.
    Mr. Schiff. The gentleman yields back.
    Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chair.
    How long have you practiced law in the New Orleans area?
    Mr. Mole. Thirty-two years. The first year was as a clerk 
to a Federal judge.
    Mr. Cohen. So you are aware of the general opinions of the 
members of the bar about the judiciary in the New Orleans area?
    Mr. Mole. Yes.
    Mr. Cohen. Do you believe members of the bar are aware of 
the issues that have arisen concerning Judge Porteous and this 
hearing?
    Mr. Mole. Well, it is certainly gotten extensive press 
coverage. Yes, it is--everybody is aware of it.
    Mr. Cohen. And do you--how do you believe these issues that 
have been written in the press, that have been discussed, that 
have been aired now on C-SPAN, that are out in the public 
domain, might affect the attitude of the New Orleans bar toward 
having a--a sitting judge who is in this situation?
    Mr. Mole. You know, I can't speak for other people. I think 
it is unfortunate; it reflects bad on the legal community in 
general in Louisiana, in New Orleans. You know, we have had our 
problems with judges, mostly on the state court. There have 
been Federal judges who have been convicted of crimes. And it 
is--and it is comforting to know the system ultimately works. 
Here we are today.
    Mr. Cohen. Is Judge Porteous still hearing cases?
    Mr. Mole. No, he is not.
    Mr. Cohen. How long has he stopped?
    Mr. Mole. I believe it has been a little over a year, but I 
am not certain. I think at that fifth circuit hearing, after 
that, he was taken out of active cases.
    Mr. Cohen. So that was done by the--was that--that wasn't 
voluntary?
    Mr. Mole. I think he voluntary stopped hearing criminal and 
other cases involving the government some time ago.
    Mr. Cohen. How about civil cases?
    Mr. Mole. Civil cases, I think he gave up--I am not 
certain, but I believe it was--the fifth circuit took him out 
of active work about a year ago, maybe longer.
    Mr. Cohen. And is there somebody hearing cases in his 
stead?
    Mr. Mole. It is a big court, so, you know, I don't know if 
they have been reapportioned to other judges or--I don't 
believe there is anybody temporarily holding his--his bench.
    Mr. Cohen. Do you know if there has been--there is a 
backlog of cases in New Orleans? Has it been difficult on 
attorneys to get cases to trial, more difficult than normal?
    Mr. Mole. I don't believe it has. It is a big bench, and 
there is a lot of post-Hurricane Katrina work still going on. 
So it is busy, but I don't think it is--you get a pretty good 
trial date setting in New Orleans.
    Mr. Cohen. I yield back the balance of my time, sir.
    Mr. Schiff. The gentleman yields back.
    Mr. Sensenbrenner?
    Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    How many judges--how many trial court judges--federal 
district court judges in the Eastern District of Louisiana?
    Mr. Mole. I believe there are 16, and there are a number of 
senior judges, senior--who are active, so it is probably up to 
about 20.
    Mr. Johnson. How did the Liljeberg case happen to be 
assigned to Judge Porteous?
    Mr. Mole. The previous Federal judge who had died, Judge 
Oakley Jones, and his cases were re-allotted, and Judge 
Porteous got that case, by random allotment, to my knowledge.
    Mr. Johnson. Did you keep up with the criminal 
investigation done of Judge Porteous in connection with the 
events we are talking about today?
    Mr. Mole. I was interviewed and testified to the grand 
jury. I was interviewed by the FBI and testified to the grand 
jury. Other than that, I have read the newspapers, because it 
was--it was known in the public.
    Mr. Johnson. Do you have any suspicions about why Judge 
Porteous was not indicted by the U.S. attorney?
    Mr. Mole. I have no knowledge of how that decision was made 
one way or the other.
    Mr. Johnson. Do the judges run on a--on--do they run for 
re-election as Democrats and Republicans? Or is it a non-
political race?
    Mr. Mole. Well, they are all appointed by----
    Mr. Johnson. Excuse me. I am sorry. Gosh, okay, all right.
    Mr. Mole. So we can tell who appointed them, but that is 
about as far as their politics go.
    Mr. Johnson. Okay. I am sorry. I am starting to think back 
to the state court days.
    So your testimony is that you have no suspicions about the 
failure to indict Judge Porteous by the U.S. attorney?
    Mr. Mole. No. You know, I--having been caught up in this 
sort of by accident, and I have not tried to learn any more 
than comes my way through this process.
    Mr. Johnson. Now, the entry of appearance of Mr. Amato and 
Mr. Levenson was about 6 weeks before trial. Is that correct?
    Mr. Mole. That is my recollection, yes. I think they made 
their appearance on September 19. They made their application 
to be employed on September 16 in the bankruptcy court. And the 
trial was set for, I believe, November 4 or November 6, 
whichever was a Monday. So that is the math.
    Mr. Johnson. And this came as a surprise to you, did it 
not?
    Mr. Mole. Yes.
    Mr. Johnson. And let me ask you a question about your--your 
client. Did your client have to expend more money than it would 
have had to spend had you not had this strong suspicion of a--
that you may get home cooked in Judge Porteous's court?
    Mr. Mole. You know, it is impossible to be certain about, 
but probably.
    Mr. Johnson. Well, I mean, without--without the plaintiffs 
having hired Mr. Amato and Mr. Levenson, would it have been 
necessary for your client to spend $100,000 retaining Mr. 
Gardner?
    Mr. Mole. No.
    Mr. Johnson. Were there--are there any delays during the 
course of this episode that cost your client money, such as the 
3-year delay between the--the time that the evidence was in and 
the time that there was a decision issued by the judge?
    Mr. Mole. That certainly cost money, but I don't know what 
would have happened if it had taken another path.
    Mr. Johnson. Well, I mean----
    Mr. Mole. Certainly, all those things were expensive.
    Mr. Johnson. Well, let's speak hypothetically. If you had 
won the case--and you are pretty certain it was a slam dunk--if 
you had won that case, there would have been no need for your 
client to--to move into the fifth circuit. Is that correct?
    Mr. Mole. That is correct, but the other side may have 
appealed.
    Mr. Johnson. Do you have any idea how much the--the appeal 
to the 11th Circuit cost your client?
    Mr. Mole. I think, in attorney's fees, it was probably 
close to $1 million between my firm, which was minor on the 
appeal, and the Texas firm, which was major in that role.
    Mr. Johnson. Now, with respect to the recusal motion, I 
think you have testified that there was a short--or there was a 
hearing on that particular motion that you filed after giving 
it a lot of thought.
    Mr. Mole. That is correct.
    Mr. Johnson. And you had never filed a motion to recuse in, 
what, then 25 years of practicing law?
    Mr. Mole. And haven't since.
    Mr. Johnson. And how long did the hearing take on this 
motion to recuse?
    Mr. Mole. Less than an hour.
    Mr. Johnson. Okay. And this hearing consisted of you 
submitting an affidavit to the court with hearsay information.
    Mr. Mole. Yes, my hearsay in a brief with the law and 
argument.
    Mr. Johnson. Yes. And----
    Mr. Mole. And an oral argument with the judge and opposing 
counsel.
    Mr. Johnson. Mr. Amato was there listening during that 
proceeding?
    Mr. Mole. I believe he was, yes. I don't believe he spoke. 
It was principally Mr. Levenson who argued the other side.
    Mr. Johnson. Are you--could you say that Mr.--would it be 
fair to say that Mr. Amato did nothing to clear up the nature 
of the relationship that he had with Judge Porteous?
    Mr. Mole. That would be accurate.
    Mr. Johnson. And Mr. Lungren asked you this question. I am 
going to just ask it again. You know, well, strike that. Strike 
that.
    What was the reason why Judge Porteous took so long in 
issuing a ruling in this case?
    Mr. Mole. You know, I am not certain. What I have heard--
and it makes sense--is that he did it himself and he didn't 
have a law clerk who was consistently available throughout the 
process to understand everything, who could work on it. And, 
you know, other than that, I could only speculate.
    Mr. Johnson. Were there any discovery disputes between the 
parties during that litigation?
    Mr. Mole. Well, pre-trial, no. You know, there were--before 
I got in the case, there were significant discovery disputes in 
the record. By the time I got in, things went pretty smoothly 
in discovery, because everybody was eager to get to trial, and 
it worked pretty well.
    Mr. Johnson. So after the time that Amato and Levenson 
signed on to the case, did the court have an opportunity or did 
Judge Porteous have an opportunity to rule on any motions that 
were filed by either party, plaintiff or the defendant?
    Mr. Mole. Yes, we filed significant pre-trial dispositive 
motions, which were denied, motion for summary judgment. We 
filed, as I recall, early on, I filed a motion for leave to 
amend, to restructure the claims so that I could ask for a 
jury, because that was one way to avoid part of the problem 
that we had with the judge to get a jury, but that was denied, 
as well. It would have been very difficult to get a jury 
because of the bankruptcy jurisdiction, but I tried that angle, 
as well.
    Mr. Johnson. Did the findings of fact and conclusions of 
law on any of those motions that you filed or--excuse me, that 
were heard after Amato and Levenson made the first appearance--
first appearance in the case, was there any judicial ruling 
that was appealed to the fifth circuit?
    Mr. Mole. None of those, no. Under the Federal practice, 
you could only appeal once the case is final. The only thing we 
took to the fifth circuit prematurely was the denial of the 
recusal, and the fifth circuit refused my appeal on that, as 
well.
    Mr. Johnson. One minute, Mr. Chairman.
    Now, the judge ordering a return of the hospital--and, by 
the way, before I go into that, let me ask this question. Were 
you surprised by any of the rulings on your motions that the 
judge made during the period between trial and the time that 
Amato and Levenson signed on to the case?
    Mr. Mole. No.
    Mr. Johnson. You didn't feel that any of those rulings were 
in any way outlandish or unsupported by sufficient evidence?
    Mr. Mole. No, I had--I don't have a clear recollection of 
the basis for most of them, although I can guess, and, you 
know, they are the usual pre-trial motions, and I was surprised 
by the outcome.
    Mr. Johnson. Now, the judge ordering the return of the 
hospital to the Liljebergs, what benefit would accrued to 
Levenson and Amato, to your knowledge, if that ruling had been 
upheld on appeal?
    Mr. Mole. Their fee arrangement was they received 11 
percent of the recovery on the claim for the loss of the 
hospital. So that would have been between them and the 
Liljebergs, but if they got the hospital back, the trick would 
have been to value the hospital--their own experts had valued 
it at a range between $50 million and $75 million. So if I were 
them, I would say, ``Mr. Liljeberg, you owe me 11 percent of 
$75 million.'' And that is what--that is what I think the fee 
should have been.
    Mr. Johnson. Were the conclusions drawn from the testimony 
of--well, strike that. Were the judges questions of your 
witness--you talked about the judge cross-examining your 
witness--it was cross-examination, was it not?
    Mr. Mole. Yes. Well, I mean, he questioned them. I felt it 
was across the line in the cross-examination, but that was my 
opinion.
    Mr. Johnson. Leading questions and----
    Mr. Mole. Yes, suggesting the answers and leaning on the 
witness strongly.
    Mr. Johnson. Yes. And how many questions do you--did the 
judge ask during that time period, during----
    Mr. Mole. You know, probably not more than 15, 20 minutes, 
but Judge Porteous is a good lawyer, so he got it over with 
quickly, and he got to the point, so he did a good job of 
questioning. And that is what I wanted an opportunity to follow 
up on.
    Mr. Johnson. Were the--any of the--was any of the testimony 
that that witness, your witness, gave under cross-examination 
by Judge Porteous cited by Judge Porteous in his ruling on the 
disposition of the case?
    Mr. Mole. I don't recall. I don't recall that it was.
    Mr. Johnson. Were the judge's questions, based on your 
knowledge and experience, unusually partial to the plaintiff's 
case?
    Mr. Mole. I felt I had a valid objection that they were at 
the time. But like I said, he did that to one of the--at least 
one of the Liljeberg's witnesses, as well, so maybe that is 
just his style, but I wanted the record--like every good 
lawyer, you want to--you want to get the last word.
    Mr. Johnson. Was the issue of the judge cross-examining 
your witness for 10, 15, 20 minutes, was that a subject of the 
appeal to the fifth circuit?
    Mr. Mole. No, it was not.
    Mr. Johnson. Were there any other incidents in the--in the 
trial, during the trial which might have indicated bias or a 
corrupt intent on the part of Judge Porteous?
    Mr. Mole. Nothing else stands out, Mr. Johnson.
    Mr. Johnson. Thank you, sir, and I have no further 
questions at this time, and I will yield back.
    Mr. Schiff. The gentleman yields back.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And, again, like Mr. Johnson, I would request a word limit 
rather than a time limit. It will work better. But thank you.
    Mr. Mole, I am curious about a couple of things. But for 
one, this occurred back around 1997 that you filed a motion to 
recuse. Are you aware of whether information went out among the 
local bar in New Orleans about your case and what had occurred 
in your case?
    Mr. Mole. Yes, I don't know. Certainly, everybody I knew 
heard me complain about how long it was under submission. The 
motion to recuse was in October 1996. We tried the case in 
1997. I don't think it was that publicly----
    Mr. Gohmert. Do you remember--do you remember about what 
year you found out that there was money being paid by attorneys 
for your opponent to the judge that just happened to coincide 
with, basically, the--based on the number of curatorship cases 
that were sent to their firm?
    Mr. Mole. I didn't learn of that until the fifth circuit 
lawyers interviewed me to be a witness in their proceedings, 
which I believe was about a year-and-a-half ago, maybe 2 years. 
So I learned that relatively late in the game.
    Mr. Gohmert. I see. So that was not common knowledge then 
around the bar in New Orleans?
    Mr. Mole. No. I don't think that became common knowledge 
until the fifth circuit published its--or made public its 
recommendation that Judge Porteous be impeached.
    Mr. Gohmert. If Judge Porteous were to begin receiving 
cases submitted again, assigned again by lifting of the 
suspension by the fifth circuit, other than the firm of Creely, 
would you know of lawyers around New Orleans who would not be 
requesting a jury trial on complex cases?
    Mr. Mole. No, I think--you know, I think they would have a 
problem getting lawyers who were comfortable with him as the 
only fact-finder.
    Mr. Gohmert. Because one of the concerns I have is that 
litigants normally are supposed to have a right to either have 
a trial by jury or a trial by judge. And if one of those two is 
effectively excluded, then it would seem to be an unfair 
judicial situation for the people in that district. You 
understand my point?
    Mr. Mole. Absolutely. And I would certainly ask him not to 
hear my cases if I went back to Federal court.
    Mr. Gohmert. Or if you had a case assigned back in his 
court, I know you would look forward to it, but would you go to 
the court, or would you be requesting a jury in Judge 
Porteous's court?
    Mr. Mole. I almost always request--I request a jury.
    Mr. Gohmert. I am curious. I know that some terms that are 
used in the Constitution and in the law have meanings that are 
relative. One term that is used in the Constitution is good 
behavior, that the judges both of the supreme and inferior 
courts shall hold their offices during good behavior. And so I 
am wondering about--since I have never been a member of the bar 
in New Orleans. I have been a member of the fifth circuit bar, 
but not of New Orleans.
    I am curious--and never having been before a court lower 
than the fifth circuit in New Orleans, I am curious, is good 
behavior considered to be--or include sending curatorship cases 
to attorney's firms and expecting funds back based on the 
number of curatorships? Is that considered good behavior in the 
New Orleans bar, to your knowledge?
    Mr. Mole. Well, that happened, I believe, in the state 
court bench. But----
    Mr. Gohmert. Well, that is correct. But that, again, was in 
New Orleans.
    Mr. Mole. You know, I don't--like you said, it is a 
relative term, and I think it is this body's job to decide.
    Mr. Gohmert. So are you saying that that is a common 
occurrence? I am wondering, because we had a dissent filed by 
another Louisiana judge, and just from my experience, it seems 
like people who engage in the same conduct as someone being 
charged are often more sympathetic to the one being charged. 
And so I am just curious how prevalent the practice is and if 
that is something that is common to your knowledge in the New 
Orleans bar?
    Mr. Mole. It certainly is not. That would certainly raise 
eyebrows, and it sounds to me like that something that would be 
of interest to a prosecuting attorney----
    Mr. Gohmert. Because I----
    Mr. Mole.--U.S. attorney.
    Mr. Gohmert. I am just trying to figure out exactly what 
the standard is there.
    Mr. Mole. Good behavior.
    Mr. Gohmert. We--this--yes, good behavior. And this--well, 
the Crime Subcommittee had a hearing in New Orleans a couple 
years or so ago chaired by Chairman Bobby Scott in which the 
U.S. attorney said the number one problem in New Orleans before 
Hurricane Katrina was graft and corruption and the number-one 
problem in New Orleans after Hurricane Katrina is still graft 
and corruption. That was his observation.
    I was also surprised to find during that testimony--we were 
at least told in that hearing that it is not uncommon practice 
for a criminal defense attorney to contact a state judge 
directly, ex parte, without the prosecutor knowing, and make a 
case for lowering the bond of a criminal defendant in--in jail. 
And if the judge is willing to lower the bond to a level that 
the defendant can make and post and get out of jail, then that 
judge's court gets a cut of that bond that is made by the 
criminal defendant.
    Somebody like me and others who have been involved in our 
judicial system in other states were rather shocked by that and 
shocked to find that apparently that was considered appropriate 
there in New Orleans. So I am just trying to find the extent to 
which conduct that apparently is undisputed was considered 
appropriate behavior, good behavior.
    How about throwing books from the bench? You said you have 
never had them thrown in your direction before. Have you seen 
them thrown in other lawyers' directions in other cases in New 
Orleans?
    Mr. Mole. No, sir, I have not. And, you know, I think in 
Louisiana, we have a reputation for corruption that is 
unfortunate. And I would disagree that it is our primary 
problem right now. We have----
    Mr. Gohmert. No, I am just telling you what the testimony 
was at our hearing.
    Mr. Mole. I just--well, offering my observation, but I 
think it is certainly bad behavior to take kickbacks from 
lawyers for assigning them work for the judge----
    Mr. Gohmert. But I don't think it is universally 
acknowledged that they were kickbacks. Apparently, they just 
happened to coincide with the number of curatorships that were 
assigned and be around the $150 initially and then $200 per 
case. It just happened to coincide directly with the number of 
curatorships, to my understanding of the evidence before us.
    So you--to answer my question, though, you have never seen 
a judge throw books from the bench before in anybody's 
direction?
    Mr. Mole. No. I have never experienced that either as a 
witness or as an object of throwing.
    Mr. Gohmert. Well, and, Mr. Chairman, I am not sure how 
many cases were assigned after the action was taken against 
Judge Porteous, but I would request to see if we could get 
information on how many jury trials compared to bench trials 
were requested after the time that this information came to 
light, because I am concerned about the effect on future 
litigants if the information we take from this hearing were 
deemed to be good behavior and allowable and Judge Porteous to 
go back to the bench and resume his caseload. I am wondering if 
there were already indications that it would have affected 
litigants' rights to have a bench trial as perceived by the 
litigants, if the Chair understands my request.
    Mr. Schiff. I do. And we can try to find out that 
information.
    Mr. Gohmert. Thank you. And I would yield back.
    Mr. Schiff. The gentleman yields back.
    Mr. Pierluisi?
    Mr. Pierluisi. Good morning, Mr. Mole.
    Mr. Mole. Good morning.
    Mr. Pierluisi. How long have you been practicing in New 
Orleans?
    Mr. Mole. Thirty-two years.
    Mr. Pierluisi. Have you devoted a substantial amount of 
your time to trial work?
    Mr. Mole. Yes.
    Mr. Pierluisi. That is the main line of your practice?
    Mr. Mole. I would say my work has been about 95 percent 
litigation.
    Mr. Pierluisi. And you appear on a regular basis before 
both state courts and Federal courts?
    Mr. Mole. That is correct.
    Mr. Pierluisi. To your knowledge, what are the--what is 
the--the entity that imposes the code of ethics in--in 
Louisiana?
    Mr. Mole. The Louisiana bar.
    Mr. Pierluisi. For lawyers?
    Mr. Mole. On lawyers, it is the Louisiana Bar Association.
    Mr. Pierluisi. How about the----
    Mr. Mole. I think the Supreme Court enforces it.
    Mr. Pierluisi. And the Supreme Court enforces it?
    Mr. Mole. Yes.
    Mr. Pierluisi. And how about the U.S. district court in 
Louisiana? Does it have its own set of local rules?
    Mr. Mole. No. For some cases, it adopts by reference to 
Louisiana rules. And in cases in Federal jurisdiction, it 
adopts the model rules of ethics.
    Mr. Pierluisi. In this particular case that we are 
concerned about, the Lifemark-Liljeberg case, what set of 
ethics rules were applicable, to your knowledge?
    Mr. Mole. I really haven't looked into that, Mr. Pierluisi. 
I am sure they are implicated, but I don't know the specific 
rules. I mean, it is such a general problem.
    Mr. Pierluisi. This was a diversity case?
    Mr. Mole. No. The basic jurisdiction arose under 
bankruptcy.
    Mr. Pierluisi. I see.
    Mr. Mole. And it may have been diverse citizenship, but 
that was not the basis for jurisdiction in most of the 
controversy.
    Mr. Pierluisi. Any ethics rules, other than the Louisiana 
rules, applying here to your--to the best of your knowledge?
    Mr. Mole. Not to the best of my knowledge. I think it would 
be Louisiana's rules.
    Mr. Pierluisi. Louisiana's rules, okay. Now, given that you 
have been practicing so long, is it customary in New Orleans 
for trial lawyers to go out to lunch or dinner with Federal 
judges and pay for those meals?
    Mr. Mole. I don't know how frequent it is. I know it does 
happen. You know, nobody raises any eyebrows at that.
    Mr. Pierluisi. Is it customary for trial lawyers to go out 
to lunch again or dinner with a Federal judge who is at the 
time presiding or overseeing a case that those trial lawyers 
are handling and, on top of it, pay for the bill?
    Mr. Mole. You know, I certainly have never done that. I 
don't know that it would raise eyebrows. I think every judge 
sets his own boundaries on those issues. So I really--I am 
really not competent to give you a general answer on that.
    Mr. Pierluisi. Is it customary--said differently, is it 
customary in New Orleans for trial lawyers to have ex parte 
contact with Federal judges while a case is pending?
    Mr. Mole. No, that is forbidden.
    Mr. Pierluisi. Is that the line where you--that you don't 
cross over?
    Mr. Mole. Absolutely.
    Mr. Pierluisi. Is that the line that most lawyers and trial 
lawyers in New Orleans avoid crossing?
    Mr. Mole. It is the line you are supposed to avoid crossing 
in state and Federal court everywhere I have ever practiced.
    Mr. Pierluisi. To your knowledge, is there any ethics rule 
prohibiting ex parte contact between counsel and a sitting 
judge or a trial judge?
    Mr. Mole. I know it is forbidden. I don't know the--the 
rule. Yes, it is forbidden. I don't know--you know, it is like 
the Ten Commandments. I don't know which--which number it 
crosses, but it is certainly something you shouldn't do.
    Mr. Pierluisi. Now, you testified earlier that you were 
uncomfortable about engaging counsel--I believe Gardner--in 
your case. And you explained that your client was, you know, 
insisting upon it. Is that a fair way of summarizing what you 
said to us before?
    Mr. Mole. Yes.
    Mr. Pierluisi. Now, had you done something similar before 
in any case, meaning bring in a counsel primarily because of 
his friendship or acquaintance with the trial judge?
    Mr. Mole. Certainly never in Federal court. When I have 
practiced in courthouses outside of the New Orleans courts, I 
will hire local counsel who may be local and know everybody. It 
is just because I--I don't know the court's customs and 
practices, and I want someone who does.
    Mr. Pierluisi. Is it customary in New Orleans for trial 
lawyers appearing before the Federal court there to bring in 
counsel, again, for the primary reason of, you know, having a 
friend of the judge sitting at counsel's table?
    Mr. Mole. Absolutely not. I think most judges would be 
offended if you did that, certainly on our Federal bench.
    Mr. Pierluisi. By the way, this case, Lifemark-Liljeberg, 
is over with, and it has been over with now for many years, 
right?
    Mr. Mole. Yes.
    Mr. Pierluisi. Sitting here today, you have no interest--
your client--even your client has no interest in what you are 
telling us?
    Mr. Mole. That is correct. I have checked with them, and 
they have----
    Mr. Pierluisi. No financial impact, no----
    Mr. Mole. No, none.
    Mr. Pierluisi. Is it fair for me to say that your interest 
in appearing here today is simply to cooperate with this Task 
Force and this proceeding?
    Mr. Mole. That and the subpoena that I got. [Laughter.]
    Mr. Pierluisi. That in and of itself encourages some 
cooperation. But apart from that, I mean, you have no stake in 
this.
    Mr. Mole. None.
    Mr. Pierluisi. And your former or existing client, 
Lifemark, doesn't either.
    Mr. Mole. They don't even own the hospital anymore.
    Mr. Pierluisi. When you learned about the ex parte contacts 
between your opposing counsel and Judge Porteous, after the 
case was tried and it was just waiting for his decision, how 
did you feel about that?
    Mr. Mole. Well, I didn't know about what has been disclosed 
here until after the case was decided. But when I learned of 
Judge Porteous'--the extent of his relationship with Jake Amato 
and Bob Creely and Lenny Levenson, it confirmed my suspicions, 
yes.
    Mr. Pierluisi. To your knowledge, did Judge Porteous have 
ex parte contacts with either Amato or Creely or Levenson 
without Gardner being present?
    Mr. Mole. I don't know. Like I said, I have tried to stay 
out of learning any more than I already know.
    Mr. Pierluisi. If any such contact happened, what do you 
feel about it? What do you believe?
    Mr. Mole. I think it would be my duty to disclose it to the 
appropriate ethical bodies.
    Mr. Pierluisi. I have no further questions. Thank you.
    Mr. Mole. You are welcome.
    Mr. Schiff. The gentleman yields back.
    At this point, Mr. Westling, you have an opportunity to 
question the witness.
    Mr. Westling. Thank you, Mr. Chairman.
    Mr. Mole, good afternoon, or not quite afternoon, I guess.
    Mr. Mole. We have got 5 minutes left.
    Mr. Westling. Five minutes left. I will try to use them 
wisely.
    You have testified in two prior occasions relating to this 
matter. Is that correct?
    Mr. Mole. Under oath, yes.
    Mr. Westling. One was before the grand jury and the other 
before the fifth circuit panel, correct?
    Mr. Mole. That is correct.
    Mr. Westling. And in all of that testimony, you have always 
indicated that you felt the way that Judge Porteous handled the 
trial was professional and as a gentleman and was polite, with 
the one exception of the book incident we have heard about. Is 
that correct?
    Mr. Mole. That is correct. And even that, I took some pride 
in being able to get him so angry at me that he threw something 
at me. That is a--that is a----
    Mr. Westling. And just to kind of close up on that issue, 
you have told us that, when you came back the next week, the 
judge not only ruled in a manner on the record that seemed well 
thought out, he overruled your objection, but gave you the 
opportunity to do what you had been asking to do. Is that 
correct?
    Mr. Mole. That is correct. That is correct.
    Mr. Westling. And he seemed to have calmed down about the 
whole situation?
    Mr. Mole. Yes.
    Mr. Westling. Okay. And I assume it is fair to say, in all 
the numbers of years you have been in front of Federal judges 
in the city of New Orleans, that this is not the first time one 
has lost their temper with you?
    Mr. Mole. No. And even outside of New Orleans.
    Mr. Westling. And you also talked about Judge Porteous and 
his questioning of witnesses following on the questions of, in 
many cases, the cross-examining attorneys for the Liljebergs, 
correct?
    Mr. Mole. Yes.
    Mr. Westling. Okay. And he would follow up with his own 
questions. And at times, you felt that went further than you 
would have preferred.
    Mr. Mole. That is correct.
    Mr. Westling. And that is because you thought it was 
undoing work you thought you had done well. Fair statement?
    Mr. Mole. Work that I and the witness had both done well, 
yes.
    Mr. Westling. But in each case, he didn't cause the witness 
to say anything that wasn't true, did he?
    Mr. Mole. I don't recall the details, but I felt he had 
pushed the witness to points that were not fair without any 
follow-up.
    Mr. Westling. Okay. And so what was appropriate was a 
follow-up, not exactly what he was doing in questioning?
    Mr. Mole. And that is what got him angry.
    Mr. Westling. All right. And so as a practical matter, this 
was not the first, nor will it be the last time that you have 
had a Federal judge get involved in questioning, particularly 
during a bench trial?
    Mr. Mole. Certainly not.
    Mr. Westling. Now, you have talked to us about--just a few 
more things about the--the conduct of the trial. He made 
evidentiary rulings, correct?
    Mr. Mole. Absolutely.
    Mr. Westling. He showed a facility with the rules of 
evidence that is not typical in a trial judge. Do you think 
that is a fair statement?
    Mr. Mole. I have said it before: Judge Porteous is a good 
trial judge. He knows the rules of evidence. He has got a good 
command of the courtroom. And you want a judge who is decisive 
and doesn't dither and knows what he is doing when he makes 
rulings.
    Mr. Westling. And in this particular case, that kind of a 
judge was helpful, don't you think?
    Mr. Mole. It makes the trial go smoothly.
    Mr. Westling. Okay. And so this was generally a smooth 
trial?
    Mr. Mole. Yes. Tense, but smooth.
    Mr. Westling. And when you say that, intense, I mean, this 
was a very longstanding dispute between two parties that were 
not afraid to litigate. Is that a fair statement?
    Mr. Mole. They were--there was a lot of animosity. It was 
extremely intense. And a lot of emotion between the parties.
    Mr. Westling. And, in fact, it had a long history before 
you were involved.
    Mr. Mole. Litigation began in 1987.
    Mr. Westling. 1980----
    Mr. Mole. And the contractual relationship began in 1983.
    Mr. Westling. Okay. So the relationship went back to 1983, 
the litigation back to 1987.
    Mr. Mole. That is correct.
    Mr. Westling. And so this is coming to trial, really, after 
10 years of fighting.
    Mr. Mole. Yes.
    Mr. Westling. And Judge Porteous moved it through the trial 
phase expeditiously?
    Mr. Mole. I would agree with that.
    Mr. Westling. All right. And you got a trial in a case that 
had been wanting a trial for quite a while.
    Mr. Mole. It was essential to my client to get through 
that.
    Mr. Westling. All right. Now, let's talk a little bit about 
the lawyers that are in the case when you enter, which I 
understand was in the early part of 1996, if I have my dates 
right.
    Mr. Mole. I made my appearance in April.
    Mr. Westling. Okay. So at the time, Don Richard is the 
principal lawyer for the Liljebergs?
    Mr. Mole. Don seemed to be the lead lawyer.
    Mr. Westling. Okay. And he remained involved in the case 
through the trial, correct?
    Mr. Mole. Yes.
    Mr. Westling. And he continued to play a substantial role 
in the trial?
    Mr. Mole. Yes. In fact, Don was engaged until the very end.
    Mr. Westling. Okay. And Don is a lawyer who at the time was 
practicing in a small practice.
    Mr. Mole. Yes. Don is--he, at one point, was my partner at 
a previous firm.
    Mr. Westling. Okay. He is a good lawyer.
    Mr. Mole. Don is very well respected, represents the 
Archdiocese of New Orleans, the Baptist Theological Seminary. 
He seems to have an avenue to God-related work.
    Mr. Westling. Okay. And so he stayed involved. And what you 
know at this point is that, at some point, Amato and Mr. 
Levenson are brought in, and they work with Don on the case.
    Mr. Mole. Yes, and there were other lawyers involved, as 
well as Don, and--at the time they came in.
    Mr. Westling. And you all had a team, as well, I assume?
    Mr. Mole. Yes, I brought in two young partners--maybe they 
were still associates at the time--a couple of paralegals, 
staff of people that I routinely worked with.
    Mr. Westling. Okay. And so there is a lot of legal 
firepower on each side of this case?
    Mr. Mole. Yes.
    Mr. Westling. A lot of documents, a lot of issues?
    Mr. Mole. Big case, lot of issues.
    Mr. Westling. Mr. Amato and Mr. Levenson are brought in, 
but by the time that happens, are you confident you are going 
to keep that November trial date, or is that questionable?
    Mr. Mole. Well, the November trial date was an attractive 
thing to my client, to me. But we did ask to get it continued. 
In fact, the judge, I think, volunteered that, because of the 
recusal. But we were--Judge Porteous, every time we saw him in 
status conferences and whatnot, reinforced that he was not 
prone to move it. He wanted to get the trial over with quickly, 
which was good.
    Mr. Westling. But as a practical matter, while they came in 
late against a trial date, the questionability was, would that 
be the real trial date. Fair statement?
    Mr. Mole. We were pretty certain of it at the time. The 
only thing that pushed it back, to my recollection, was the 
motion to recuse caused Judge Porteous to suspend everything, 
and so we could get that over with and get it behind us and I 
could get to the fifth circuit and back.
    Mr. Westling. All right.
    Mr. Mole. That--and I think the fact that we got to June 
was a product of that.
    Mr. Westling. But as a practical matter, it was set within 
the year and it went to trial within the year, correct?
    Mr. Mole. That is correct. And we did a lot of things in 
between.
    Mr. Westling. Now, you are unsuccessful in getting the 
fifth circuit to review the recusal issue. And you have some 
discussions--and I am not looking to go into the discussions 
with your client--but that leads you to determine that it is 
appropriate--or it makes sense, may be a better way to put it--
to go out and look for another lawyer in the New Orleans 
community to--I think your words are--level the playing field.
    Mr. Mole. That was something I consulted with my client 
about. And jointly we decided to go ahead and do that, yes.
    Mr. Westling. Now, there are other--well, at the time that 
Judge Porteous is handling this case, he has been on the 
Federal bench only a few years. Is that right?
    Mr. Mole. I believe he was--took the bench--the Federal 
bench in 1994.
    Mr. Westling. All right. And he had come from Jefferson 
Parish?
    Mr. Mole. Yes, he had been a state court elected judge.
    Mr. Westling. All right. And as a practical matter, often 
when you go over to Jefferson Parish, there is some discussion 
about bringing other lawyers into cases, is there not?
    Mr. Mole. Frequently, yes.
    Mr. Westling. All right. So when you learned Judge Porteous 
has the case, you are thinking of him from a state judge 
perspective. Is that a fair statement? You don't know him as a 
Federal judge?
    Mr. Mole. I didn't know him as a state court judge, either. 
I had never had a case with Judge Porteous in state court or 
Federal court. The fact that he had been on the Jefferson 
Parish bench was one of the factors that we considered.
    Mr. Westling. So you go out and you--you look for Mr. 
Gardner. And by the way, was there a relationship that you had 
in the past with any one that was involved in judging the case? 
I think there was a magistrate in this case. Was he a former 
law partner of yours?
    Mr. Mole. You have got to be speaking about Jay Wilkinson, 
who was a partner of mine. I don't know that we ever brought 
any issues to him as a magistrate, but, yes, he had been a 
partner.
    Mr. Westling. But he was the magistrate assigned to the 
case. Is that correct?
    Mr. Mole. I think you are right, but we never--we never--he 
handled discovery issues. And by the time I got in, those were 
all behind us.
    Mr. Westling. Basically resolved?
    Mr. Mole. Yes, I don't think we ever had recourse to Jay in 
the case. We may have; I just don't recall that.
    Mr. Westling. But I also think there was a point where, in 
terms of looking for your lawyer that we have talked about, you 
had a conversation with Jay's brother?
    Mr. Mole. Tom, yes.
    Mr. Westling. Okay. And he is involved in politics in 
Jefferson Parish?
    Mr. Mole. He is the parish attorney for Jefferson Parish, 
was then.
    Mr. Westling. Okay. And so was that the way you identified 
Don Gardner?
    Mr. Mole. Pretty much. Tom recommended him for somebody who 
knew the judge well.
    Mr. Westling. And so, despite the fact that you were 
uncomfortable with this, your client felt that it was best to 
find someone that had a relationship with the judge?
    Mr. Mole. It is safe to say they felt exposed and naked and 
they wanted to put on as much protection as possible.
    Mr. Westling. All right.
    Mr. Mole. And that is why we did it.
    Mr. Westling. And so you confected an agreement with Mr. 
Gardner that you testified about where he was going to get a 
minimum of $100,000, correct?
    Mr. Mole. He got that, yes.
    Mr. Westling. All right. And that if various things 
happened, he could get more money?
    Mr. Mole. That is correct.
    Mr. Westling. And one of those things would have been, had 
Judge Porteous recused himself, he would have gotten another 
$100,000. Is that correct?
    Mr. Mole. And then he would have been out of the case.
    Mr. Westling. All right. But the net effect was, there was 
a provision in the agreement that said, if Judge Porteous 
withdraws, you are entitled to additional money?
    Mr. Mole. That is correct.
    Mr. Westling. Okay. And I think you have testified that the 
reason for that was just a concern about keeping Mr. Gardner 
interested in the case. Is that fair?
    Mr. Mole. Correct. And I was hoping that his presence would 
also cause the judge to feel like there were too many of his 
friends in the case and he needed to get out.
    Mr. Westling. Mr. Chairman, I am noticing my light is on. 
Could I have a few more moments?
    Mr. Schiff. Yes, of course, Counsel.
    Mr. Westling. Thank you.
    So when you went to Mr. Gardner and hired him, you talked 
with him about Judge Porteous, I am assuming?
    Mr. Mole. Sure did.
    Mr. Westling. And what did he tell you about the benefits 
of hiring him in this case?
    Mr. Mole. Don was very--you have got to know him. He is a 
character. He is very forthright about--he had a very close 
relationship. He and the judge shared a taste for wine, and he 
often gave him bottles of wine and shared them with him and had 
him over to dinners where they experienced new wines that he 
had brought in from California, and that--but he made clear to 
me, over and over, in hiring me, you are not going to get any 
results, there is nothing I can do to influence what this judge 
will do with the law, so, you know, I am happy to help you and 
I am happy to take your money, but, you know, I will--I will 
give you any insight I have into how this judge thinks or, you 
know, what he likes, whether you should shave your moustache 
off or put on a nurse as opposed to a doctor for a bit of 
evidence, things like that.
    Mr. Westling. All right. But as a practical matter, he was 
adamant that it wouldn't make a difference to Judge Porteous 
that a friend was in his court. Is that fair?
    Mr. Mole. He said that over and over.
    Mr. Westling. And so he also was saying that about Jake 
Amato and Lenny Levenson?
    Mr. Mole. You know, I don't think he was as definite about 
that. I don't know that I asked him that question. I made it 
plain to him why we were bringing him in, and he said he 
thought he could help.
    Mr. Westling. During the course of the trial, you learned 
that Mr. Gardner was--during the--it may be a better way to put 
it--during the course of the case, you knew that Mr. Gardner 
was continuing to have his friendship with Judge Porteous, 
correct?
    Mr. Mole. Yes.
    Mr. Westling. You knew he was continuing to entertain Judge 
Porteous, correct?
    Mr. Mole. I believe they still socialized. That is what I--
that is what I knew.
    Mr. Westling. And, in fact, you were asked in the grand 
jury about whether entertaining expenses for Judge Porteous had 
come in any way from the money that he received as a result of 
the fee. And I think you indicated that you didn't have any 
reason to know that one way or another.
    Mr. Mole. I don't recall the testimony, but that is 
certainly accurate.
    Mr. Westling. Okay. But it wasn't a situation where you 
were left in the dark about the fact that Mr. Gardner continued 
to socialize with his friend?
    Mr. Mole. I knew they still socialized.
    Mr. Westling. Okay. And I assume you weren't concerned 
about that?
    Mr. Mole. No. No, I had no concerns about that.
    Mr. Westling. Okay.
    Is it fair to say that the Liljebergs had--well, they had 
raised this issue--the issues in this case well before Judge 
Porteous was involved in the fifth circuit. Are you aware of 
that?
    Mr. Mole. I am sorry. Would you repeat that, Mr. Westling?
    Mr. Westling. Sure. It wasn't well said, so I will be happy 
to.
    Mr. Mole. Sure.
    Mr. Westling. The Liljebergs had litigated appellate issues 
in this case before your involvement and before it was assigned 
to Judge Porteous. Is that correct?
    Mr. Mole. Yes, they had had state law--state court and 
certainly fifth circuit appeals that I was aware of.
    Mr. Westling. And do you recall there being language in the 
fifth circuit opinion in this case that referenced older 
decisions by the fifth circuit?
    Mr. Mole. Yes, there was one fifth circuit opinion that we 
cited over and over that indicated that the fifth circuit had a 
low opinion of the Liljebergs' lawyer--previous lawyer's 
tactics.
    Mr. Westling. Okay. And so that resurfaced in the opinion 
here?
    Mr. Mole. Yes.
    Mr. Westling. Okay. Now, in terms of the evidence in this 
case, is it--I know you have said it is a slam-dunk, but, I 
mean, you are a trial lawyer and I am a trial lawyer. I mean, 
we don't have that many slam-dunks, do we?
    Mr. Mole. Yes.
    Mr. Westling. We all like to think we have one, but whether 
we do, I guess, remains in the result. Fair statement?
    Mr. Mole. Right.
    Mr. Westling. Okay. There was a number of items of evidence 
in this case that came in during the trial that went to one 
side or the other. This was not a one-sided set of evidence. 
Fair statement?
    Mr. Mole. You know, it was a huge case. And I don't recall 
all the evidence, but certainly both sides put on a thorough 
case of their evidence.
    Mr. Westling. And Judge Porteous wrote about an 108-page 
opinion?
    Mr. Mole. Yes.
    Mr. Westling. And in doing that, he made findings of fact, 
and he supported those in many cases with citations to the 
record or to evidence, correct?
    Mr. Mole. I certainly would agree with that.
    Mr. Westling. And you didn't look at it and say, ``Gee, I 
think the evidence is wrong.'' What you thought, it was that 
his conclusions were wrong. Fair statement?
    Mr. Mole. Yes. You know, I think--I think he certainly 
twisted the evidence for the hospital result and for the 
severance of the contract. I didn't agree with those results, 
didn't think it was supportable.
    Mr. Westling. All right. One moment.
    I have no further questions, Mr. Chairman.
    Mr. Schiff. Thank you, Counsel.
    We just have a few more questions and then we are going to 
have votes shortly. And hopefully, we will be able to release 
you.
    You mentioned a couple things I want to follow up on. One 
was that you just wanted to survive the judgment, I think was 
the expression that you used. Does that indicate that you had 
the feeling all along during the trial that the judge was going 
to rule the other way?
    Mr. Mole. Yes, I did.
    Mr. Schiff. So notwithstanding the fact that at least the 
atmospherics of the way the judge conducted the trial gave the 
appearance of a fair trial, you strongly believed he was 
ultimately going to rule against you?
    Mr. Mole. Yes. I mean, if I could analogize it to a boxing 
match where you put on your best fight and then the referees 
decided the other guy won by decision, that is--that is what 
I--that is where I felt we were headed.
    Mr. Schiff. Now, in your experience as a litigator, are you 
familiar with judges' efforts to make sure that their record is 
upheld on appeal?
    Mr. Mole. I am not sure what you are referring to.
    Mr. Schiff. Well, in other words, if a judge wants their--
their decision to be upheld on appeal, they will conduct the 
trial in a way that will create a suitable record for appeal, 
won't they?
    Mr. Mole. Sure.
    Mr. Schiff. So if this judge wanted to find for a certain 
party, it would be in his interest to conduct the trial in a 
way that would appear to the appellate court to be fair?
    Mr. Mole. I would assume he would want that, yes.
    Mr. Schiff. You mentioned that, you know, as a trial judge, 
Judge Porteous knew what he was doing and knew the rules of 
evidence. And that was manifest, too, in his handling of the 
recusal hearing. He understood what the legal standards were 
and the arguments you were making, correct?
    Mr. Mole. Yes. And I think, in retrospect, in the recusal, 
he was just flat-out dishonest with us. But at trial, you know, 
it was just a trial.
    Mr. Schiff. Now, you mentioned you--you appealed. You 
sought a writ of mandamus on the denial of the recusal motion?
    Mr. Mole. Yes, I took an immediate supervisory writ.
    Mr. Schiff. And in that motion to the court of appeals, you 
presented whatever record you had that supported the recusal 
motion, correct?
    Mr. Mole. Yes, the motion was about that thick, and the 
only evidence I had was my own affidavit, which was obviously 
not enough to get the fifth circuit to do what it seldom does.
    Mr. Schiff. And is it a fair statement to say that because 
Judge Porteous did not disclose what he had a duty to disclose 
during the recusal hearing that the record you sent to the 
court of appeals was an incomplete record?
    Mr. Mole. There was no hard evidence.
    Mr. Schiff. And as a result of that, the court of appeals 
was deprived of the information it needed to make an 
appropriate judgment on the recusal motion. Is that right?
    Mr. Mole. That is certainly my opinion.
    Mr. Schiff. Do you have any question about whether the 
court of appeals would have reversed the recusal denial had 
they known of the payments that were received by the judge from 
lawyers in the case?
    Mr. Mole. You know, I can't presume to speak for the fifth 
circuit. They are pretty good at what they do. But I can't 
imagine they would have denied the appeal under those 
circumstances.
    Mr. Schiff. So because of the failure of the judge to 
disclose what he had a duty to disclose in the district court, 
you were deprived of the services of the court of appeals?
    Mr. Mole. Absolutely. You know, if I had been able to tell 
the fifth circuit that the judge had a relationship with at 
least one of the lawyers whereby he received money in return 
for referrals of curatorships, that he was bought hundreds of 
lunches, expensive lunches, that he traveled at their expense, 
and that he received cash from them when he asked, I don't have 
any doubt they would have--you know, we would have got what we 
asked for.
    Mr. Schiff. Do you have any doubt as to whether if you had 
been able to disclose to the court of appeals that he had 
solicited $2,500 in cash from one of the attorneys and received 
it while the case was under submission, do you have any 
question about whether the court of appeals would have taken 
that case away from him?
    Mr. Mole. No, I don't have any doubt about that. It is just 
the sort of thing I feared.
    Mr. Schiff. You mentioned----
    Mr. Cohen. Could you speak into the microphone? We couldn't 
hear that.
    Mr. Mole. I said that is just the sort of fact that I 
feared existed but didn't know about.
    Mr. Schiff. You said something interesting, that in terms 
of the package from Mr. Gardner, it was $100,000 upfront. There 
was another $100,000 if the recusal motion was granted. Is that 
right?
    Mr. Mole. Well, it was well after the recusal was decided. 
It was----
    Mr. Schiff. Well, no, but----
    Mr. Mole.--$100,000 if the judge steps--recused himself for 
any reason thereafter.
    Mr. Schiff. Okay. I think you said--and I want to make sure 
I understood this correctly--that if the judge recused himself, 
then Gardner was out of the case.
    Mr. Mole. Correct.
    Mr. Schiff. By that, did you mean that, if the judge took 
himself off the case, that Gardner's participation in the case 
after that would not be necessary and he would no longer be 
part of the legal team on the case?
    Mr. Mole. That is correct.
    Mr. Schiff. So Gardner was brought in because of his 
relationship with the judge and, if the judge changed and you 
got a new judge, there was no need to have Gardner on the case 
anymore.
    Mr. Mole. I certainly didn't want him to continue to be 
involved.
    Mr. Schiff. To your knowledge, was there any reason why 
Amato and Levenson were brought into the case unrelated to 
their relationship with the judge?
    Mr. Mole. You know, by my due diligence, what I learned of 
them leads me to conclude that there was no other reason. They 
had no expertise or experience that made them suitable for that 
case. And certainly, what they did during the course of the 
case didn't change that opinion.
    Mr. Schiff. Had they not been brought in and the recusal--
necessitating the recusal motion, is it possible the trial 
would have gone on the scheduled date in November?
    Mr. Mole. Yes, I think it is--you know, you would have to 
ask Judge Porteous what his calendar was like back then, but I 
think it was more likely than not we were going to go to trial 
on November 6th absent the recusal. I think that--that rocked 
the boat substantially.
    Mr. Schiff. I have no further questions.
    Mr. Goodlatte?
    Mr. Goodlatte. Mr. Chairman, I think we have concluded our 
questions for this witness. And I don't think we have any 
further on this side.
    Mr. Schiff. Yes, Mr. Johnson?
    Mr. Johnson. All right. Thank you, Mr. Chairman.
    Under examination from Judge Westling, you talked about you 
knew that there was an ongoing social relationship between 
Judge Porteous and the--the attorney, Levenson and Amato, or 
Levenson or Amato. You knew that there was some socialization 
going on between them, correct?
    Mr. Mole. Absolutely.
    Mr. Johnson. But you didn't know what the extent of the 
social relationship was at that time?
    Mr. Mole. No. I didn't know certainly what I know now.
    Mr. Johnson. And you did not know that during the pendency 
of the judge's decision you--that Judge Porteous was receiving 
cash from the--one of the attorneys or the attorneys for the 
plaintiff?
    Mr. Mole. No, I think if that fact had been known, the 
alarms would have gone off all over.
    Mr. Johnson. Now, Judge Porteous did a good job handling 
the motion for recusal, in your opinion?
    Mr. Mole. I don't know what you mean by ``good.'' I think 
he reached the wrong result for improper reasons, which is all 
that mattered.
    Mr. Johnson. Well, let me ask the question this way. Did it 
appear that Judge Porteous, in your legal opinion, knew the 
rules of judicial recusal?
    Mr. Mole. I think he understood what was required of him, 
yes, but the sense I had of standing in front of him and asking 
him to step down, implying that he was compromised, was that he 
was looking at me to find out how much I knew, and that if I 
didn't know enough, he certainly wasn't going to grant my 
motion. That was the feeling I had when it was--when he banged 
the gavel down.
                               __________

    Mr. Johnson. Thank you, sir.
    Mr. Schiff. Gentleman yields back.
    I want to thank the witness and Members for their 
participation. Without objection, the record will remain open 
for 5 legislative days for Members to submit any additional 
materials. Again, I want to thank everyone for their time and 
patience.
    This hearing of the Impeachment Task Force is adjourned.
    [Whereupon, at 12:18 p.m., the Task Force was adjourned.]

                                 <all>

</pre></body></html>
